No. __-____

IN THE

Supreme Court of the United States
>>>>
WILLIAM O. FULLER, as
Successor Personal Representative of
the Estate of ROBERT OTIS FULLER,
Petitioner,
v.

BANCO BILBAO VIZCAYA ARGENTARIA, S.A.,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Roberto Martinez
COLSON HICKS EIDSON, P.A.
255 Alhambra Circle
Penthouse
Coral Gables, Florida 33134
305-476-7400
bob@colson.com

James W. Perkins
GREENBERG TRAURIG, LLP
200 Park Avenue
New York, New York 10166
212-801-9200
perkinsj@gtlaw.com

Counsel for Petitioners
July 20, 2020

i
QUESTIONS PRESENTED
1. Whether a Court of Appeals panel can,
consistent with Steel Company v. Citizens for A
Better Environment, 523 U.S. 83 (1998) and the
Constitutional requirement that courts have
jurisdiction to proclaim the law, avoid a res judicata
bar by determining that a prior panel in a separate
case applied hypothetical jurisdiction, even though
the latter decided the case on the merits and ruled
that remaining challenges, including to subject
matter jurisdiction, were “unavailing” and gave no
indication that it was using hypothetical jurisdiction
to reach the merits?
2. Whether a standard for assessing subject
matter jurisdiction under the Terrorism Risk
Insurance Act of 2002 (“TRIA”) Pub. L. N. 107-297,
§ 201, 116 Stat. 2322 (2002), codified as amended at
28 U.S.C. § 1610 note, which requires the district
court to disregard the express findings of the state
court rendering a TRIA judgment and prior federal
full faith and credit determinations, violates
principles of federalism and intrudes on the state’s
powers given to it under the Foreign Sovereign
Immunities Act (“FSIA”), 28 U.S.C. §§ 1605(a)(7)
(repealed 2008) and 1608(e)?

ii
PARTIES TO THE PROCEEDING,
CORPORATE DISCLOSURE STATEMENT,
AND RELATED PROCEEDINGS
(1) In addition to the parties named in the
caption, the following parties, who are not parties to
this petition, were named as Petitioners in the
Second Circuit decision and judgment below sought
to be reviewed:
a) Aldo Vera, Jr., as Personal Representative
of the Estate of Aldo Vera, Sr.;
b) Gustavo E. Villoldo, individually and as
Administrator, Executor, and Personal
Representative of the Estate of Gustavo
Villoldo;
c) Alfredo Villoldo.
(2) Petitioner is a personal representative of an
estate and not a corporation requiring a corporate
disclosure statement under Supreme Court
Rule 29.6.
(3) The following are
relevant to this petition:

related

proceedings

a) Hausler v. The Republic of Cuba, Case No.
02-12475, Div. 04 (Fla. 11th Cir. Ct.)
(judgment entered Jan. 19 2007) (App. 68a95a);
b) Hausler v. Republic of Cuba, Case No. 0820197-Civ-Jordan (S.D. Fla.), appeal
pending at Case No. 13-14633-BB (11th
Cir.);

iii
c) Hausler v. J.P. Morgan Chase Bank, N.A.,
Case No. 09 Civ. 10289 (VM) (S.D.N.Y.)
(consolidated with 08 MISC. 302 (S.D.N.Y.)
(judgments entered Oct. 6, 2015 at ECF
No. 646, May 9, 2016 at ECF Nos. 660662);
d) Hausler v. JP Morgan Chase Bank, N.A.,
12-1264(L) (2d Cir.), (decided at Hausler v.
JP Morgan Chase Bank, N.A., 770 F.3d 207
(2d Cir. Oct. 27, 2014);
e) Vera v. The Republic of Cuba, Case No. 12
Civ. 1596 (AKH) (S.D.N.Y.) (district court
proceedings below) (judgment entered
Aug. 2, 2018 at ECF No. 972);
f) Vera v. Banco Bilbao Vizcaya Argentaria,
S.A., 18-2345 (2d Cir.) (judgment entered
Dec. 30, 2019, decision at App. 1a-53a).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING,
CORPORATE DISCLOSURE STATEMENT,
AND RELATED PROCEEDINGS ...................... ii
TABLE OF AUTHORITIES.................................... viii
OPINION BELOW ..................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISIONS INVOLVED ................ 1
STATEMENT ............................................................. 4
A.

Background .................................................. 7

B.

The Court of Appeal’s Decision Below ...... 13

REASONS FOR GRANTING THE WRIT ............... 14
I.

THE DECISION BELOW CONFLICTS
WITH THIS COURT’S DECISION
IN STEEL CO., DRASTICALLY
DEPARTS FROM THE USUAL
COURSE OF JUDICIAL
PROCEEDINGS, AND LAYS BARE
THE ADVERSE EFFECTS OF THE
CIRCUIT SPLIT ON WHETHER
AND WHEN HYPOTHETICAL
JURISDICTION SHOULD APPLY .......... 16

v
A.

The Second Circuit’s Decision
Conflicts with this Court’s
Decision in Steel Co. ........................... 16

B.

In Applying “Hypothetical
Hypothetical Jurisdiction”, the
Second Circuit Below So Far
Departed from the Accepted
and Usual Course of Judicial
Proceedings as to Warrant this
Court’s Use of Its Supervisory
Powers ................................................. 23

C.

The Second Circuit’s Misuse of
Hypothetical Jurisdiction
Underscores the Need to Resolve
the Circuit Split Regarding the
Reach of that Doctrine to Statutory
Subject Matter Jurisdiction
Questions............................................. 29

II. THE SECOND CIRCUIT’S STATED
STANDARD OF REVIEW UNDER
TRIA DISREGARDS A STATE
COURT’S JUDGMENT, INCLUDING
ITS EXPRESS FINDINGS,
SUBVERTING FULL FAITH AND
CREDIT AND BASIC PRINCIPLES
OF FEDERALISM ..................................... 36
CONCLUSION ......................................................... 40

vi
APPENDIX
Appendix A: Opinion of the United States
Court of Appeals for the Second Circuit
(December 30, 2019)................................... 1a
Appendix B: Order of the United States
Court of Appeals for the Second Circuit
denying rehearing and rehearing
en banc (February 20, 2020) .................... 54a
Appendix C: Constitutional and statutory
provisions involved................................... 56a
Appendix D: Amended Final Judgment
of the 11th Judicial Circuit in and for
Miami-Dade County, Florida
(January 19, 2007) in Hausler vs.
The Republic of Cuba, Case No.
02-12475 (Fla. 11th Cir. Ct.).................... 68a
Appendix E: Plaintiffs’ Witness and
Exhibit List from Hausler vs.
The Republic of Cuba, Case No.
02-12475 (Fla. 11th Cir. Ct.) ................... 96a
Appendix F: Amended final default judgment
of the United States District Court for
the Southern District of Florida granting
full faith & credit to Florida state
judgment (August 20, 2008), registered
in the United States District Court
for the Southern District of New York
(September 24, 2008) ............................. 101a

vii
Appendix G: Argument schedule from
Hausler v. JP Morgan Chase Bank, N.A.,
770 F.3d 207 (2d Cir. 2014) ................... 106a

viii
TABLE OF AUTHORITIES
Page(s)
Cases
Abernathy v. Wandes,
713 F.3d 538 (10th Cir. 2013) ............................ 32
Ali Kassem Abou Khodr v. Holder,
531 F. App’x 660 (6th Cir. 2013) ........................ 30
Allen v. McCurry,
449 U.S. 90 (1980) .............................................. 37
Bowers v. National Collegiate Athletic Ass’n,
346 F.3d 402 (3d Cir. 2003)................................ 30
Cabinet Craft, Inc. v. A.G. Spanos Enters., Inc.,
348 So. 2d 920 (Fla. Dist. Ct. App. 1977) .......... 39
Calderon-Cardona v. Bank of New York Mellon,
770 F.3d 993 (2d Cir. 2014)........................ passim
Corbett v. MacDonald Moving Servs., Inc.,
124 F.3d 82 (2d Cir. 1997).................................. 26
Ctr. for Reproductive Law and Policy v.
Bush,
304 F.3d 183 (2d Cir. 2002)........................ passim
deMarigny v. deMarigny,
43 So. 2d 442 (Fla. 1949) .................................... 39

ix
Di Biase v. SPX Corp.,
872 F.3d 224 (4th Cir. 2017) .............................. 31
Edwards v. City of Jonesboro,
645 F.3d 1014 (8th Cir. 2011) ............................ 32
Employers Reinsurance Corp. v. Bryant,
299 U.S. 374 (1937) ............................................ 34
Estrada v. Estrada,
274 So. 3d 426 (Fl. Dist. Ct. App. 2019) ............ 39
Ex parte McCardle,
74 U.S. 506 (1869) .............................................. 17
Export-Import Bank of U.S. v. Asia Pulp &
Paper Co.,
609 F.3d 111 (2d Cir. 2010).......................... 21, 22
FDIC v. First Horizon Asset, Sec.,
821 F.3d 372 (2d Cir. 2016)................................ 28
Finova Capital Corp. v. Larson Pharmacy Inc.
(In re Optical Techs.,
425 F.3d 1294 (CA11 2005) ................................ 40
Francolino v. Kuhlman,
365 F.3d 137 (2d Cir. 2004)................................ 20
Friends of the Everglades v. U.S. EPA,
699 F.3d 1280 (11th Cir. 2012) ........ 19, 22, 32, 33
Garcia v. Quarterman,
573 F.3d 214 (5th Cir. 2009) .............................. 32

x
Guerrini v. Atmel Corp.,
667 F. App’x 308 (2d Cir. 2016) ......................... 20
Harvey v. Fresquez,
479 F. App’x 360 (2d Cir. 2012) ......................... 37
Hausler v. JP Morgan Chase Bank, N.A.,
740 F. Supp. 2d 525 (S.D.N.Y. 2010) ...................9
Hausler v. JP Morgan Chase Bank, N.A.,
770 F.3d 207 (2d Cir. 2014)........................ passim
Hausler v. JPMorgan Chase Bank, N.A.,
845 F. Supp. 2d 553 (S.D.N.Y. 2012),
reversed in part by 770 F.3d 207
(2d Cir. 2014) ................................................ 10, 11
In re Coudert Bros. LLP,
809 F. 3d 94 (2d Cir. 2015) ................................ 26
In re Itzler,
247 B.R. 546 (S.D. Fl. Bankr. 2000) .................. 39
Ins. Corp. of Ireland, Ltd. v. Compagnie
des Bauxites de Guinee,
456 U.S. 694 (1982) ...................................... 27, 35
Ivanishvili v. U.S. Dep’t of Justice,
433 F.3d 332 (2d Cir. 2006)................................ 29
Johnson v. Muelberger,
340 U.S. 581 (1951) ............................................ 39

xi
Jordon v. AG of the United States,
424 F.3d 320 (3d Cir. 2005)................................ 30
Kaplan v. Cent. Bank of the Islamic Republic
of Iran,
896 F.3d 501 (D.C. Cir. 2018) ................ 32, 34, 35
Kay v. Sec'y of Health & Human Serv.,
80 Fed. Cl. 601 (Fed. Cl. 2008) ......................... 35
Koehler v. Bank of Bermuda, Ltd.,
101 F.3d 863 (2d Cir. 1996)................................ 24
Kokkomen v. Guardian Life Ins. Co. of Am.,
511 U.S. 375 (1994) ............................................ 35
Kontrick v. Ryan,
540 U.S. 443 (2004) ............................................ 35
Leibovitch v. Islamic Republic of Iran,
697 F.3d 561 (7th Cir. 2012) ........................ 24, 31
LFoundry Rousset, SAS v. Atmel Corp.,
690 F. App’x 748 (2d Cir. 2017) ............. 20, 25, 26
Licci by Licci v. Lebanese Canadian Bank, SAL,
834 F.3d 201 (2d Cir. 2016)................................ 28
Mansfield, C. & L. M. R. Co. v. Swan,
111 U.S. 379 (1884) ............................................ 17
Marrese v. Am. Acad. of Orthopaedic Surgeons,
470 U.S. 373 (1985) ............................................ 38

xii
Minesen Co. v. McHugh,
671 F.3d 1332 (Fed. Cir. 2012) .......................... 31
Newdow v. Lefevre,
598 F.3d 638 (9th Cir. 2010) .............................. 28
NLRB v. Barstow Cmty. Hosp.-Operated
by Cmty. Health Sys., Inc.,
474 F. App’x 497 (9th Cir. 2012) ........................ 31
NML Capital v. Republic of Argentina,
621 F.3d 230 (2d Cir. 2010)................................ 28
Restoration Preservation Masonry, Inc. v.
Grove Europe Ltd.,
325 F.3d 54 (1st Cir. 2003) ................................ 30
Ripperger v. A.C. Allyn & Co.,
113 F.2d 332 (2d Cir. 1940)................................ 27
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999) ............................................ 34
Seale v. INS,
323 F.3d 150 (1st Cir. 1990)............................... 19
Sinapi v. R.I. Bd. of Bar Examiners,
910 F.3d 544 (1st Cir. 2018)............................... 30
Sinochem Int’l Shipping Co. v. Malaysia Int’l
Shipping Corp.,
549 U.S. 422 (2007) ............................................ 34

xiii
Starkey v. Boulder Cnty. Soc. Serv.,
569 F.3d 1244 (10th Cir. 2009) .......................... 18
Steel Co. v. Citizens for a Better Environment,
523 U.S. 101 (1998) .................................... passim
Stoll v. Gottlieb,
305 U.S. 165 (1938) ............................................ 26
Tallentire v. Burkhart,
153 Fla. 278 (Fla.1943) ...................................... 39
Travelers lndem.Co. v. Bailey,
557 U.S. 137 (2009) ............................................ 39
Umsted v. Umsted,
446 F.3d 17 (1st Cir. 2006) ................................ 30
Underwriters Nat’l Assur. Co. v.
North Carolina Life and Accident
and Health Ins. Guaranty Ass’n,
455 U.S. 691 (1982) ............................................ 37
United States v. Troescher,
99 F.3d 933 (1996) .............................................. 16
United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260 (2010) ............................................ 38
Universal Reinsurance Co., Ltd. v.
St. Paul Fire and Marine Ins. Co.,
224 F.3d 139 (2d Cir. 2000)................................ 24

xiv
Vera v. Banco Bilbao Vizcaya Argentaria, S.A.,
729 F. App’x. 106 (2d Cir. 2018) ........................ 13
Vera v. Banco Bilbao Vizcaya Argentaria, S.A.,
946 F.3d 120 (2d Cir. 2019)........................ passim
Vera v. Republic of Cuba,
651 F. App’x 22 (2d Cir. 2016),
cert. denied 137 S. Ct. 1064 (2017) .................... 13
Vera v. Republic of Cuba,
802 F.2d (2d Cir. 2015) ..................................... 13
Vera v. Republic of Cuba,
867 F.3d 310 (2d Cir. 2017)................................ 13
Weinstein v. Islamic Republic of Iran,
609 F.3d 43 (2d Cir. 2010).................................. 37
Statutes
28 U.S.C. § 1254(1) ......................................................1
28 U.S.C. § 1332 ........................................................ 30
28 U.S.C. § 1602 ..........................................................8
28 U.S.C. § 1605A.................................................. 5, 36
28 U.S.C. § 1605(a)(7) ....................................... passim
28 U.S.C. § 1608(e) ............................................ passim
28 U.S.C. § 1610 ..........................................................2

xv
28 U.S.C. § 1610(g) .................................... 7, 20, 21, 22
28 U.S.C. § 1738 .................................................... 2, 37
U.S. Const. art. III, § 1 ................................................1
Regulations
31 C.F.R. § 501.201 .....................................................6
31 C.F.R. § 515.311 .....................................................2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner William O. Fuller as Successor
Personal Representative for the Estate of Robert Otis
Fuller respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Second Circuit.
OPINION BELOW
The opinion of the United States Court of
Appeals for the Second Circuit (App. 1a-53a) is
reported at 946 F.3d 120 (2d Cir. 2019). The Second
Circuit’s order denying rehearing and rehearing en
banc on February 20, 2020 (App. 54a-55a), is
unreported.
JURISDICTION
The Second Circuit’s opinion was filed on
December 30, 2019. The court denied petitioners’
Petition for Rehearing and/or Rehearing En Banc on
February 20, 2020.
This Court’s jurisdiction is invoked under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The primary provisions involved are set out in
full in the Appendix to this Petition (App. 56a-67a)
and include:
1. U.S. Const. art. III, § 1;
2. The Foreign Sovereign Immunities Act, 28
U.S.C. § 1605(a)(7) (repealed 2008);

2
3. 28 U.S.C. § 1738.
Additional highly relevant provisions include:
1. Terrorism Risk Insurance Act of 2002 (“TRIA”)
Pub. L. N. 107-297, § 201(a), 116 Stat. 2322 (2002),
codified as amended at 28 U.S.C. § 1610 note, which
provides:
IN GENERAL.- Notwithstanding any
other provision of law, and except as
provided in subsection (b), in every
case in which a person has obtained
a judgment against a terrorist party
on a claim based upon an act of
terrorism, or for which a terrorist
party is not immune under section
1605(a)(7) of title 28, United States
Code, the blocked assets of that
terrorist party (including the blocked
assets of any agency or instrumentality
of that terrorist party) shall be subject
to execution or attachment in aid of
execution in order to satisfy such
judgment to the extent of any
compensatory damages for which such
terrorist party has been adjudged
liable.
2. Cuban Asset Control Regulations
(“CACRs), 31 C.F.R. § 515.311 which provides:
Property; property interests. (a) Except
as defined in § 515.203(f) for the
purposes of that section the terms
property and property interest or
property interests shall include, but not

3
by way of limitation, money, checks,
drafts, bullion, bank deposits, savings
accounts,
debts,
indebtedness
obligations, notes, debentures, stocks,
bonds, coupons, and other financial
securities,
bankers'
acceptances,
mortgages, pledges, liens or other rights
in the nature of security, warehouse
receipts, bills of lading, trust receipts,
bills of sale, any other evidences of title,
ownership or indebtedness, powers of
attorney, goods, wares, merchandise,
chattels, stocks on hand, ships, goods on
ships, real estate mortgages, deeds of
trust, vendors' sales agreements, land
contracts, real estate and any interest
therein, leaseholds, ground rents,
options, negotiable instruments, trade
acceptances, royalties, book accounts,
accounts payable, judgments, patents,
trademarks, copyrights, contracts or
licenses affecting or involving patents,
trademarks or copyrights, insurance
policies, safe deposit boxes and their
contents, annuities, pooling agreements,
contracts of any nature whatsoever,
services, and any other property, real,
personal, or mixed, tangible or
intangible, or interest or interests
therein, present, future or contingent.
(b) As used in § 515.208, the term
property means any property (including

4
patents, copyrights, trademarks, and
any other form of intellectual property),
whether real, personal, or mixed, and
any present, future, or contingent right,
security, or other interest therein,
including any leasehold interest.
STATEMENT
In the decision below the Second Circuit
disregarded the fundamental principles of subject
matter jurisdiction (and this Court’s related
jurisprudence) and res judicata by erroneously
surmising that a prior panel of that court had not
previously decided the disputed question of subject
matter jurisdiction and instead had reached the
merits based on hypothetical jurisdiction. App. 1a53a. The earlier decision otherwise would have been
res judicata on the subject matter jurisdiction
question the same garnishee had again raised and
the Second Circuit decided. Likewise, in violation of
principles of federalism and full faith and credit, the
circuit panel below, in ruling that the district court
lacked subject matter jurisdiction to enforce the
terrorism judgment before it, disregarded rulings of
the Florida state court that rendered the judgment
after an evidentiary hearing pursuant to 28 U.S.C.
§§ 1605(a)(7), 1608(e), and other federal district
courts in other cases which gave the terrorism
judgment full faith and credit.
This appeal concerns a Florida state court
judgment (App. 68a-95a, the “State Court
Judgment”) entered after a default in appearance in

5
January 2007 against the Republic of Cuba 1
pursuant to 28 U.S.C. § 1605(a)(7) (repealed 2008
and replaced by 28 U.S.C. § 1605A) for the
extrajudicial torture and killing of Bobby Fuller.
Each of the Southern District of Florida and the
Southern District of New York granted the State
Court Judgment full faith and credit in separate
cases. App. 101a-105a. The State Court Judgment
and federal judgments (collectively referred to as the
“Hausler Judgments”) have been successfully
enforced for over a decade in multiple jurisdictions
by Bobby Fuller’s now-deceased sister, Jeanette
Fuller Hausler as Personal Representative of the
Estate of Bobby Fuller.2
In 2014, Respondent Banco Bilbao Vizcaya
Argentaria, S.A. (“BBVA”) challenged the subject
matter jurisdiction of the Hausler Judgments before
the district court and then the Second Circuit in a
The State Court Judgment was also entered against
defendants Fidel Castro Ruz, individually and as President of
the State Council of Ministers, Head of the Communist Party
and Commander-in-Chief of the Military, Raul Castro Ruz,
individually and as First Vice President Of the Council of State
and Council of Ministers and Head of the Cuban Revolutionary
Armed Forces, The Cuban Revolutionary Armed Forces, and El
Ministerio del Interior.

1

Mrs. Hausler passed away in November 2018 and was
substituted by Petitioner William O. Fuller as Personal
Representative of the Estate of Robert Otis Fuller. Given the
lengthy history of various enforcement proceedings referencing
Mrs. Hausler, however, including in the decision below, the
judgments will continue to be referred to as the Hausler
Judgments.

2

6
separate enforcement action. See Hausler v. J.P.
Morgan Chase Bank, N.A., Case No. 12-1264 (2d
Cir.) [hereinafter Hausler]; A.108a (“ISSUES TO BE
ARGUED: Status, Effect and Enforceability of
Florida State and Florida Federal Judgments”). The
question of subject matter jurisdiction was briefed
and argued at length. Id. The Second Circuit court in
Hausler
recounted
Mrs.
Hausler’s
various
enforcement efforts and ultimately reached the
merits, holding that blocked proceeds of electronic
funds transfers (“EFT’s”) at issue were not
attachable under TRIA § 201, the Cuban Asset
Control Regulations (“CACRs), 31 C.F.R. § 501.201 et
seq., and New York law, and that all other
arguments raised by the parties were “unavailing.”
Hausler v. JP Morgan Chase Bank, N.A., 770 F.3d
207, 212 (2d Cir. 2014). BBVA’s jurisdictional
challenge in Hausler being unsuccessful, the Hausler
Judgments for years continued to be enforced
through successful garnishments and judicial
turnover of other assets in both Hausler and in the
case below.
In this case, notwithstanding the Hausler ruling,
BBVA yet again challenged the subject matter
jurisdiction of the Hausler Judgments. The Second
Circuit, rather than finding that Hausler presented a
res judicata bar to BBVA’s jurisdictional challenge,
found that the Hausler court had not decided that
question because it had applied hypothetical
jurisdiction to reach the merits of that appeal, even
though the Hausler court made no suggestion that it
was doing so. App. 31a-31a (n.22). The court below

7
reached this decision by relying on a companion case,
Calderon-Cardona v. Bank of New York Mellon, 770
F.3d 993 (2d Cir. 2014), which was decided under 28
U.S.C. § 1610(g), not under TRIA, as was Hausler.
After surmising the existence of hypothetical
jurisdiction to avoid the res judicata consequences of
Hausler, the Second Circuit panel proceeded to
review the question of subject matter jurisdiction de
novo, including a review of the State Court
Judgment’s jurisdictional findings following an
evidentiary hearing.3 App. 41a-45a. On the limited
and incomplete record before it, the Second Circuit
made its own jurisdictional findings, usurping the
Florida state court’s power to do so, and the latter’s
detailed findings of fact and law. It then held that
the district court lacked subject matter jurisdiction
to enforce the State Court Judgment and its turnover
orders were void and must be vacated.
A. Background
In October 1960, Bobby Fuller a United States
citizen, was tortured and executed by means which
meet all international standards for torture and
extrajudicial killing. App. 78.a-83a. After being
arrested by revolutionary guard forces in Cuba, he
was taken to a military-run tribunal where, within a
matter of minutes, he was charged, tried and
As required under 28 U.S.C. §§ 1605(a)(7) and 1608(e), the
Florida state court heard evidence, including documentary
proof and witness testimony before reaching its decision, which
record was not fully before the Second Circuit when it ruled.
App. 96a-100a.

3

8
sentenced to death by a firing squad. App. 79a-80a.
The following day Fuller’s blood was drained, and he
was then executed by firing squad and his body
thrown into an unmarked ditch at an unknown
location, despite his mother’s pleas to have his body
returned to her for burial at the family cemetery.
App. 80a. In response to Fuller’s killing, The United
States Department of State filed a formal protest
denouncing the proceedings and charging Cuba with
“fail[ing] to observe basic civilized standards” and
“inhuman behavior.” App. 81a.
In 2005, Mrs. Hausler brought an action in
Florida state court seeking relief against The
Republic of Cuba, Fidel Castro Ruz, Raul Castro
Ruz, the Cuban Revolutionary Armed Forces, and El
Ministerio del Interior under the Foreign Sovereign
Immunities Act, 28 U.S.C. § 1602 et seq., for Cuba’s
extrajudicial killing of her brother.
28 U.S.C.
§ 1605(a)(7) (repealed 2008) provides:
A foreign state shall not be immune
from the jurisdiction of the United
States or of the States in any case . . . in
which money damages are sought
against a foreign state for personal
injury or death that was caused by an
act of . . . extrajudicial killing . . . except
that the court shall decline to hear a
claim. . . if the foreign state was not
designated as a state sponsor of
terrorism . . . . at the time the act
occurred, unless later so designated as a
result of such act . . . .

9
App. 58a, 60a-61a. The defendants did not appear,
despite due service and notice upon them. App. 70a.
In issuing the State Court Judgment, the Florida
court, as it was required to do under 28 U.S.C.
§§ 1605(a)(7) and 1608(e), held a hearing, received
and evaluated evidence, made extensive findings of
fact, and concluded that it had subject matter
jurisdiction upon “evidence satisfactory to the
Court.” App. 74a; see also App. 96a-100a. In the
lengthy and detailed State Court Judgment, the
Florida court determined that the facts “clearly
demonstrate[d]” that Fuller was subject to acts of
terrorism as defined under § 1605(a)(7) and
expressly found that “Cuba . . . was designated to be
a state sponsor of terrorism in 1982 . . . at least in
part by reason of the acts of terrorism described
herein including the torture and extra-judicial killing
of Bobby Fuller . . . .” App. 74a. The State Court
Judgment became final and no appeal was taken.
Hausler, 770 F.3d at 210.
Since obtaining the State Court Judgment and
for the last approximately eleven years, Mrs.
Hausler has prosecuted numerous enforcement
proceedings in a number of courts, obtaining
approximately twelve turnover orders, excluding this
case. The Southern Districts of Florida and New
York expressly granted the State Court Judgment
full faith and credit — and the Second Circuit has
previously addressed the Hausler Judgments and
their enforceability in Hausler. App. 101a-105a.
Hausler v. JP Morgan Chase Bank, N.A., 740 F.
Supp. 2d 525, 526 (S.D.N.Y. 2010); Hausler, 770 F.3d

10
at 210. Each of the federal full faith and credit
judgments have been enforced, including in this case.
Respondent BBVA has on multiple occasions
unsuccessfully challenged the Hausler Judgments
based on subject matter jurisdiction, until the Second
Circuit’s decision below. As is most relevant here, in
the Southern District of New York, Mrs. Hausler
sought to enforce her Judgments against Cuba by
seeking turnover of various assets which were the
subject of multiple and separate turnover petitions
against multiple parties. See, e.g., Hausler v. J.P.
Morgan Chase Bank, N.A., Case No. 09 Civ. 10289
(V.M.) (S.D.N.Y.), ECF Nos. 91, 92, 107, 115, 385,
459, 460, 469, 543, 638. While litigating two of those
turnover petitions to collect blocked accounts holding
the proceeds of EFT’s, BBVA 1) made the same
jurisdictional challenge to the Hausler Judgments it
made below, and 2) argued that EFT’s were not
property of Cuba under New York state law, which
should control, and therefore were not attachable
under TRIA § 201. The district court (Marrero, D.J.)
held that it had subject matter jurisdiction to enforce
the Hausler Judgments and the EFT’s were subject
to attachment and execution under TRIA and
CACRs, finding that the statutory scheme and
federal supremacy superseded any state law
limitations. Hausler v. JPMorgan Chase Bank, N.A.,
845 F. Supp. 2d 553 (S.D.N.Y. 2012), reversed in part

11
770 F.3d at 212; Hausler, Case No. 09 Civ. 10289,
ECF No. 540, 661.4
On appeal of the district court’s orders finding
subject matter jurisdiction and ordering turnover,
BBVA raised the same questions of subject matter
jurisdiction to enter and enforce the Hausler
Judgments as it raised and litigated here. Notably,
the Hausler court dedicated a specific portion of the
oral argument on appeal to the very same issue
addressed by the court below. App. 108a (“ISSUES
TO BE ARGUED: Status, Effect and Enforceability
of Florida State and Florida Federal Judgments”).
In its decision, the Hausler court detailed Mrs.
Hausler’s enforcement efforts noting she had sought
“to enforce [her] 2009 Florida state court judgment”
and recounted the procedural history of those efforts
in the S.D. Fla. and the S.D.N.Y. Hausler, 770 F.3d
at 210 (“Hausler sought a full faith and credit
determination for the underlying state judgment in
the United States District Court for the Southern

BBVA also brought a collateral attack of the Florida full faith
and credit judgment in the Southern District of Florida when
the Hausler case was pending in the district court and after the
Hausler district court declined to entertain the collateral
attack. The Southern District of Florida ultimately rejected the
collateral attack there, leaving its full faith and credit judgment
intact, on the ground that the Southern District of New York
had granted full faith and credit to the Florida state court
judgment and, thus, BBVA lacked standing to pursue the
collateral attack in Florida. Hausler v. Republic of Cuba, No.
08-20197-Civ-Jordan (S.D. Fla.), ECF No. 104 at n.2.

4

12
District of Florida.
August 20, 2008.”).

That request was granted on

The Hausler court then addressed the merits
which it observed involved a “matter of first
impression”: whether EFT’s, could be attached under
TRIA and the CACRs. Id. at 209-10. The Hausler
court interpreted the language in both TRIA and
CACRs and held on the merits that those statutes
did not authorize attachment of the particular assets
at issue, and that New York state law controlled to
define property rights, not federal law. After the
merits analysis it held that all other arguments were
“unavailing.” Id. at 212. BBVA’s jurisdictional
challenge to the Hausler Judgments being rejected
by the Hausler court, Mrs. Hausler continued to
enforce her Judgments in the district court,
obtaining turnover of other assets. See, e.g., Hausler,
Case No. 09 Civ. 10289, ECF Nos. 638, 646, 661.
While the Hausler appeal was pending, Mrs.
Hausler intervened in the court below to preserve
her rights vis-a-vis competing judgment creditors
Aldo Vera and Gustavo Villoldo, who also held
terrorism judgments against the Republic of Cuba.
BBVA again challenged the subject matter
jurisdiction of the Hausler Judgments, along with
that of the other judgment creditor plaintiffs. The
district court rejected BBVA’s subject matter
jurisdiction arguments, found TRIA jurisdiction, and
following an agreed procedure, ordered turnover of
Cuban assets held at nineteen financial institutions.
Vera v. The Republic of Cuba, Case No. 12 Civ. 1596

13
(AKH) (S.D.N.Y.), ECF 739-1. BBVA was the only
garnishee to challenge entry of the order.
B. The Court of Appeal’s Decision Below
On appeal, BBVA repeated its challenge to
subject matter jurisdiction that it had in the district
court and in Hausler.5 Notwithstanding that the
Hausler Judgments, including the State Court
Judgment had been afforded full faith and credit and
successfully enforced in multiple jurisdictions and
the same question of subject matter jurisdiction
squarely addressed in Hausler, the court below
reversed the district court’s judgment and turnover
orders against BBVA, finding that the district court
lacked subject matter jurisdiction to enforce the
Hausler Judgments. In doing so, it held as is
relevant to this petition that 1) Hausler did not
foreclose another attack on the Hausler Judgments
In the proceedings below, BBVA took five appeals to the
Second Circuit, three of which were dismissed for lack of
appellate jurisdiction. See Vera, 802 F.2d 242 (2d Cir. 2015)
(“Vera I”) (dismissing for lack of jurisdiction appeals from
orders concerning Vera subpoena); Vera, 651 F. App’x 22 (2d
Cir. 2016), cert. denied 137 S. Ct. 1064 (2017) (“Vera II”)
(dismissing for lack of jurisdiction appeals from an omnibus
turnover order and related motion for reconsideration); Vera,
867 F.3d 310 (2d Cir. 2017) (“ Vera III”) (vacating district court
orders of contempt and denial of motion to quash Vera
subpoena, and vacating Vera judgment); Vera v. Banco Bilbao
Vizcaya Argentaria, S.A., 729 F. App’x. 106 (2d Cir. 2018)
(“Vera IV”) (dismissing for lack of jurisdiction, appeals
concerning omnibus turnover order), and the decision below. Of
these, only Vera II, Vera IV, and decision below involved the
Hausler Judgments.
5

14
because according to the court below, the Hausler
court never decided subject matter jurisdiction, and
instead had relied on hypothetical jurisdiction to
reach the merits, 2) the district court below should
have disregarded the State Court Judgment’s
findings entirely and independently determined its
basis for jurisdiction, 3) even without jurisdictional
findings of the district court, the circuit court could,
on the incomplete record before it, determine that
Cuba was immune from suit under TRIA because, it
found, Cuba was not designated as a terrorist state
as a result of anything that happened to Bobby
Fuller, notwithstanding the extensive findings of the
Florida state court to the contrary, and the evidence
it had considered to reach that conclusion, 4)
restitution of the funds BBVA had been ordered to
turnover was appropriate on the basis of unjust
enrichment.
Petitioner filed a petition for rehearing or
rehearing en banc in the Second Circuit, which
application was denied on February 20, 2020. App.
54a-55. Neither of the other two judgment creditors
sought rehearing.
REASONS FOR GRANTING THE WRIT
The Court should grant the petition for four
reasons set forth below:
First, this case is critical for this Court to review
the doctrine of hypothetical jurisdiction because it
lays bare the judicial inefficiencies that result from
the doctrine’s overbroad and improper use to

15
circumvent required subject matter jurisdiction
analysis, in contravention of this Court’s precedents.
The lower court’s decision to apply what amounts to
a “hypothetical hypothetical jurisdiction” has broad
and negative implications that dangerously open the
door for courts to ignore fundamental jurisdictional
questions altogether and render opinions on the
merits on the theory that a prior court must have
exercised hypothetical jurisdiction, a practice that is
“ultra vires” of the constitutional mandate. Steel Co.
523 U.S. at 101-02.
Second, the precedent set by the decision below,
will lead to judicial overreach, as it has in this case,
by permitting courts to use hypothetical jurisdiction
in cases where jurisdiction has already been fully
and fairly litigated and decided, thus jeopardizing
the important doctrines of finality and res judicata
Third, the decision below, which was decided on
statutory subject matter jurisdiction, presents an
important opportunity for the Court to resolve the
circuit split that has developed regarding whether
hypothetical jurisdiction may be applied to questions
of statutory subject matter jurisdiction as opposed to
Article III standing questions.
Fourth, the standard of review promulgated by
the Second Circuit in the decision below for assessing
the enforceability of a terrorism judgment under
TRIA impermissibly supplants the statutory
authority of state courts to render such terrorism
judgments and in doing so violates basic principles of
federalism and full faith and credit by stripping state

16
courts of their power and function to render such
judgments.
I.

THE DECISION BELOW CONFLICTS WITH
THIS COURT’S DECISION IN STEEL CO.,
DRASTICALLY DEPARTS FROM THE
USUAL
COURSE
OF
JUDICIAL
PROCEEDINGS, AND LAYS BARE THE
ADVERSE EFFECTS OF THE CIRCUIT
SPLIT
ON
WHETHER
AND
WHEN
HYPOTHETICAL JURISDICTION SHOULD
APPLY

The decision below directly conflicts with this
Court’s decision in Steel Co. and demonstrates that
the bounds of hypothetical jurisdiction are ripe for
this Court’s review to prevent abuse of that doctrine
by the lower courts.
A. The Second Circuit’s Decision Conflicts
with this Court’s Decision in Steel Co.
In Steel Co. this Court emphatically admonished
the practice of “hypothetical jurisdiction” –
“‘assuming’ jurisdiction for the purpose of deciding
the merits” – holding that hypothetical jurisdiction
“carries the courts beyond the bounds of authorized
judicial action and thus offends fundamental
principles of separation of powers.” Steel Co. 523
U.S. at 93-94 (quoting United States v. Troescher, 99
F.3d 933, 934, n. 1 (1996)). As explained in Steel Co.:
“Without jurisdiction the court cannot
proceed at all in any cause. Jurisdiction
is power to declare the law, and when it

17
ceases to exist, the only function
remaining of the court is that of
announcing the fact and dismissing the
cause.” . . . The requirement that
jurisdiction be established as a
threshold matter “spring[s] from the
nature and limits of the judicial power
of the United States” and is “inflexible
and without exception.”
523 U.S. at 94-95 (alteration in original) (quoting
Ex parte McCardle, 74 U.S. 506, 514 (1869) and
Mansfield, C. & L. M. R. Co. v. Swan, 111 U.S. 379,
382 (1884)).
Steel Co., acknowledged, however, that the
merits might be addressed before jurisdiction in the
very rare circumstance “where the outcome on the
merits has been ‘foreordained’ by another case such
that the ‘jurisdictional question could have no effect
on the outcome,’ provided the court ‘d[oes] not use
the pretermission of the jurisdictional question as a
device for reaching a question of law that otherwise
would have gone unaddressed.” See Ctr. for
Reproductive Law and Policy v. Bush, 304 F.3d 183,
194 (2d Cir. 2002) (alteration in original) (quoting
Steel Co., 523 U.S. at 98). Moreover, even when a
case might be foreordained, this Court cautioned
that such rare instances do not “even approach[]
approval of a doctrine of ‘hypothetical jurisdiction’
that enables a court to resolve contested questions of
law when its jurisdiction is in doubt.” Steel Co., 523
U.S. at 101. There are strong reasons against
hypothetical jurisdiction:

18
Hypothetical
jurisdiction
produces
nothing more than a hypothetical
judgment – which comes to the same
thing
as
an
advisory
opinion,
disapproved by this Court from the
beginning.
Much more than legal
niceties are at stake here.
The
statutory and (especially) constitutional
elements of jurisdiction are an essential
ingredient
of
separation
and
equilibrium of powers, restraining the
courts from acting at certain times, and
even restraining them from acting
permanently regarding certain subjects.
For a court to pronounce upon the
meaning or the constitutionality of a
state or federal law when it has no
jurisdiction to do so is, by very
definition, for a court to act ultra vires.
Id. at 101-02 (internal citation omitted).
Some courts, such as Center for Reproductive
Law and Policy v. Bush, have applied the
“foreordained” exception within the strictures of
Steel Co. 304 F.3d at 195 (applying hypothetical
jurisdiction where court “entertained and rejected
the same constitutional challenge to the same
provision” resulting in dismissal of the claims); see
Starkey v. Boulder Cnty. Soc. Serv., 569 F.3d 1244,
1260-1263 (10th Cir. 2009) (discussing various
applications of foreordained exception and applying
it to same plaintiffs bringing same constitutional
challenge against different defendants).
Others,

19
including the court below have taken a
constitutionally impermissible approach, seeming to
avoid principles of stare decisis to reach a different
outcome by employing hypothetical jurisdiction and
avoiding difficult jurisdictional questions. See, e.g.,
Seale v. INS, 323 F.3d 150, 157-59 (1st Cir. 1990)
(bypassing the jurisdictional question on the stated
basis of the “foreordained” exception, but actually
ruling under stare decisis “[a]s a subsequent panel,
we are bound by stare decisis to follow Sousa.”).6
Given the misapplication of the foreordained
exception, this Court’s guidance on the metes and
bounds of the “foreordained” exception is necessary.
This case provides an ideal study within which to
clarify the exception. First, in a remarkable and
unprecedented posture, the court below did not itself
use hypothetical jurisdiction to reach the merits, but
rather hypothesized that the prior Hausler court
must have used the doctrine to reach the merits,
notwithstanding that (a) the issue of subject matter
jurisdiction was squarely before Hausler, (b) the
companion case the court below used to justify
application of the doctrine was decided on different
grounds (discussed below), and (c) Hausler had found
all other arguments, which included the featured
challenge to subject matter jurisdiction, “unavailing.”
Other circuits have rejected the foreordained exception
altogether. See, e.g., Friends of the Everglades v. U.S. EPA, 699
F.3d 1280, 1288 (11th Cir. 2012) (“Even if the resolution of the
merits were foreordained – an issue we do not decide – the
Supreme Court has explicitly rejected the theory of
‘hypothetical jurisdiction.’”)

6

20
Hausler, 770 F.3d at 212; see LFoundry Rousset, SAS
v. Atmel Corp., 690 F. App’x 748, 751 (2d Cir.
2017) (where summary order stated that court
“‘f[ound] no merit in the plaintiffs’ other arguments’”
court held that where issue “was raised and fully
argued, such language—even without overt reference
to a particular argument or explanation of the
reasons it lacked merit—signifies an adjudication on
merits.” (quoting Guerrini v. Atmel Corp., 667 F.
App’x 308, 310 (2d Cir. 2016); and citing Francolino
v. Kuhlman, 365 F.3d 137, 141 (2d Cir. 2004))).
Thus, the court below effectively used a hypothetical
to find hypothetical jurisdiction in reaching its
conclusion.
Second, the court below, while purporting to
apply Steel Co. and Center for Reproductive Law and
Policy misapplied the “foreordained” exception,
finding that because Hausler was decided days after
its companion case Calderon-Cardona, the merits
decision in Hausler was foreordained. In fact, the
two cases were decided on different grounds
involving the interpretation of different statutes,
Calderon-Cardona decided under 28 U.S.C. § 1610(g)
and Hausler decided under TRIA and the CACRs.
Thus, the merits ruling in Hausler, which the
Hausler court itself recognized was a “matter of first
impression”, included a new pronouncement of law
that could not have been reached without first
holding that the challenge to subject matter
jurisdiction was “unavailing.” Cf. Steel Co., 523 U.S.
at 98 (court may “not use the pretermission of the
jurisdictional question as a devise for reaching a

21
question of law that otherwise would have gone
unaddressed”); Ctr. for Reproductive Law, 304 F.3d
at 194-95 (merits question was “foreordained” based
on “controlling case in which this Court entertained
and rejected the same constitutional challenge to the
same provision”).
In Calderon-Cardona, this Court held that TRIA
§ 201 was inapplicable because North Korea was not
a designated terrorist state at the time the judgment
at issue was entered, and instead interpreted and
applied 28 U.S.C. § 1610(g) to determine what type
of property interests were subject to attachment.
770 F.3d at 1000-01. The Calderon-Cardona court
held that “[b]ecause of the absence of any definition
of the property rights identified in the statutory text,
we hold that FSIA §1610(g) does not preempt state
law applicable to the execution of judgments in this
case.” Id. at 1001. In contrast, according to the
Hausler decision, the circuit court addressed “a
matter
of
first
impression
regarding
the
interpretation of § 201 of [TRIA]” — having entirely
different wording from 28 U.S.C. § 1610(g) — and the
CACRs. 770 F.3d at 209-10. The Hausler court
noted that “[w]hether or not midstream EFTs may be
attached or seized depends upon the nature and
wording of the statute pursuant to which attachment
and seizure is sought.” Id. at 211 (quoting ExportImport Bank of U.S. v. Asia Pulp & Paper Co., 609
F.3d 111, 116 (2d Cir. 2010)). The Hausler court
found that, although the CACRs listed various
property interests subject to attachment, they did
not include EFTs. Id. at 211-12. Further, it rejected

22
the district court’s holding that TRIA and CACRs
pre-empted state law as defining property available
for attachment under those statutes. Id. at 212. It
thus concluded state law applied to determine the
property right, and that “[b]ecause no terrorist party
or agency or instrumentality thereof has a property
interest in the EFTs, they are not attachable under
TRIA § 201.” Id.
To be sure, both Calderon-Cardona and Hausler
concerned which law defined attachable property
rights; however, equally obvious was that the
outcome of that question first turned on “the nature
and wording of the statute pursuant to which
attachment or seizure is sought” — CalderonCardona under 28 U.S.C. § 1610(g), and Hausler
under the TRIA and CACRs. See Export-Import
Bank of U.S. v. Asia Pulp & Paper Co.,
609 F.3d 111, 116 (2d Cir. 2010). As is evident from
the Hausler opinion, for example, had CACRs
included EFTs as an attachable property interest,
federal law would have preempted state law, leading
to a different outcome from Calderon-Cardona.
Thus, without subject matter jurisdiction, the
Hausler merits decision interpreting TRIA and
CACRs “otherwise would have gone unaddressed.”
Steel Co., 523 U.S. at 98, 101-02 (“For a court to
pronounce upon the meaning or the constitutionality
of a state or federal law when it has no jurisdiction to
do so is, by very definition, for a court to act ultra
vires.”); see also Friends of the Everglades, 699 F.3d
at 1288-89 (hypothetical jurisdiction cannot be

23
exercised where subject
distinct from merits).

matter

jurisdiction

is

The decision below was not only ultra vires
because Hausler already decided the jurisdictional
issue, but it muddies the finite boundaries of the
“foreordained”
exception providing
dangerous
precedent that could mislead subsequent courts to
mistakenly substitute its own views of what a prior
court might have intended to find hypothetical
jurisdiction (as did the court below) and skip the
jurisdictional question to reach an easier merits
question, violating the fundamental jurisdictional
principles articulated in Steel Co. This profound
error should be corrected by this Court.
B. In Applying “Hypothetical Hypothetical
Jurisdiction”, the Second Circuit Below
So Far Departed from the Accepted and
Usual Course of Judicial Proceedings as
to Warrant this Court’s Use of Its
Supervisory Powers
In what appears to be an unprecedented decision,
to avoid a res judicata bar on a challenge to subject
matter jurisdiction, the court below reasoned that a
panel of the same court in a different case years
before must have used hypothetical jurisdiction to
reach the merits, even though the earlier decision
nowhere indicated that it was utilizing the doctrine.
The court below thus applied a new type of further
removed hypothetical jurisdiction, one based on
another hypothetical.
Courts of Appeals have
assessed a district court’s decision that was silent on

24
the issue of hypothetical jurisdiction, and found it to
have improperly assumed jurisdiction rendering an
advisory merits opinion and reversed on that basis.
However, we are unaware of any case post-Steel Co.
where a court of concurrent jurisdiction used the
doctrine to assume that an earlier panel in a
different case with the issue of subject matter
jurisdiction squarely before it, had employed
hypothetical jurisdiction to reach the merits, even
though the earlier decision had nowhere indicated
that the court was reaching the merits on the basis
of hypothetical jurisdiction and even though that
decision had indicated the court rejected the
challenge to subject matter jurisdiction. See, e.g.,
Leibovitch v. Islamic Republic of Iran, 697 F.3d 561,
572-73 (7th Cir. 2012) (vacating district court’s
“hypothetical determination” where district court
assumed jurisdiction).7
It is true that two of the three members of the court below
were also on the Hausler court, but this did not give it license to
ignore the Hausler record, including the fact that Hausler and
its companion case Calderon-Cardona were decided on different
grounds, involving different statutes. Moreover, the integrity of
the judicial process requires that each panel decides the case
before it with the record before it, and not by engrafting
presumed insider knowledge about prior decisions in other
cases. See Universal Reinsurance Co., Ltd. v. St. Paul Fire and
Marine Ins. Co., 224 F.3d 139, 141 (2d Cir. 2000) (remanding
for jurisdictional fact-finding in “abundance of caution” where
panel could not find subject matter jurisdiction on record before
it); Koehler v. Bank of Bermuda, Ltd., 101 F.3d 863, 866-67 (2d
Cir. 1996) (holding personal jurisdiction — question of law
turning on questions of fact — required remand for discovery:
“we are reluctant to rely on what may turn out to be an
7

25
The implications of the decision below lead to
absurd and hazardous results for future cases and a
challenge to the integrity of the courts. First, if the
decision below is correct that the Hausler court
applied hypothetical jurisdiction, this would condone
an improper practice of permitting full briefing and
argument on subject matter jurisdiction and then
bypassing the issue to reach the merits without the
court justifying its basis for using hypothetical
jurisdiction, which is “disapproved by this Court.”
Steel Co. 523 U.S. at 101. The court below’s use of
what amounts to “hypothetical hypothetical
jurisdiction” would impermissibly allow a court to
later find silent application of hypothetical
jurisdiction, even when the issue of subject matter
jurisdiction had been contested. This approach has
been rejected by this Court.
In any event, this is not what the Hausler court
did. Rather, the Hausler court received lengthy
briefing and argument on the subject matter
jurisdiction issue, acknowledged that full faith and
credit had been given to the Hausler State Court
Judgment and that Mrs. Hausler was in the process
of enforcing her Judgments, and addressed a merits
question “of first impression” resulting in a new
pronouncement of law interpreting TRIA and the
CACRs and found the remaining challenges,
including subject matter jurisdiction “unavailing”.
See LFoundry Rousset, 690 F. App’x at 751. This
incomplete record to clarify legal doctrine for the district court’s
guidance”).

26
point is evident because whether a panel has
“already considered and rejected the basis for a given
motion is dependent on the contours of the mandate,
which ‘impliedly decides at least enough issues to
allow it to be effective, even if not all issues are
made explicit.’” LFoundry, 690 F. App’x at 751
(emphasis added) (quoting In re Coudert Bros. LLP,
809 F. 3d 94, 101-02 (2d Cir. 2015)). See also Stoll v.
Gottlieb, 305 U.S. 165, 171–72 (1938) (“Every court
in rendering a judgment, tacitly, if not expressly,
determines its jurisdiction over the parties and
subject matter.”). The court below’s interpretation of
Hausler, however, would violate Steel Co’s. rejection
of “‘hypothetical jurisdiction’ that enables a court to
resolve contested questions of law when its
jurisdiction is in doubt” by permitting courts to do
just that. Steel Co., 523 U.S. at 101.
Further, the decision below is contrary to
fundamental principles of res judicata and judicial
economy. In reaching its “hypothetical hypothetical
jurisdiction” determination, the court below has
permitted the same parties to relitigate the same
jurisdictional issue four years later and after Mrs.
Hausler had relied on the Hausler decision and
continued enforcing her Judgments in the courts
against multiple other parties and successfully
obtained the turnover of Cuban assets to satisfy the
Judgments since then. Although subject matter
jurisdiction is foundational to the proper functioning
of the court system, so is finality. “[P]rinciples of res
judicata apply to jurisdictional determinations —
both subject matter and personal.” See Corbett v.

27
MacDonald Moving Servs., Inc., 124 F.3d 82, 88-89
(2d Cir. 1997) (quoting Ins. Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694,
702 n.9 (1982)); Ripperger v. A.C. Allyn & Co., 113
F.2d 332, 333 (2d Cir. 1940) (“[A] decision in favor of
jurisdiction is res judicata and invulnerable to
collateral attack, even though the ground on which
the decision was rested has subsequently been
overruled.”).
This is not a case like the “peculiar
circumstances” cited in Steel Co. or in Center for
Reproductive Law and Policy where the particular
procedural posture made application of hypothetical
jurisdiction appropriate because the decision would
dispose of the litigation, ending the inquiry, and
would render the jurisdictional question more in the
nature of an advisory opinion. See, e.g., Ctr. for
Reproductive Law, 304 F.3d at 195 (where precise
merits question already addressed it is the
jurisdictional question that “resembles an advisory
opinion . . .”). That rationale is inapplicable here
because the merits questions were different in
Hausler and Calderon-Cardona.
It is also
inapplicable in a judgment enforcement proceeding,
a court’s passing over the jurisdictional question
before it would not finally end the inquiry. As it has
here, the question continues to have substantive
implications on the respective rights of the parties to
the judgment which continues to be enforced until
the judgment is satisfied. Application of the decision
below would permit a court to evade the
jurisdictional question in favor of the merits question

28
and reach a result, even though the nature of the
dispute was sure to lead to additional and lengthy
litigation affecting substantive rights, as it has here.
This
flouting
of
fundamental
jurisdictional
considerations violates principles of judicial economy
including res judicata.
Finally, given the foregoing, including the
Hausler record, the Second Circuit’s presumed use of
hypothetical jurisdiction by the Hausler court
violates the premise that “[i]t is axiomatic that a
panel of [the Court of Appeals] is bound by the
decisions of prior panels until such time as they are
overruled either by an en banc panel of our Court or
by the Supreme Court.” Licci by Licci v. Lebanese
Canadian Bank, SAL, 834 F.3d 201, 219-20 (2d Cir.
2016) (quoting NML Capital v. Republic of
Argentina, 621 F.3d 230, 243 (2d Cir. 2010)) (“To the
extent Plaintiffs submit that Kiobel I was wrongly
decided, we reaffirm Arab Bank’s conclusion – we are
not free to consider that argument.”). See also FDIC
v. First Horizon Asset Sec., 821 F.3d 372, 375-76, 376
n.2 (2d Cir. 2016) (“[W]e need not determine whether
we would reach the same result as the [prior] panel
did if we were not bound by that precedent.”); see
also Newdow v. Lefevre, 598 F.3d 638, 644 (9th Cir.
2010) (“As a general rule, we, as a three-judge panel,
are without authority to ‘overrule a circuit precedent;
that power is reserved to the circuit court sitting en
banc.’”) (citation omitted).
For these reasons the decision below has so far
departed from the usual course of judicial

29
proceedings that this Court’s supervisory powers are
necessary to correct the error.
C. The
Second
Circuit’s
Misuse
of
Hypothetical Jurisdiction Underscores
the Need to Resolve the Circuit Split
Regarding the Reach of that Doctrine to
Statutory Subject Matter Jurisdiction
Questions
There is a deep split (and admitted confusion)
among the Courts of Appeals as to whether Steel
Co.’s strict limitations on using hypothetical
jurisdiction to reach the merits applies only to
Article III standing questions or also to questions of
statutory subject matter jurisdiction, such as in this
case. The Second Circuit in the decision below
applied Steel Co. expansively, reasoning, “’where the
jurisdictional constraints are imposed by statute, not
the Constitution, and where the jurisdictional issues
are complex and the substance of the claim is . . .
plainly without merit,’ [the court] may consider the
merits of the case without first addressing statutory
jurisdiction.” See App. 33a (citing Ivanishvili v. U.S.
Dep’t of Justice, 433 F.3d 332, 338 n.2 (2d Cir. 2006)).
This statement is troubling, as the merits question in
Hausler was not “plainly without merit”; rather it
was the subject of much debate and conflicting
outcomes in the various courts; yet, the decision
below suggests a court could avoid resolving the
jurisdictional question, even with a complex merits
issue.

30
The Second Circuit is joined in its expansive view
of hypothetical jurisdiction by the First, Third, Sixth,
Ninth, and Federal Circuits in holding (Petitioner
submits, beyond the parameters of Steel Co.) that the
doctrine can apply to statutory subject matter
jurisdiction. See, e.g., Sinapi v. R.I. Bd. of Bar
Examiners, 910 F.3d 544, 550 (1st Cir. 2018)
(“[B]ypassing jurisdictional questions to consider the
merits is appropriate where, as here, the
jurisdictional question is statutory.”); Restoration
Preservation Masonry, Inc. v. Grove Europe Ltd., 325
F.3d 54, 59 (1st Cir. 2003) (“[W]hile Article III
jurisdictional disputes are subject to Steel Co.,
statutory jurisdictional disputes are not.”); Umsted v.
Umsted, 446 F.3d 17, 20 n.2 (1st Cir. 2006) (“[W]e
bypass the issue here and assume, arguendo, subject
matter jurisdiction under 28 U.S.C. § 1332 because
the merits of this appeal are easily resolved against
the party relying on our jurisdiction.”); Bowers v.
National Collegiate Athletic Ass’n, 346 F.3d 402, 41516 (3d Cir. 2003) (“Steel Co. . . . should not be
understood as requiring courts to answer all
questions of ‘jurisdiction,’ broadly understood. . . .
Instead, that case requires courts to answer
questions concerning Article III jurisdiction before
reaching other questions.”); Jordon v. AG of the
United States, 424 F.3d 320, 325 n.8 (3d Cir. 2005)
(“assum[ing] without deciding” statutory subject
matter jurisdiction reasoning that Steel Co. only
applies to Article III standing questions); Ali Kassem
Abou Khodr v. Holder, 531 F. App’x 660, 665 n.4 (6th
Cir. 2013) (emphasis in original) (joining “several
circuits [that] have interpreted Steel Co. to permit

31
courts to assume that statutory jurisdiction—as
distinct from constitutional jurisdiction—exists in
order to resolve a case, by means of a
straightforward merits analysis, in favor of the party
contesting jurisdiction”); NLRB v. Barstow Cmty.
Hosp.-Operated by Cmty. Health Sys., Inc., 474 F.
App’x 497, 499 (9th Cir. 2012) (“[U]nlike Article III
jurisdiction, statutory jurisdiction can be presumed
to exist when the merits are more easily resolved”
(citing Steel Co., 523 U.S. at 97, 97 n.2)); Minesen Co.
v. McHugh, 671 F.3d 1332, 1337 (Fed. Cir. 2012)
(“While we are generally obligated to resolve
jurisdictional challenges first, Supreme Court
precedent only requires federal courts to answer
questions concerning their Article III jurisdiction—
not necessarily their statutory jurisdiction—before
reaching other dispositive issues.” (citing Steel Co.,
523 U.S. at 95-97)).
The Fourth, Fifth, Seventh, and Eleventh
Circuits have all held that this expansive use of Steel
Co. is untenable, and further that hypothetical
jurisdiction is impermissible for both Article III
standing questions and statutory subject matter
jurisdiction questions. See, e.g., Di Biase v. SPX
Corp., 872 F.3d 224, 232 (4th Cir. 2017) (applying
Steel Co. to statutory subject matter jurisdiction and
holding “[t]he requirement that jurisdiction be
established as a threshold matter ‘spring[s] from the
nature and limits of the judicial power of the United
States and is inflexible and without exception’”
(quoting Steel Co. at 94-95)); Leibovitch, 697 F.3d at
573 (applying bar on hypothetical jurisdiction to

32
statutory subject matter jurisdiction and holding “a
court may not presume hypothetical jurisdiction in
order to decide a question on the merits”) Garcia v.
Quarterman, 573 F.3d 214, 216 n.4 (5th Cir. 2009)
(district court erred in applying hypothetical
jurisdiction to statutory subject matter jurisdiction
issue); Friends of the Everglades, 699 F.3d at 1288
(Steel Co. requires court to “have both statutory and
constitutional jurisdiction before it may decide a case
on the merits.”);
The Eighth, Tenth, and D.C. Circuits have
identified confusion that exists over whether Steel
Co. applies only to Article III standing or equally to
statutory subject matter jurisdiction questions. See
Edwards v. City of Jonesboro, 645 F.3d 1014, 1017
(8th Cir. 2011) (internal citation omitted) (“With a
few limited exceptions, federal courts must address
Article III subject-matter jurisdiction before reaching
the merits of a claim or another non-jurisdictional
question such as issue preclusion. Whether this rule
also applies to statutory jurisdiction, however, is a
matter of some dispute.”); Abernathy v. Wandes, 713
F.3d 538, 557 n.17 (10th Cir. 2013) (as to whether
use of hypothetical jurisdiction is appropriate
“[t]here is some suggestion in the case law that, with
respect to statutory jurisdiction, as opposed to
constitutional Article III jurisdiction, it would be”)
(collecting cases); Kaplan v. Cent. Bank of the Islamic
Republic of Iran, 896 F.3d 501, 511 (D.C. Cir. 2018)
(citing cases within the D.C. Circuit that took both
broad and narrow views of Steel Co.’s reach and
finding that the “continuing vitality of those

33
decisions [which held that Steel Co. does not apply to
statutory subject matter jurisdiction] may be open to
question” in light of Steel Co. and its progeny).
As between the competing circuits, the Eleventh
Circuit’s decision in Friends of the Everglades, which
rejects hypothetical jurisdiction for either Article III
or statutory subject matter jurisdiction questions,
provides the closest expression of the Constitutional
mandate, as articulated in Steel Co. regarding the
need to satisfy federal jurisdiction.
Addressing
statutory subject matter jurisdiction, the Eleventh
Circuit evaluated the arguments for applying
hypothetical jurisdiction and held “[w]e cannot
exercise hypothetical jurisdiction any more than we
can issue a hypothetical judgment.” Friends of the
Everglades, 699 F.3d at 1288-89.
Like the decision in Friends of the Everglades,
and although involving Article III standing, Steel Co.
speaks in forceful terms regarding jurisdiction
broadly, and did not limit its holding to Article III
cases. As Steel Co. explained:
Much more than legal niceties are at
stake
here.
The
statutory
and
(especially) constitutional elements of
jurisdiction are an essential ingredient
of separation and equilibrium of powers
...
523 U.S. at 101 (emphasis added). This conclusion is
also drawn from Steel Co.’s progeny, which, while
permitting other non-merits threshold issues to
precede a subject matter jurisdiction determination,

34
involved questions of statutory jurisdiction. See
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 58485 (1999) (statutory questions of personal
jurisdiction may be resolved prior to subject matter
determinations because both types of jurisdiction are
“essential element[s]” of a court’s authority to
dismiss a case on non-merits grounds (quoting
Employers Reinsurance Corp. v. Bryant, 299 U.S.
374, 382 (1937))); Sinochem Int’l Shipping Co. v.
Malaysia Int’l Shipping Corp., 549 U.S. 422, 433
(2007) (holding that threshold issue of forum nonconveniens, could be decided prior to statutory
subject matter jurisdiction because it is a non-merits
determination not involving “any assumption by the
court of substantive ‘law-declaring power’” (quoting
Ruhrgas, 526 U.S. at 584-85)). In both Ruhrgas and
Sinochem this Court, while allowing courts to choose
between threshold, non-merits bases for dismissal,
was careful not to use hypothetical jurisdiction to
reach the merits and crafted its decisions to preserve
Steel Co.’s strict limitations on using hypothetical
jurisdiction in both Article III and statutory
jurisdiction cases. See also Kaplan, 896 F.3d at 511
(questioning whether hypothetical can be applied to
statutory subject matter jurisdiction in the wake of
Sinochem’s reasoning and suggesting, without
deciding, that it cannot).
Moreover, the Eleventh Circuit approach is more
in line with Steel Co., as, the “distinction between
statutory limitations on subject-matter jurisdiction
and other Article III jurisdictional limitations in
tenuous, as both limitations arise from Article III.”

35
Kaplan, 896 F.3d at 517 (Edwards, J., concurring).
This is because Article III grants Congress the power
to establish the lower courts’ jurisdiction, which
necessarily includes the power to limit their
authority. See Kontrick v. Ryan, 540 U.S. 443, 452
(2004) (“Only Congress may determine a lower
federal
court’s
subject-matter
jurisdiction.”),
overruled in part on other grounds as stated in Kay v.
Sec'y of Health & Human Serv., 80 Fed. Cl. 601 (Fed.
Cl. 2008); Kokkomen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994) (“Federal courts are
courts of limited jurisdiction. They possess only that
power authorized by Constitution and statute, which
is not to be expanded by judicial decree.”); Ins. Corp.
of Ireland, 456 U.S. at 701-02 (“Jurisdiction of the
lower federal courts is further limited to those
subjects encompassed within a statutory grant of
jurisdiction. . . . [T]his reflects the constitutional
source of federal judicial power.”).
Therefore, the use by some circuits of
hypothetical jurisdiction to reach the merits and
bypass a statutory subject matter jurisdiction
question, as did the Second Circuit in this case, is an
afront to Constitutional and statutory limits on their
authority to declare law and is contrary to this
Court’s jurisprudence. The practice is by definition
ultra vires. The circuit split and admitted confusion
over the limits of their own jurisdiction is ripe for
this Court’s adjudication and guidance. This case
presents an ideal opportunity for resolving this
conflict as to whether Steel Co.’s ban on hypothetical

36
jurisdiction applies only to Article III standing or
also to statutory subject matter jurisdiction.
II. THE SECOND CIRCUIT’S STATED STANDARD
OF REVIEW UNDER TRIA DISREGARDS A
STATE COURT’S JUDGMENT, INCLUDING
ITS EXPRESS FINDINGS, SUBVERTING FULL
FAITH AND CREDIT AND BASIC PRINCIPLES
OF FEDERALISM
The decision below is also an affront to full faith
and credit and core federalism principles. The
Second Circuit below held the district court may not
use “the Florida courts’ jurisdictional findings [to]
‘bind or aid’ it,” in determining whether there is
jurisdiction to attach a terrorist state’s assets under
TRIA § 201(a). App. 6a. This articulated standard
undermines principles of federalism in a number of
respects.
First, by disregarding state court
judgments, including the State Court Judgment
here, the decision ignores that under FSIA, Congress
empowered state courts to hear cases against foreign
sovereigns for extrajudicial killings and to issue
default judgments against them when the court, in
its discretion, finds “evidence satisfactory to the
court.” 28 U.S.C. §§ 1605(a)(7) (repealed 2008),8
Unlike its replaced 28 U.S.C. 1605A, Section 1605(a)(7)
indicates the timing of the terrorist designation is an issue of
abstention, not subject matter jurisdiction. See 28 U.S.C.
§ 1605(a)(7) (repealed 2008) (“[a] foreign state shall not be
immune . . . in any case . . . in which money damages are sought
against a foreign state for personal injury or death that was
caused by an act of torture, extra-judicial killing . . . except
that the court shall decline to hear a claim . . . if the foreign
8

37
1608(e). Such judgments are entitled to full faith
and credit, even on default. App. 67a (28 U.S.C.
§ 1738); Harvey v. Fresquez, 479 F. App’x 360, 362 (2d
Cir. 2012) (“default judgment is presumptively valid
until reversed or set aside” and entitled to full faith
and credit). True, TRIA enforcement jurisdiction
includes a valid terrorism judgment; however,
assessing that jurisdiction is not a license to
abrogate the power granted to state courts to render
them or ignore full faith and credit principles. See
Weinstein v. Islamic Republic of Iran, 609 F.3d 43, 51
(2d Cir. 2010) (“The effect of the TRIA, therefore, was
simply to render a judgment more readily
enforceable against a related third party.
The
judgment itself was in no way tampered with, and
separation of powers was thus in no way offended.”)
Thus, second, the decision below represents a
disregard of federalism principles, including full faith
and credit, that state court judgments, including the
State Court Judgment, should receive deference, even
assuming the jurisdictional determination might later
be determined to be incorrect. See Underwriters Nat’l
Assur. Co. v. North Carolina Life and Accident and
Health Ins. Guaranty Ass’n, 455 U.S. 691,705-07, 705 n.11
(1982) (review of state court judgment’s jurisdictional
findings is limited and finality requires full faith and
credit be given even when jurisdictional determination
is erroneous). See also Allen v. McCurry, 449 U.S. 90,
state was not designated as a state sponsor of terrorism . . . at
the time the act occurred, unless later so designated as a result
of such act. . . .” (emphasis added)); App. 58a-61a.

38
103-05 (1980) (indicating deference to state court
judgments and confidence in its ability to apply
federal law in context of full faith and credit).
Affording proper deference to the state court findings
would have led, at worst, to concluding that court
was mistaken in holding the subject matter
jurisdiction evidence was “satisfactory.” The State
Court Judgment is still preclusive and enforceable.
Accord United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 270-71 (2010) (judgment was not void
“simply because it is or may have been erroneous”).9
Third, the decision ignores that a full faith and
credit analysis requires state court judgments to be
given the same weight they would receive in the
state where it was entered. Marrese v. Am. Acad. of
Orthopaedic Surgeons, 470 U.S. 373, 380-81 (1985).
The decision below does not even address this rule or
assess how Florida law would review the Hausler
Judgments, disregarding the district court’s findings
that Florida would not have permitted the collateral
attack.10

Without the benefit of the full state court record, the Second
Circuit below completely rejected the Florida court’s detailed
findings as set forth in the State Court Judgment, and
proceeded to make a contrary determination on a record created
in the course of a motion to dismiss, not following any
evidentiary hearing. App. 69a, 74a-83a; App. 96a-100a. This
was arbitrary and contrary to the statutory mandate that any
ruling should follow the taking of evidence. 28 U.S.C. § 1608(e).

9

Florida law bars BBVA from making its collateral attack, yet
another reason why the court below should have rejected
BBVA’s repeated challenge to the Hausler Judgments. See

10

39
Under these principles, the district court’s orders
should have been sustained. The State Court
Judgment, entered after a trial held complying with
28 U.S.C. § 1608(e), contains explicit jurisdictional
findings based upon “evidence satisfactory to the
Court.” App. 69a, 74a. To hold that the district
court is precluded from considering the state court’s
determination and how it was rendered is directly at
odds with the FSIA’s grant of power to the state
court to make it and full faith and credit principles.
Had the court below applied these principles, it
would have sustained the orders of the district court.
See Travelers lndem. Co. v. Bailey, 557 U.S. 137, 154
n.7 (2009) (holding collateral attack for subject
matter
“jurisdictional
flaw
in
1986”
was
impermissible). As the Supreme Court explained:
Tallentire v. Burkhart, 153 Fla. 278, 279-80 (Fla.1943)
(garnishee lacks standing to attack judgment unless property
rights are injured by judgment’s entry). In Florida, Rule 1.540
of Civil Procedure determines when judgments may be
challenged; however, even default judgments are not void, but
voidable where there was an opportunity to be heard. See
Estrada v. Estrada, 274 So. 3d 426, 430-31 (Fl. Dist. Ct. App.
2019); In re Itzler, 247 B.R. 546, 551 (S.D. Fl. Bankr. 2000)
(Florida default judgment “is just as conclusive as one which
was hotly contested.”) (quoting Cabinet Craft, Inc. v. A.G.
Spanos Enters., Inc., 348 So. 2d 920 (Fla. Dist. Ct. App. 1977)).
And a challenge cannot be mounted from matters outside the
record as BBVA did. See deMarigny v. deMarigny, 43 So. 2d
442, 445-46 (Fla. 1949). As the Florida courts would have given
the State Court Judgment preclusive effect, so should have the
court below. See Johnson v. Muelberger, 340 U.S. 581, 587
(1951) (attack on judgment disallowed “where the party
attacking would not be permitted to make a collateral attack in
the courts of the granting state”).

40
“the need for finality forbids a court called upon to
enforce a final order to ‘tunnel back . . . for the
purpose of reassessing prior jurisdiction de novo . . .’”
Id. at 154 (quoting Finova Capital Corp. v. Larson
Pharmacy Inc. (In re Optical Techs., Inc.), 425 F.3d
1294, 1308 (CA11 2005)).
CONCLUSION
For the reasons set forth above, the petition for a
writ of certiorari should be granted.
Dated: July 20, 2020
Respectfully submitted,
James W. Perkins
GREENBERG TRAURIG, LLP
200 Park Avenue
New York, New York 10166
212-801-9200
perkinsj@gtlaw.com
Roberto Martinez
COLSON HICKS EIDSON, P.A.
255 Alhambra Circle,
Penthouse
Coral Gables, Florida 33134
305-476-7400
bob@colson.com
Counsel for Petitioner

APPENDIX

1a
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2018
(Argued: January 29, 2019
Decided: December 30, 2019)
Docket No. 18-2345-cv
ALDO VERA, JR., as Personal Representative
of the Estate of ALDO VERA, SR.,
Plaintiff-Appellee,
WILLIAM O. FULLER, as Successor Personal Representative of the Estate of ROBERT OTIS FULLER;
GUSTAVO E. VILLOLDO, individually and as Administrator, Executor, and Personal Representative of the
Estate of GUSTAVO VILLOLDO; ALFREDO VILLOLDO,
Petitioners-Appellees,
—v.—
BANCO BILBAO VIZCAYA ARGENTARIA, S.A.,
Respondent-Appellant.
B e f o r e:
CABRANES, LYNCH, and CARNEY, Circuit Judges.

2a
Respondent-Appellant Banco Bilbao Vizcaya
Argentaria, S.A. (“BBVA”) appeals from an August
2, 2018 final judgment of the U.S. District Court
for the Southern District of New York (Hellerstein,
J.) entered following issuance of our mandate in
Vera v. Banco Bilbao Vizcaya Argentaria, S.A., 729
Fed. App’x 106 (2d Cir. 2018). As relevant here, the
District Court’s judgment rendered final several of
its previous orders requiring BBVA to turn over
funds to Petitioners-Appellees Jeannette Fuller
Hausler, Gustavo E. Villoldo, and Alfredo Villoldo
from a blocked electronic fund transfer originated
by the Cuban Import-Export Corporation, an
instrumentality of the Republic of Cuba. These
turnover orders, in turn, rested on the District
Court’s grant of full faith and credit to default
judgments that Petitioners-Appellees secured
against Cuba in Florida state courts, whose jurisdiction against the sovereign was asserted under
the state-sponsored terrorism exception of the Foreign Sovereign Immunities Act, 28 U.S.C. § 1605A
(“ FSIA” ). The District Court made no independent
findings regarding its own jurisdiction to enforce
these judgments under the FSIA, and in particular
under section 201(a) of the Terrorism Risk Insurance Act, 28 U.S.C. § 1610 note. Because our review
of the record convinces us that jurisdiction did not
lie, we reverse the judgment of the District Court,
vacate the District Court’s turnover orders, and
remand the cause with instructions to dismiss the
action for lack of subject-matter jurisdiction.
Applying common-law equitable principles of restitution, we further direct the District Court to order

3a
Petitioners-Appellees, as well as Plaintiff-Appellee
Aldo Vera, Jr., also a party in these proceedings
and a beneficiary of the same turnover orders, to
return to BBVA the funds that BBVA paid them
under the void turnover orders.
REVERSED and REMANDED with instructions.
JUDGE CABRANES joins the judgment of the Court.
ROARKE O. MAXWELL, (Andrew C. Hall, on
the brief), Hall, Lamb, Hall & Leto, P.A.,
Coral Gables, FL, for Petitioners-Appellees
Gustavo E. Villoldo and Alfredo Villoldo.
JAMES W. PERKINS, (Ashley A. LeBlanc,
on the brief), Greenberg Traurig, LLP,
New York, NY; Roberto Martinez, Colson
Hicks Edison, P.A., Coral Gables, FL, for
Petitioner-Appellee Jeannette Fuller
Hausler.
Robert A. Swift, Kohn, Swift & Graf,
P.C., Philadelphia, PA; Jeffrey E. Glen,
Anderson Kill P.C., New York, NY, for
Plaintiff-Appellee Aldo Vera, Jr.
K ENNETH A. C ARUSO , (Christopher D.
Volpe, Michelle Letourneau-Belock, on
the brief), White & Case LLP, New York,
NY, for Respondent-Appellant Banco
Bilbao Vizcaya Argentaria, S.A.

4a
CARNEY, Circuit Judge:
This is the fifth appeal that we have seen in these
proceedings. The current controversy arises from
the efforts of Petitioners-Appellees Gustavo E.
Villoldo and Alfredo Villoldo (“the Villoldos”) and
Jeannette Fuller Hausler (collectively, “the Villoldos
and Hausler” or “Petitioners”) to enforce several
default judgments obtained by them against the
Cuban government in Florida state courts. These
judgments rest, factually, on allegations of torture
and extrajudicial killing suffered by members of
Petitioners’ families in 1959 and 1960 at the hands
of the revolutionary Cuban state. They rest, legally, with respect to those courts’ jurisdiction over
Cuba, on the state-sponsored terrorism exception
of the Foreign Sovereign Immunities Act (“FSIA”),
now codified at 28 U.S.C. § 1605A, and earlier
found in substantially the same form at 28 U.S.C.
§ 1605(a)(7). Section 201(a) of the Terrorism Risk
Insurance Act (“TRIA”), codified at 28 U.S.C.
§ 1610 note, would provide the District Court here
a jurisdictional basis for enforcing those state judgments, if valid, by attaching and executing on
Cuban assets blocked by banking institutions under
the Cuban Assets Control Regulations, 31 C.F.R.
Part 515.
Section 1605A revokes a state’s sovereign immunity from legal proceedings and liability for certain
terrorism-related claims for personal injury and
death if, in addition to meeting ordinary tort liability standards, “the foreign state was designated as
a state sponsor of terrorism at the time [the tor-

5a
tious act] occurred, or was so designated as a result
of such act.” 28 U.S.C. § 1605A(a)(2)(A)(i)(I) (emphasis supplied). The Republic of Cuba (“Cuba”) was
designated as a state sponsor of terrorism only in
March 1982—over two decades after the abhorrent
conduct that Petitioners allege. Accordingly, courts
may exercise jurisdiction over Petitioners’ claims
against Cuba only if they can establish that either
(1) Cuba was designated as a state sponsor of
terrorism in 1982 at least in part because of the
actions it took against their family members in
1959 and 1960, or (2) Cuba committed certain acts
of terrorism (within the statute’s meaning) against
Petitioners or their family members after 1982.
Beginning in about 2007, Plaintiff-Appellee Aldo
Vera, Jr. (“Vera”), the Villoldos, and Hausler (collectively, “Appellees”) independently pursued litigation on their tort claims in Florida state courts,
each obtaining a significant default judgment
against Cuba. (Hausler’s judgment was for over
$400 million, Vera’s, for $95 million, and the Villoldos’, for $2.79 billion.) In 2013, seeking enforcement of those judgments in New York, they jointly
filed an Omnibus Turnover Petition in the U.S.
District Court for the Southern District of New
York against nineteen banks. Those banks,
Appellees alleged, held blocked Cuban assets in
New York. One of the banks, Respondent-Appellant
Banco Bilbao Vizcaya Argentaria, S.A. (“BBVA”),
sought dismissal of the turnover petition, contending first that the District Court lacked subject-matter jurisdiction over the enforcement proceeding,
and, then, in the alternative, that the Florida state

6a
court judgments were void and not entitled to the
federal court’s full faith and credit.
The District Court denied BBVA’s motion to dismiss but did not make a threshold jurisdictional
determination in doing so, relying instead on the
jurisdictional findings and legal conclusions of the
three Florida state courts to proceed under TRIA
section 201(a). As we held in reviewing (and vacating) a prior contempt order against BBVA issued
by the District Court with respect to Vera, reliance
on a state court’s legal conclusions does not adequately support a federal court’s own exercise of
subject-matter jurisdiction against a foreign sovereign or its assets when a proceeding is predicated
on a default judgment. In Vera v. Republic of Cuba,
867 F.3d 310, 318 (2d Cir. 2017) (“Vera III”), we
explained that the District Court was required to
“analyze the record independently to determine if
Cuba was immune” from its jurisdiction and that
the Florida courts’ jurisdictional findings do not
“bind or aid” it in making this determination. See
Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S.
480, 493–94 (1983) (“At the threshold of every
action in a District Court against a foreign state
. . . it must apply the detailed federal law standards set forth in the Act.”). Accordingly, the District Court’s judgment against BBVA and the
turnover orders that preceded it are subject to serious challenge.
After carefully examining the record on appeal,
we conclude that, had it independently determined
the issue, the District Court would necessarily
have found that Hausler and the Villoldos failed to

7a
establish that the exception to sovereign immunity
provided for in section 1605A applied. As we ruled
with respect to Vera in Vera III, Petitioners here
have failed to show under section 1605A either that
(1) Cuba was designated as a state sponsor of terrorism “as a result” of the pre-1982 acts underlying
their judgments or that (2) the acts underlying
their judgments occurred after 1982. Without
either showing, the state-sponsored terrorism
exception did not permit the court to exercise jurisdiction over Cuba’s assets under TRIA section
201(a).
Accordingly, and as spelled out in greater detail
below, we decide that the District Court did not
have subject-matter jurisdiction over this enforcement proceeding. We therefore REVERSE the District Court’s judgment; VACATE the District Court’s
turnover orders; and REMAND the cause to the District Court with instructions (1) to dismiss the
amended Omnibus Turnover Petition and (2) to
enter an order directing restitution by Appellees of
the funds that BBVA paid them.
BACKGROUND1
The start of the Vera proceedings

I.

The proceedings that culminated in this appeal
began in March 2012, when Vera, who held a simi1

This statement of facts is drawn from the findings of
fact made in the Florida state court judgments secured by
Hausler and the Villoldos. It also relies on documents supporting those judgments that were presented to the District

8a
lar default judgment against Cuba issued by a
Florida state court, filed suit in the U.S. District
Court for the Southern District of New York seeking to enforce that judgment. Vera v. Republic of
Cuba, No. 12-CV-1596 (S.D.N.Y.). In August 2012,
after Cuba’s default in the federal proceeding, the
District Court (Hellerstein, J.) determined that
Vera’s Florida state court judgment was due full
faith and credit and, accordingly, entered a federal
judgment in the amount of approximately $49 million in Vera’s favor. Then, in late 2012 and early
2013, Vera filed numerous turnover motions, seeking to seize assets from banks in New York that he
alleged to be holding Cuban assets.
Vera was not long alone in seeking to enforce a
default judgment against Cuba in New York federal
courts. In 2013, both Hausler and the Villoldos—
that is, Petitioners in this case—intervened in the
Vera enforcement proceedings, asserting that their
rights as judgment creditors were entitled to priority over Vera’s. Before reviewing what happened
next in those proceedings, it will be helpful to
describe the key facts underlying the Villoldo and
Hausler state court judgments and to provide a
Court and to this Court by the parties in their Joint Appendix. Although BBVA challenges the Florida state courts’
jurisdictional determinations, in this setting it has not disputed the reliability of their findings of fact. Accordingly,
because of Cuba’s default in the Florida state proceedings
and because BBVA raises no argument to the contrary, we
accept these findings as true for present purposes.

9a
short outline of their respective procedural histories.2
II. The Villoldo judgment
Gustavo E. Villoldo (“Gustavo”) and Alfredo Villoldo (“Alfredo”) are the Cuban-born sons of the
late Gustavo Villoldo Argilagos (“Villoldo Argilagos”). Their father, a dual citizen of the U.S. and
Cuba, founded a successful automotive company
and owned numerous other businesses and landholdings in Cuba before the Cuban Revolution.
After the revolution brought the Castro government to power on January 1, 1959, the Villoldo
family became a target of the new regime because
of their financial wealth and ties to the United
States. Both sons are U.S. citizens.
Cuban soldiers arrested Gustavo and Alfredo on
January 6, 1959. Gustavo was detained in
unhealthy and inhumane conditions, beaten, and
interrogated under torture in a Cuban facility
where executions were being carried out. After
their release five days later, the brothers and their
father continued to be subject to severe harassment
by the Cuban government. Cuban soldiers repeatedly took Villoldo Argilagos into custody and
threatened to murder the entire family unless he
turned over the family’s businesses and properties
2

None of the Florida state court judgments at issue in
this appeal is, to our knowledge, reported in Westlaw, LexisNexis, or other commercially available databases. Accordingly,
we cite to the judgments in the form provided by the parties
in their Joint Appendix on appeal.

10a
to the new regime. On February 16, 1959, one day
after meeting with prominent Cuban government
member Ernesto “Che” Guevara, Villoldo Argilagos
committed suicide. He did so, according to Gustavo’s testimony, because he was ordered to do so to
save the lives of his wife and sons. The two brothers then fled to the United States, leaving behind
their family’s vast properties, which were soon
after confiscated.
After leaving Cuba, Gustavo Villoldo joined the
Central Intelligence Agency, and engaged in important intelligence activities on behalf of the United
States. These included the 1967 operation that led
to Che Guevara’s execution in Bolivia. In deposition testimony, Gustavo Villoldo recounted that,
shortly after the operation, two Cuban agents were
sent to New York to kidnap or kill him. He testified
further in general terms that, between 1997 and
2003, when he was living in the United States, the
Cuban government made numerous threats against
his life.
In August 2011, in a Florida state court proceeding, the Villoldo brothers secured a default judgment against Cuba for these wrongs. The court
entered judgment in their favor in the amount of
$2.79 billion, denominating $1 billion of that sum
as punitive damages.3 The Florida state court characterized Cuba’s actions against the Villoldo family
3

Earlier, in 2009, the Villoldos had obtained another
Florida state court judgment in their favor against Cuba in
the amount of $1.179 billion, relying on largely similar allegations. J. App’x 383–89.

11a
as “torture” within the meaning of section 1605A of
title 28 and ruled that, under that section, it had
subject-matter jurisdiction to hear their claims. In
December 2011, the Villoldos sued Cuba in the U.S.
District Court for the Southern District of New
York, seeking recognition and enforcement of their
Florida judgment under the Full Faith and Credit
Act, 28 U.S.C. § 1738. Villoldo v. Castro Ruz, No.
11-CV-9394 (S.D.N.Y.) (Swain, J.). In October
2012, according full faith and credit to the Florida
judgment, Judge Swain entered a default judgment
against Cuba and related individuals and entities
in that case in the sum awarded by the Florida
state court, making no independent jurisdictional
findings.
In November 2017, after their ongoing enforcement proceedings in the District Court were nearly
complete, the Villoldos (having returned to Florida
state court) filed a “motion to re-establish the court
record” there with respect to the 2011 judgment.
They submitted new affidavits from Gustavo Villoldo,
his daughter Elia Lora, and his attorney Andrew C.
Hall, and various attachments to those affidavits.
Granting this motion, the Florida state court then
ruled—in November 2017—that “the information
contained within the affidavits and attachments
were relied upon by the Court when rendering its
verdict at trial [in 2011] in this case.” J. App’x
1027. Citing this newly-submitted evidence, the
Florida court issued an opinion and amended final
judgment on June 4, 2018, making significant additional findings of fact and instructing that the
judgment was effective nunc pro tunc as of August

12a
19, 2011.
In their 2017 affidavits, Gustavo Villoldo and
Elia Lora represented that they had earlier testified at trial that their home in Florida was once
surrounded by armed men whom they perceived to
be agents of the Cuban state.4 Lora’s affidavit
reflects that she had observed four men with large
guns in their hands, that her family members
armed themselves with two AR-15 rifles and yelled
at the intruders to leave, and that local police
responded to their 911 call within minutes but
could not find the intruders. Neither Alfredo nor
Gustavo Villoldo was present in the home at the
time. More broadly, Gustavo Villoldo averred that
he was subjected to a “concerted and continuing
effort” by Cuba following Che Guevara’s death in
1967 “to locate [him] in order to carry out [his]
assassination.” J. App’x 882.
III.

The Hausler judgment

Jeannette Fuller Hausler (now deceased) was a
U.S. citizen.5 Her brother, Robert Otis Fuller, nick4

This testimony was not reflected in the factual findings
supporting the 2011 judgment and does not appear to be in
the contemporaneous 2011 deposition given by Gustavo Villoldo.
5

Jeannette Hausler died during the pendency of this
appeal and William Fuller, who succeeded her as the administrator of Bobby Fuller’s estate, has been substituted as Petitioner-Appellee. In this opinion, we continue to refer to
Hausler as Petitioner and to the “Hausler Judgment,” to
avoid confusion and ensure continuity with the language used
in multiple rounds of proceedings.

13a
named “Bobby,” was a dual U.S.-Cuban national
born in Cuba, and heir to significant Cuban agricultural and business holdings. Mirroring the
Villoldos’ experience, the Fuller family’s lives and
properties were threatened by the new Cuban
regime after January 1959. In early October 1960,
Cuban agents arrested Fuller, who was returning
from a short trip to Miami, and charged him with
engaging in counterrevolutionary activities. He
was tortured until he signed a prepared confession.
Fuller was then presented to a military tribunal
where, within minutes, he was tried and sentenced
to death. In the proceedings, he was denied access
to meaningful legal counsel and was not permitted
to call witnesses in his defense. On October 16,
1960, he was executed by firing squad. His death
prompted the U.S. Department of State to file a
formal protest denouncing the proceedings. In the
protest, the Department accused the Cuban authorities of carrying out Fuller’s trial in a “Roman
[c]ircus atmosphere,” failing to “observe basic civilized standards,” and engaging in “inhuman behavior.” J. App’x 597–98.
In January 2007, in Florida state court, Hausler
secured a default judgment against Cuba for $400
million, of which $300 million was designated as
punitive and $100 million as compensatory damages. In an opinion accompanying the judgment,
the Florida state court ruled that Fuller was a victim of “extra-judicial killing” and asserted jurisdiction over Cuba under the FSIA’s state-sponsored
terrorism exception, then codified at 28 U.S.C.

14a
§ 1605(a)(7).6 J. App’x 592. The following year, on
Hausler’s application, the U.S. District Court for
the Southern District of Florida granted full faith
and credit to the state court judgment and entered
a default judgment against Cuba, making no independent jurisdictional findings. Hausler v. Republic of Cuba, No. 08-CV-20197 (S.D. Fla.) (Jordan,
J.).
Hausler then began proceedings in the Southern
District of New York. Hausler v. Republic of Cuba,
No. 09-CV-10289 (S.D.N.Y.) (Marrero, J.). In 2009
and 2010, relying on the Florida state and federal
judgments, Hausler served writs of garnishment
against various New York banks holding blocked
Cuban assets. She then formally intervened in the
Vera enforcement proceedings, now before us on
appeal.
IV.

The Vera enforcement proceedings

The proceedings leading to this appeal have been
protracted and circuitous, to say the least. As pre6

From 1996 through 2008, the state-sponsored terrorism
exception to sovereign immunity was codified at 28 U.S.C.
§ 1605(a)(7). In 2008, section 1605(a)(7) was modified and
then recodified as section 1605A. For purposes of the issues
presented in this appeal, no relevant differences exist
between current section 1605A and former section 1605(a)(7).
See Schermerhorn v. State of Israel, 876 F.3d 351, 357 (D.C.
Cir. 2017) (observing that “section 1605A(a) and its predecessor section 1605(a)(7) are nearly identical” in defining the
scope of the terrorism exception). Even so, when discussing
jurisdictional issues related to Hausler’s judgment, we refer
to section 1605(a)(7), the provision in effect when it was
entered.

15a
viewed in Section I, supra, Hausler and the Villoldos sought to use their Florida state court judgments to seize Cuban assets held by banks
operating in the Southern District of New York. In
2013, both intervened in the Vera proceedings.
Between March and June of that year, the Villoldos
opposed Vera’s turnover motions, contending that
Vera’s Florida state court judgment was void for
lack of subject-matter jurisdiction and asserting,
inter alia, that Aldo Vera, Sr., the victim of Cuba’s
acts, was not a U.S. national and was not actually
killed by agents of Cuba, but rather by criminal
elements operating in Puerto Rico.7 In May 2013,
Hausler intervened, contending that her rights as a
judgment creditor preceded and therefore should
take priority over those of both Vera and the Villoldos.
After this initial period of competition, however,
the three family groups reached a détente. They
advised the District Court that they would jointly
petition for turnover of the relevant assets. In September 2013, they did so, filing the Omnibus Petition for Turnover Order (“Omnibus Petition”) that
we have mentioned and naming as respondents
BBVA and eighteen other banks which, they
alleged, were holding blocked Cuban assets.8
7

In a surprising twist, the Villoldo brothers further
alleged that Vera, Sr., who in 1959 was the Chief of the
Department of Investigation of the Cuban police, supervised
the officers who tortured the brothers after they were arrested in Cuba.
8

In February 2014, before the court’s ruling, the
Omnibus Petition was amended in ways not relevant here.
Our references to it encompass the amended version.

16a
BBVA moved to dismiss the Omnibus Petition for
lack of subject-matter jurisdiction. The District Court
denied the motion, construing BBVA’s motion as a
collateral attack on the Florida state court judgments, and not as a challenge to its own jurisdiction. In rejecting BBVA’s arguments, the District
Court commented that “[BBVA] must concede that
the Florida [courts] made appropriate jurisdictional findings, and created a sufficient evidentiary
record.” Vera v. Republic of Cuba, 40 F. Supp. 3d
367, 376 (S.D.N.Y. 2014). The court further interpreted BBVA’s motion as an improper challenge to
the “merits” of the Florida state courts’ determinations in that it attacked the Florida courts’ findings
(in the District Court’s words) “that Cuba was designated as a state sponsor of terrorism, at least
partially, as a result of the acts against Villoldo,
Hausler, and Vera.” Id. This “merits” argument
was impermissible, in the District Court’s view,
because the Florida courts “held a trial in each of
the three cases, found the facts, and applied the
law, finding that acts of terrorism took the lives of
plaintiffs’ family members [and] that Cuba was
designated as a state sponsor of terrorism either
before these acts or partially as a result of these
acts.” Id.9
9

Although they relied on slightly different analyses, all
three Florida state courts had concluded that they could exercise jurisdiction over Cuba under the state-sponsored terrorism exception to sovereign immunity. Hausler’s state court
judgment set forth the conclusion that “Cuba, which was designated as a state sponsor of terrorism in 1982 . . . at least in
part by reason of the acts of terrorism described herein

17a
Determining then that it had jurisdiction to proceed, the District Court entered two orders important to the resolution of the appeal before us. In
September 2014, the court enforced a subpoena in
which Vera sought information about BBVA’s holdings of Cuban assets outside the United States.
Then, in March 2015, the District Court ordered
that BBVA turn over the contents of a certain
account to the U.S. Marshal. That account contained
$553,185.21, the proceeds of an electronic fund
transfer (“EFT”) that had been initiated by the Cuban
Import-Export Corporation, a Cuban instrumentality.10 Vera v. Republic of Cuba, 91 F. Supp. 3d 561,
573 (S.D.N.Y. 2015).
including the torture and extra-judicial killing of Bobby Fuller,
is subject to suit in any State Court of the United States, pursuant to the provisions in 28 U.S.C. § 1605.” J. App’x 592. The
Villoldos’ 2011 Florida state court judgment does not contain
any language linking Cuba’s 1982 designation as a state
sponsor of terrorism to its acts against the Villoldos, but
appeared to conclude that the FSIA generally “grants nationals of the United States a private right of action against a foreign state or officials or agents of that foreign state acting
within the scope of his or her office, for damages for personal
injury or death caused by acts of torture.” Id. at 402–03.
Vera’s state court judgment, which is not directly challenged
in this appeal but which we addressed and found wanting in
Vera III, advised that “Cuba, which was designated to be a
state sponsor of terrorism in 1982 . . . is subject to suit in
any State Court of the United States, pursuant to the provisions of 28 U.S.C. § 1605.” See Joint Appendix filed in Vera v.
Republic of Cuba, No. 16-1227 (2d Cir.) (“Vera III”), Dkt. No.
34, at 273 (providing copy of the judgment).
10

The District Court’s initial turnover order directed the
U.S. Marshal to turn the funds over to Appellees within 15

18a
BBVA timely appealed both of these orders, but
we were compelled to dismiss its appeals for lack of
jurisdiction because neither the order enforcing
Vera’s subpoena nor the turnover orders were
“final decisions” of the District Court appealable
under 28 U.S.C. § 1291. See Vera v. Republic of
Cuba, 802 F.3d 242, 246 (2d Cir. 2015) (“Vera I”)
(subpoena enforcement order not appealable); Vera
v. Republic of Cuba, 651 Fed. App’x 22, 26 (2d Cir.
2016) (“Vera II”) (turnover orders not appealable).
After our decision in Vera I, BBVA refused to
produce any information in response to the subpoena, and, upon the parties’ stipulation to that effect,
the District Court held BBVA in contempt in April
2016. BBVA appealed the contempt order, this time
secure in its expectation of appellate jurisdiction.
See In re Air Crash at Belle Harbor, 490 F.3d 99,
104 (2d Cir. 2007) (contempt orders regarded as
final and appealable). In May 2017, while its
appeal from the contempt order was pending, the
District Court denied BBVA’s motion for a further
stay and ordered that the funds seized from BBVA
be turned over to Appellees collectively.11 Vera v.
business days of receiving the funds. BBVA unsuccessfully
sought reconsideration of this order. In ruling on BBVA’s
request, however, the District Court allowed BBVA to deposit
the funds into the Registry of the U.S. Courts, rather than
with the U.S. Marshal, if BBVA chose to seek a stay and file an
interlocutory appeal. BBVA did so, and the deposit was thus
made into the Registry. Vera v. Republic of Cuba, No. 12-CV1596 (AKH), 2015 WL 13657629, at *4 (S.D.N.Y. May 8, 2015).
11

At that point, in accordance with the District Court’s
May 2015 order, the funds were secured in the Registry of the
U.S. Courts.

19a
Republic of Cuba, No. 12-CV-1596 (AKH), 2017 WL
4350568, at *3 (S.D.N.Y. May 25, 2017).
In adjudicating BBVA’s appeal from the District
Court’s contempt order, we held that the District
Court lacked subject-matter jurisdiction over
Vera’s enforcement action against Cuba altogether;
therefore, both the subpoena served by Vera on
BBVA to enforce his judgment and the subsequent
contempt order were void. Vera v. Republic of
Cuba, 867 F.3d 310, 321 (2d Cir. 2017) (“Vera III”).
Because Vera III concerned a discovery dispute
pertaining only to Vera, however, the question
whether the District Court had subject-matter
jurisdiction to enforce the judgments held by
Hausler and the Villoldos was not before us. In line
with our mandate in Vera III, the District Court
vacated the judgment it issued as to Vera, quashed
Vera’s subpoena, and vacated the related contempt
order. It took no action with respect to Hausler and
the Villoldos.
BBVA then appealed the District Court’s May
2017 order directing that the funds be disbursed
jointly to the three cooperating sets of plaintiffs,
and we once again dismissed its appeal of the nonfinal order for lack of appellate jurisdiction. Vera v.
Banco Bilbao Vizcaya Argentaria, S.A., 729 Fed.
App’x 106 (2d Cir. 2018) (“Vera IV”). This time,
however, we directed the District Court “to issue an
appealable final judgment expeditiously” on
remand so as to facilitate prompt review. Id. at
108.
In accordance with our mandate in Vera IV, the
District Court entered final judgment on August 2,

20a
2018. BBVA timely appealed. Now, on this matter’s
fifth trip to this Court,12 our appellate jurisdiction
over the entirety of the dispute between BBVA, on
one hand, and Hausler, the Villoldos, and Vera, on
the other, is undisputed.
DISCUSSION
To resolve this appeal, we must address several
intertwined factual and legal issues. We begin by
reviewing the general principles of sovereign
immunity as they apply to terrorism claims
brought against a foreign state. Following Vera III,
we next stress that, when a district court is pre12

To recapitulate, this Court’s previous rulings in the
proceedings concerning BBVA’s resistance to the enforcement
efforts of Vera, Hausler, and the Villoldos, are:
1)

2)

3)

4)

Vera v. Republic of Cuba, 802 F.3d 242 (2d Cir.
2015) (“Vera I”) (dismissing for lack of appellate
jurisdiction BBVA’s appeal of subpoena enforcement orders);
Vera v. Republic of Cuba, 651 Fed. App’x 22 (2d Cir.
2016) (“Vera II”) (dismissing for lack of appellate
jurisdiction BBVA’s appeal of turnover orders);
Vera v. Republic of Cuba, 867 F.3d 310 (2d Cir.
2017) (“Vera III”) (holding, on BBVA’s appeal of a
contempt order, that the District Court lacked subject-matter jurisdiction to enforce Vera’s judgment);
Vera v. Banco Bilbao Vizcaya Argentaria, S.A., 729
Fed. App’x 106 (2d Cir. 2018) (“Vera IV”) (dismissing for lack of appellate jurisdiction BBVA’s appeal
of the District Court’s order directing the Registry
to disburse funds to Appellees but ordering the
District Court to enter final judgment expeditiously).

21a
sented with a default judgment against a foreign
sovereign, it must assure itself of its own power to
hear the case without relying on the jurisdictional
findings and legal conclusions of the court that
issued the judgment. Then applying this framework to the case at hand, we consider whether Petitioners have presented sufficient competent
evidence that the 1982 designation of Cuba as a
foreign sponsor of terrorism was linked, even in
part, to its acts against Hausler and the Villoldos,
to support the District Court’s exercise of jurisdiction over Cuba’s assets under TRIA section 201(a).
After conducting a de novo review of the extensive record, we answer this question in the negative. We therefore conclude that the District Court
lacked jurisdiction over Hausler and the Villoldos’
actions to enforce their judgments (just as it lacked
jurisdiction over Vera’s action, the key question
resolved in Vera III). We finish by considering
whether in our discretion to order that Appellees
make restitution of the funds collected by them as
a product of the District Court’s jurisdictionally
void orders. We conclude that such an order of
restitution is appropriate in the circumstances presented here.

22a
I.

Subject-matter jurisdiction over these
claims against Cuba
A. Principles of subject-matter jurisdiction
under the Foreign Sovereign Immunities Act

The Foreign Sovereign Immunities Act of 1976,
Pub. L. 94-583, 90 Stat. 2891, governs the jurisdiction of courts in the United States over all private
civil actions against foreign sovereigns.13 The FSIA
provides the “sole basis for obtaining jurisdiction
over a foreign state in our courts,” Argentine
Republic v. Amerada Hess Shipping Corp., 488 U.S.
428, 434 (1989), and “must be applied by the District Courts in every action against a foreign sovereign,” Verlinden B.V., 461 U.S. at 493. See also
Mobil Cerro Negro, Ltd. v. Bolivarian Republic of
Venezuela, 863 F.3d 96, 113 (2d Cir. 2017) (referring to “[t]he Supreme Court’s emphatic and oftrepeated declaration in Amerada Hess” and
collecting cases concerning the categorical nature
of the FSIA). It codifies two types of foreign sovereign immunity—immunity from jurisdiction and
immunity from attachment and execution of the
sovereign’s property. We start by briefly describing
the latter, as it is most directly at issue in this
action to enforce Petitioners’ default judgments.
13

The FSIA is codified, as amended, in title 28 of the U.S.
Code, in sections 1330, 1332(a), 1391(f), 1441(d), and 1602
through 1611. In the text, for convenience, we refer only to
the section number and presume codification in title 28,
unless otherwise noted.

23a
The FSIA provides that “the property in the
United States of a foreign state shall be immune
from attachment[,] arrest and execution except as
provided in sections 1610 and 1611 of this chapter.”
28 U.S.C. § 1609. In this case, the District Court
asserted jurisdiction over the enforcement actions
against Cuban assets under a modification to the
FSIA enacted by TRIA section 201(a). 14 That
statute grants courts subject-matter jurisdiction
over post-judgment execution and attachment proceedings involving blocked assets “in every case in
which a person has obtained a judgment against a
terrorist party on a claim based upon an act of terrorism, or for which a terrorist party is not immune
under section 1605A or 1605(a)(7).”15
TRIA section 201(a) provides for federal court
jurisdiction over execution and attachment proceedings involving the assets of a foreign sovereign,
however, only where “a valid judgment has been
entered” against the sovereign. Vera III, 867 F.3d
at 321 (internal quotation marks omitted) (emphasis in original)). In other words, section 201 “pro14

As we noted above, “TRIA” refers to the Terrorism Risk
Insurance Act of 2002, Pub. L. No. 107-297, 116 Stat. 2322,
2337, currently codified at 28 U.S.C. § 1610 note.
15

“Blocked assets” are defined in TRIA section
201(d)(2)(A) as “any asset seized or frozen by the United
States under section 5(b) of the Trading With the Enemy Act
(50 U.S.C. App. 5(b)) or under sections 202 and 203 of the
International Emergency Economic Powers Act (50 U.S.C.
1701;1702).” The Cuban assets at issue in this appeal were
blocked under section 5(b) of the Trading with the Enemy
Act.

24a
vides jurisdiction for execution and attachment
proceedings to satisfy a judgment for which there
was original jurisdiction under the FSIA . . . if certain statutory elements are satisfied.” Weinstein v.
Islamic Republic of Iran, 609 F.3d 43, 52 (2d Cir.
2010). Whether the District Court here had jurisdiction under TRIA to attach and execute on Cuba’s
assets, therefore, turns on whether Petitioners
held judgments that were based on an exception to
immunity from jurisdiction established by the
FSIA.16 Accordingly, we now look at the FSIA’s
framework for sovereign immunity from jurisdiction.
The FSIA establishes that “a foreign state [is]
immune from the jurisdiction of the courts of the
United States and of the States except as provided
16

Petitioners’ Omnibus Petition and certain of the District
Court’s orders also make reference to 28 U.S.C. § 1610(g), a
provision enacted in 2008. Section 1610(g)(1) provides generally that “the property of a foreign state against which a judgment is entered under section 1605A, and the property of an
agency or instrumentality of such a state . . . is subject to
attachment in aid of execution, and execution, upon that
judgment.” The Supreme Court has recently clarified, however, that section 1610(g) “does not provide a freestanding basis
for parties holding a judgment under § 1605A to attach and
execute against the property of a foreign state, where the
immunity of the property is not otherwise rescinded under a
separate provision within § 1610.” Rubin v. Islamic Republic
of Iran, 138 S. Ct. 816, 827 (2018). Accordingly, while section
1610(g) defines the types of assets that might be subject to
attachment and execution in terrorism cases brought against
foreign states, it—unlike TRIA section 201(a)—does not provide the District Court an independent ground for jurisdiction.

25a
in sections 1605 to 1607 of this chapter.” 28 U.S.C.
§ 1604. If any of the listed exceptions applies, however, then a court may exercise jurisdiction over
the state, see 28 U.S.C. § 1330(a), and the foreign
state may be held liable, in state or federal court,
“in the same manner and to the same extent as a
private individual under like circumstances.” Id.
§ 1606.
In this case, the only jurisdictional exception
relied on by Petitioners is section 1605A, known as
the “state-sponsored terrorism exception” or the
“terrorism exception” from sovereign immunity.
First enacted in 1996,17 this section currently provides in relevant part:
A foreign state shall not be immune from the
jurisdiction of courts of the United States or of
the States in any case not otherwise covered by
this chapter in which money damages are
sought against a foreign state for personal
injury or death that was caused by an act of
torture, extrajudicial killing, aircraft sabotage,
hostage taking, or the provision of material
support or resources for such an act if such act
or provision of material support or resources is
engaged in by an official, employee, or agent of
17
The terrorism exception was first enacted as part of the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214. It was codified at 28 U.S.C. § 1605(a)(7) until 2008. As described supra
n.6, for purposes of this appeal, current section 1605A and
former section 1605(a)(7) may be treated as interchangeable.
See Schermerhorn, 876 F.3d at 357.

26a
such foreign state while acting within the scope
of his or her office, employment, or agency.
28 U.S.C. § 1605A(a)(1). By its terms, this provision
applies to claims for personal injury or death only
if caused by one of several acts listed by statute: as
relevant here, extrajudicial killing or torture.
The exception is further cabined by two important preconditions set forth in subsection (a)(2).
First, a court may hear such a claim only if “the foreign state was designated as a state sponsor of terrorism at the time the act described in paragraph
(1) occurred, or was so designated as a result of
such act.” Id. § 1605A(a)(2)(A)(i)(I).18 Second, to
maintain such a claim, either the claimant or the
victim must be a U.S. national, member of the U.S.
armed forces, or employee or contractor of the U.S.
government at the time of the act giving rise to liability.19 Id. § 1605A(a)(2)(A)(ii).
Our Court has repeatedly held that both of these
conditions must be satisfied for the terrorism
18

With respect to the designation requirement, section
1605A defines “state sponsor of terrorism” as “a country the
government of which the Secretary of State has determined,
for purposes of [several enumerated laws] or any other provision of law, is a government that has repeatedly provided
support for acts of international terrorism.” 28 U.S.C.
§ 1605A(h)(6).
19
Section 1605A sets up a third precondition as well,
requiring that, in cases where the listed act took place on the
territory of the defendant foreign state, the claimant afford
that state “a reasonable opportunity to arbitrate” his or her
claim. See 28 U.S.C. § 1605A(a)(2)(iii). This precondition is
not at issue here.

27a
exception to apply. See Vera III, 867 F.3d at 317
(“Even if a foreign state has engaged in one of the
terrorist acts described above . . . it is not subject
to suit in the United States unless the foreign state
was designated as a state sponsor of terrorism [in
accordance with the statute].” (internal quotation
marks omitted)); In re Terrorist Attacks on Sept.
11, 2001, 714 F.3d 109, 115 n.7 (2d Cir. 2013) (“The
FSIA’s terrorism exception . . . does not apply to
[instrumentalities of a non-designated state]
because that exception is only available against a
nation that has been designated by the United
States government as a state sponsor of terrorism
at the time of, or due to, a terrorist act.”).
Cuba never appeared in the Florida state court or
the District Court here to present a defense, jurisdictional or otherwise. Nevertheless, “the FSIA, by
its terms, authorizes consideration of sovereign
immunity from both jurisdiction and execution
even in the absence of an appearance by the sovereign.” Walters v. Indus. & Commercial Bank of
China, Ltd., 651 F.3d 280, 293 (2d Cir. 2011). The
statute allows for courts to “consider the [jurisdictional] issue once it is suggested by any party—or
for that matter, non-party.” Id. (emphasis in original). Indeed, even if no party raises the issue,
courts have an obligation to consider subject matter jurisdiction sua sponte. Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428, 434 (2011).
Accordingly, BBVA was entitled to raise Cuba’s
sovereign immunity from execution on its assets
before the District Court as a defense to Petitioners’ enforcement action; and it may, on appeal,

28a
challenge the District Court’s ruling that Cuba was
not immune.20
B. Review and enforcement of default judgments in the FSIA context
In reviewing a default judgment, we generally
“deem[] all the well-pleaded allegations [as to liability] in the pleadings to be admitted.” Transatlantic Marine Claims Agency, Inc. v. Ace Shipping
Corp., 109 F.3d 105, 108 (2d Cir. 1997). This principle does not preclude us, however, from undertaking “an inquiry into whether the default judgment
itself is void for lack of subject matter jurisdiction.”
Id. Pursuing such an inquiry, we review jurisdictional conclusions de novo, and in assessing
“whether there is a factual basis to support the
[District Court’s] exercise of subject matter jurisdiction . . .we are not limited in our right to refer
to any material in the record.” Velez v. Sanchez,
693 F.3d 308, 314 (2d Cir. 2012) (internal quotation
marks omitted).
20

For this reason, we reject the Villoldos’ argument that
that BBVA lacks standing to “collaterally attack” their Florida
state court judgment. Villoldo Br. 23–26. First, we rejected
this contention in Vera III, explaining that “[w]e need not
consider a collateral attack on the Florida judgment [because]
BBVA’s principal argument . . . is that the District Court
lacked subject-matter jurisdiction.” 867 F.3d at 320 n.9
(emphasis in original). Moreover, as described above, a district
court may consider its jurisdiction when suggested by any
party, “even if there is no reason to confer a special right of
‘third-party standing’ on that party.” Walters, 651 F.3d at
293.

29a
In these proceedings, Petitioners asked the District Court to enforce judgments issued by several
Florida state courts, each of which concluded that
its jurisdiction over Cuba was authorized by the
state-sponsored terrorism exception. These judgments did not, however, bar the District Court from
considering the jurisdictional question anew, nor
did they relieve it of its obligation to assure itself of
its own jurisdiction, whether upon BBVA’s motion
or sua sponte.
It is generally true, of course, that “principles of
res judicata apply to jurisdictional determinations—both subject matter and personal.” Ins.
Corp. of Ireland, Ltd. v. Compagnie des Bauxites de
Guinee, 456 U.S. 694, 702 n.9 (1982). At the same
time, a finding of jurisdiction is preclusive only
when the jurisdictional issues “have been fully and
fairly litigated . . . in the court which rendered the
original judgment.” Durfee v. Duke, 375 U.S. 106,
111 (1963). Here, as we decided in Vera III, Cuba’s
failure to appear meant that, although the Florida
courts heard relevant evidence, “the jurisdictional
facts necessary to eliminate Cuba’s sovereign
immunity under the FSIA were not fully and fairly
litigated” in the Florida actions. 867 F.3d at 318.
The Florida state courts’ jurisdictional conclusions
could therefore “neither bind the District Court . . .
nor . . . be relied on by the parties.” Id; see also
Jerez v. Republic of Cuba, 775 F.3d 419, 422–23
(D.C. Cir. 2014) (refusing to accord res judicata
effect to similar Florida state default judgment
entered against Cuba).

30a
Thus, to determine whether it had jurisdiction
under TRIA section 201(a) to attach or execute on
Cuba’s assets, the District Court should have first
determined for itself whether the state-sponsored
terrorism exception to jurisdictional immunity
applied to the Florida state court default judgments.21 See Vera III, 867 F.3d at 321 (in absence
of valid underlying judgment, “TRIA did not pro21
Vera’s situation is different from that of Hausler and
the Villoldos in one notable respect. Upon Cuba’s default in
the federal proceeding in Vera in 2012, the District Court
granted full faith and credit to Vera’s Florida state court
judgment and entered a federal default judgment against
Cuba. J. App’x 304–05. The Villoldos and Hausler, in contrast, never requested that the District Court here enter a
federal default judgment against Cuba on their judgments,
likely because other federal courts had already done so. See J.
App’x 408–09 (Villoldo federal default judgment entered by
Judge Swain of the Southern District of New York); id. at
611–12 (Hausler federal default judgment entered by Judge
Jordan of the Southern District of Florida). Instead, Hausler
and the Villoldos requested only that the District Court here
enforce their judgments against Cuba under TRIA section
201(a). Therefore, while in Vera III we reviewed both the District Court’s entry of a default judgment and its later reliance
on that judgment to support enforcement jurisdiction under
TRIA section 201(a), here we review the District Court’s
jurisdiction over the enforcement proceedings only.
Under the circumstances presented now, though, the
distinction has little practical effect. As observed in the text,
because Cuba defaulted, “the jurisdictional facts necessary to
eliminate Cuba’s sovereign immunity were not fully and fairly litigated” in these prior federal court proceedings. See Vera
III, 867 F.3d at 318. Accordingly, when confronted with
BBVA’s challenge, the District Court should have considered
whether it was enforcing “judgment[s] for which there was
original jurisdiction under the FSIA,” Weinstein, 609 F.3d at

31a
vide a proper basis for subject matter jurisdiction
over subsequent proceedings”). In this case, however, the District Court simply granted full faith and
credit to the Florida courts’ jurisdictional conclusions rather than analyzing whether their determinations could support its application of the
terrorism exception. See Vera, 40 F. Supp. 3d at
376–77. This deficiency calls into question the District Court’s exercise of jurisdiction over the
enforcement of the judgments.
Ordinarily, we would address a District Court’s
failure to make appropriate findings to support its
jurisdiction by remanding for further proceedings.
In Vera III, however, we declined to do so because
“the case present[ed] no relevant unanswered factual issues regarding the existence of subject matter jurisdiction.” 867 F.3d at 319 n.8. We follow the
same approach here and proceed to decide de novo
whether the District Court had subject-matter
jurisdiction under the FSIA and TRIA section
201(a) over the enforcement actions brought by
Hausler and the Villoldos.22
52, to assure itself of its own jurisdiction under TRIA. This
inquiry, in turn, would have required it to answer the same
question as was posed in Vera III: whether the factual findings of the underlying judgments and any other evidence
properly before it could support application of the state-sponsored terrorism exception to Cuba.
22

Seeking to avoid the de novo review established by Vera
III, Petitioners contend that precedent bars us from revisiting
the question of subject-matter jurisdiction. We do not find
their arguments persuasive, for the following reasons.
First, the Villoldos argue that in Vera II and Vera IV,
where we dismissed BBVA’s appeals of the District Court’s

32a
C. The Villoldos’ and Hausler’s claims and
Cuba’s designation as a state sponsor of
terrorism
The Villoldos’ and Hausler’s claims arise largely
from acts that predated Cuba’s 1982 designation as
a state sponsor of terrorism by over two decades.
turnover orders for lack of appellate jurisdiction, we also
decided the issue of subject-matter jurisdiction sub silentio,
insofar as BBVA had briefed the issue in both appeals. Villoldo
Br. 22–23. This contention is without merit: once we determined that we, the Court of Appeals, lacked jurisdiction over
the appeal, we had no occasion (or, indeed, arguably, authority) to rule on a challenge to the District Court’s jurisdiction
over the case as a whole.
Second, Hausler contends that we decided that we had
subject-matter jurisdiction to enforce her judgment in an
appeal from a collateral proceeding in Hausler v. JP Morgan
Chase Bank, N.A., 770 F.3d 208 (2d Cir. 2014). She submits
that this 2014 decision binds us now. Hausler Br. 31–36.
Although BBVA had addressed the jurisdictional question in
its appellate brief in that appeal, there, we ruled against
Hausler on the merits, holding that she could not attach certain blocked EFTs because “neither Cuba nor its agents or
instrumentalities ha[d] any property interest in the EFTs
that are blocked in the garnishee banks.” Id. at 212. That
case, however, was argued in tandem with Calderon-Cardona
v. Bank of N.Y. Mellon, 770 F.3d 993 (2d Cir. 2014), which
definitively resolved the merits question at issue in Hausler:
the nature of the ownership interest necessary for a blocked
EFT to be deemed the “property” of a foreign state. In
Calderon-Cardona, we dealt with attachment of property
under section 1610(g), while in Hausler we addressed the
analogous provision in TRIA section 201(a). But we resolved
Hausler by applying Calderon-Cardona, which had issued
only several days prior. 770 F.3d at 211–12. As we have commented elsewhere in similar circumstances, “[i]t would be

33a
Accordingly, to justify invoking those pre-1982 acts
and the state-sponsored terrorism exception to sovereign immunity as the basis for this enforcement
action, they must establish that Cuba was so designated “as a result of” its acts against their families.
See 28 U.S.C. § 1605A(a)(2)(A)(i)(I); see also id.
§ 1605(a)(7)(A) (2007); City of New York v. Permanent Mission of India to the United Nations, 446
F.3d 365, 369 (2d Cir. 2006) (“The party seeking to
establish jurisdiction [over a foreign state] bears
the burden of producing evidence establishing that
a specific exception to immunity applies.”).
ironic if, in our desire to avoid rendering an advisory opinion,
we were to address a novel [jurisdictional] question in a case
where the result is foreordained by another decision of this
Court.” Ctr. for Reprod. Law & Policy v. Bush, 304 F.3d 183,
195 (2d Cir. 2002).
Accordingly, because the outcome in Hausler was indisputably “foreordained” by our decision in Calderon-Cardona,
the Hausler court sensibly avoided delving into the voluminous record on appeal to ascertain the precise basis for the
district court’s assertion of jurisdiction in that case. See
Ivanishvili v. U.S. Dep’t of Justice, 433 F.3d 332, 338 n.2 (2d
Cir. 2006) (explaining that “where the jurisdictional constraints are imposed by statute, not the Constitution, and
where the jurisdictional issues are complex and the substance
of the claim is . . . plainly without merit,” we may consider
the merits of the case without first addressing statutory
jurisdiction). The 2014 Hausler decision thus cannot reasonably be understood to have decided the jurisdictional issue.
See Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 98
(1998) (approving of ruling where court “declined to decide
[the] jurisdictional question, because the merits question was
decided in a companion case, with the consequence that the
jurisdictional question could have no effect on the outcome”)
(internal citations omitted).

34a
We have not yet had occasion to articulate how
taut the causal link must be between a specific
enumerated act—such as an extrajudicial killing or
act of torture—and a country’s later designation to
support application of the terrorism exception.
Here too, we need not address whether Petitioners
must meet the more demanding standard of “butfor causation” (i.e., that Cuba was designated a
state sponsor of terrorism as a direct result of the
specific acts taken against their family members,
and that it would not otherwise have been so designated). Rather, as we did in Vera III, we examine
the record to ascertain if the Villoldos or Hausler
adduced evidence that “specifically links” Cuba’s
acts against their families to the Secretary of
State’s determination in 1982 to designate Cuba as
a state sponsor of terrorism. 867 F.3d at 319. And
again, as in Vera III, we find the record patently
insufficient, even under this lesser causation standard, to support the Villoldos’ and Hausler’s position.
During one of several collateral federal district
court proceedings spawned by this sprawling litigation, the State Department in 2012 filed a Statement of Interest presenting its formal position as
to the “reason or reasons Cuba was designated a
state sponsor of terrorism under Section 6(j) of the
Export Administration Act of 1979.”23 J. App’x 323.
23

After BBVA moved in the U.S. District Court for the
Southern District of Florida to vacate the Hausler judgment
for lack of subject-matter jurisdiction, the State Department
made this filing at the invitation of then-District Judge

35a
The submission, which BBVA points to on appeal,
consisted of an affidavit by Peter M. Brennan, an
experienced diplomat who was then in charge of
the Department’s Office of the Coordinator for
Cuban Affairs. Brennan averred that, in 1982,
when it was so designated, “Cuba belonged in the
category of states that have repeatedly provided
support for . . . organizations and groups abroad
that used terrorism and revolutionary violence as a
policy instrument to undermine existing governments.” Id. at 324. This support was the reason
for its designation, he implied. In support of this
understanding, Brennan’s affidavit cited contemporaneous Congressional testimony given by two
State Department officials: (1) the March 12, 1982
testimony of Thomas Enders, Assistant Secretary
of State for Inter-American Affairs, before the Subcommittee on Security and Terrorism of the Senate
Judiciary Committee; and (2) the March 18, 1982
testimony of Ernest Johnson, Jr., Deputy Assistant
Secretary for Economic Affairs, before a subcommittee of the Senate Foreign Relations Committee.24
We also referred to these documents in Vera III.

Adalberto Jordan. Hausler v. Republic of Cuba, No. 08-CV20197 (S.D. Fla. Feb. 7, 2012), ECF No. 79.
24

See The Role of Cuba in Int’l Terrorism & Subversion:
Hearing Before the Subcomm. on Sec. & Terrorism of the S.
Comm. on the Judiciary, 97th Cong. 142–48 (1982) (testimony
of Thomas Enders); Regulation Changes on Exports: Hearing
Before the Subcomm. on Near E. & S. Asian Affairs of the S.
Comm. on Foreign Relations, 97th Cong. 9–10 (1982) (testimony of Ernest Johnson, Jr.).

36a
Enders, in his testimony before the Senate Subcommittee on Security and Terrorism, provided an
extensive catalogue of Cuban support given to
insurgent groups in other Latin American countries,
including Nicaragua, El Salvador, Guatemala, Honduras, Costa Rica, Colombia, and Chile. Enders
specifically referenced Cuba’s implementation in
1978 of a “new strategy . . . of uniting the left in
the countries of the hemisphere for the purpose of
using it . . . [to establish] more Marxist-Leninist
regimes in this hemisphere” as standing in contrast to the country’s previous attempts to “portray
itself as a member of the international community
not unlike others, carrying out state-to-state relations through embassies and emphasizing trade
and cultural contacts.” J. App’x 332. Enders portrayed the members of the Cuban leadership group
as subject to a “deep-seated drive to re-create their
own guerrilla experience elsewhere,” observing
that “the Castro regime has made a business of violent revolution.” Id. at 336.
Johnson’s brief testimony echoed Enders’s
remarks. He again tied Cuba’s 1982 designation to
its support of armed groups outside its borders. He
expressed the “hope [that] . . . the addition of Cuba
[to the list] will demonstrate to other countries
. . . that our export controls are truly directed
towards terrorism. . . . In the case of Cuba, we
evaluated carefully the evidence of Cuban support
for revolutionary violence and groups that use terrorism as a policy instrument.” Id. at 362.
Notably absent from Enders’s and Johnson’s testimony is any reference to political repression or

37a
human rights abuses within Cuba itself, either
during the 1959–60 period, when Cuba tortured the
Villoldos and their father and executed Bobby
Fuller; during the period immediately preceding
Cuba’s 1982 designation as a state sponsor of terrorism; or in any other time period. Instead, the
underlying record supports Brennan’s assertion
that Cuba was designated as a result of its “support for organizations and groups abroad that used
terrorism and revolutionary violence as a policy
instrument.” J. App’x at 324; see also Vera III, 867
F.3d at 318 (reaching same conclusion). In the face
of these official statements describing the Secretary of State’s reasons in 1982 for designating
Cuba as a state sponsor of terrorism, neither the
Villoldos nor Hausler present any persuasive evidence that Cuba was in fact so designated “as a
result of” its violent actions against their families
decades prior.
The Villoldos
The Villoldos cite extensively the jurisdictional
conclusions of the Florida state court. Such conclusions, however, cannot be relied on by the parties
to establish jurisdiction in the District Court here.
Vera III, 867 F.3d at 318. They also recount their
allegations of horrible mistreatment that they and
their father suffered at the hands of the Cuban revolutionary government in 1959, but provide no evidence that might “specifically link” these acts to
the Secretary of State’s 1982 designation of Cuba
as a state sponsor of terrorism.

38a
Looking to other acts to establish such a link, the
Villoldos refer further to the Florida state court’s
factual finding that “Cuba stole [their family’s]
enormous wealth and used it to fund the exportation of terrorism throughout Latin America, establishing jurisdiction as to all three Villoldo
plaintiffs.” Villoldo Br. 49. But, even assuming that
Cuba’s seizure of the Villoldos’ assets helped to
support its later promotion of terrorism overseas,
the available record strongly suggests that Cuba
was not designated a state sponsor of terrorism as
a result of any seizure of assets within its borders,
regardless of the use to which it later may have put
some portion of those assets. Accordingly, the Villoldos have failed to meet their burden to establish
that the District Court had jurisdiction over their
action to enforce their Florida state judgment
based on Cuba’s acts of torture or property seizures
committed in 1959.
Turning to more recent events, the Villoldos contend in the alternative that the District Court here
had jurisdiction to enforce their state court judgment because of Cuba’s alleged repeated attempts
to assassinate Gustavo Villoldo after its 1982 designation as a state sponsor of terrorism. These,
they insist, constituted some of the acts of “torture”
on which the Florida state judgment was based.25
25

We need not consider whether these alleged post-1982
acts could support valid claims for “hostage taking” or “the
provision of material support or resources” within the meaning of 28 U.S.C. § 1605A. The Florida state court issued a
judgment explicitly based on a finding of “torture,” and as we
have explained, the District Court’s jurisdiction here is

39a
Villoldo Br. 49–52. Their allegations, however, are
legally insufficient.
The terrorism exception incorporates the definition of “torture” established in the Torture Victim
Protection Act of 1991 (“TVPA”), Pub. L. No. 102256, 106 Stat.73. See 28 U.S.C. § 1605A(h)(7). The
TVPA defines torture as “any act, directed against
an individual in the offender’s custody or physical
control, by which severe pain or suffering . . .
whether physical or mental, is intentionally inflicted on that individual for [certain enumerated purposes].” 28 U.S.C. § 1350 note (emphasis added).
See Chowdhury v. Worldtel Bangladesh Holding,
Ltd., 746 F.3d 42, 52 (2d Cir. 2014) (torture is a
“deliberate and calculated act of an extremely cruel
and inhuman nature specifically intended to inflict
excruciating and agonizing physical or mental pain
or suffering”) (citation omitted). The Villoldos urge,
and the Florida state court reached the legal conclusion, that “threats of assassination and assassination attempts” carried out against Gustavo
Villoldo after 1982 “are properly classified as torture.” J. App’x 865. After reviewing the record, we
conclude that neither the Florida court’s findings of
fact nor any evidence submitted by the Villoldos—
nor, indeed, the Villoldos’ general allegations—support this conclusion.26 Accordingly, the Villoldos
entirely dependent on its recognition of a valid state court
judgment. Vera III, 867 F.3d at 321.
26
The specific post-1982 acts that Gustavo alleges
include: (1) that on six occasions armed individuals
“approached [him] in an aggressive manner”; (2) that on one

40a
failed to establish that Cuba committed torture or
any other act enumerated in section 1605A(a)(1)
against either of them after 1982. The District
Court therefore lacked jurisdiction over the Villoldos’ enforcement action and should have dismissed
their petition.27

of these occasions, a Cuban man approached him outside a
restaurant in Miami, Florida, displayed a weapon, and stated
he would kill him; and (3) that “armed assassins surrounded
[his] family’s home in Miami” while he was driving to and
from a nearby convenience store.” J. App’x 883. While disturbing, none of these incidents amount to “torture” within
the meaning of the TVPA.
27

Because the District Court made its jurisdictional
determination in 2014, it did not then have before it the
amended 2018 judgment that the Florida state court directed
to be effective nunc pro tunc as of the 2011 judgment or the
additional materials submitted by the Villoldos in support of
their 2017 state court motion to “re-establish the record.” The
Villoldos did, however, file both the 2018 judgment and the
materials supporting their motion with the District Court in
New York, and in July 2018, requested that the court consider these materials “should [it] engage in further review of the
Florida state court’s subject matter jurisdiction.” J. App’x 1044.
Although the District Court did not take up the Villoldos’ invitation and instead entered final judgment in response to our
mandate in Vera IV, 729 Fed. App’x at 108, the newly-filed
materials are now part of the record on appeal.
In reaching our conclusion on this argument, we have
reviewed the entirety of the record, including the materials
submitted by the Villoldos in 2017 and 2018. Because, after
having considered these materials, we conclude that the
Villoldos have failed to establish that the terrorism exception
applies, a remand for the District Court to consider them in
the first instance is unnecessary.

41a
Hausler
For her part, Hausler seeks to satisfy the preconditions to reliance on the terrorism exception by
pointing to testimony given by Peter Deutsch, a former Congressman, and Jaime Suchlicki, a professor at the University of Miami and expert on Cuban
affairs.28 Deutsch testified in a 2003 deposition in
unrelated proceedings that, as a member of Congress, he was a cosponsor of the 1996 AEDPA
amendment that generated the terrorism exception. In that deposition, he stated his view that “in
1961 President Kennedy effectively and in fact . . .
designated [Cuba] as a state sponsor of terrorism.”
J. App’x 685. In a 2012 affidavit filed in related
proceedings in the U.S. District Court for the
Southern District of Florida, Deutsch further
declared that he “agreed to be directly involved in
the drafting and enactment as a co-sponsor of the
[FSIA terrorism exception] based upon assurances
that my constituents who had suffered from the
Government of Cuba’s acts of extra-judicial killing
and torture during the period of 1960–61 would,
28

In the course of the proceedings before Judge Jordan in
the U.S. District Court for the Southern District of Florida,
the attorney who initially litigated Hausler’s claim before the
Florida state court filed an affidavit in which he both
acknowledged that no transcript was made of the default
judgment proceeding and represented that the deposition testimony of Congressman Deutsch and proffered testimony by
Professor Suchlicki were admitted into the state court record.
Hausler v. Republic of Cuba, No. 08-CV-20197 (S.D. Fla. Jan.
20, 2012), ECF No. 77. No further record appears to be available.

42a
under this legislation, be able to obtain legal
redress.” Id. at 661. He emphasized that he “would
not have agreed to be a co-sponsor of that legislation [had he] not received those assurances,” and
that he “was assured that the language as drafted,
and as later enacted, met this test.” Id. In 2012,
Deutsch reiterated his view that “[i]n 1961 President John F. Kennedy effectively and in fact designated the Government of Cuba a state sponsor of
terrorism, in part by reason of the extra-judicial
killing of U.S. citizens during the 1960–61 time
period.” Id. at 662.
Professor Suchlicki supported Deutsch’s assertions. He averred in a 2012 affidavit that the “historical evidence overwhelmingly demonstrates that
the Government of Cuba was condemned by the
Kennedy administration starting no later than
early 1961, based at least in part upon the extrajudicial killing and torture of U.S. citizens,” and that,
as a professional in the field, he was “not aware of
any statement which would support the view that
support for Latin American revolutionaries was the
only reason for such designation of the Government
of Cuba as a state sponsor of terrorism.” Id. at 673.
The assessments offered in the statements of
Deutsch and Suchlicki reflect a misunderstanding
of the statutory regime that governs sovereign
immunity and its “terrorism exception.” The version of FSIA in effect when Hausler obtained her
judgment abrogated the sovereign immunity of a
foreign state designated under “section 6(j) of the
Export Administration Act of 1979 (50 U.S.C. App.
2405(j)) or section 620A of the Foreign Assistance

43a
Act of 1961 (22 U.S.C. 2371).” 28 U.S.C.
§ 1605(a)(7)(A) (2007). Congress did not, however,
add section 620A to the Foreign Assistance Act
until June of 1976. Pub. L. No. 94–329, § 303, 90
Stat. 729 (1976). Cuba could not therefore have
been so designated in 1961 as Deutsch and Suchlicki appear to claim.
Deutsch and Suchlicki, however, are not entirely
incorrect. Section 620(a) of the original Foreign
Assistance Act of 1961 expressly prohibited the
provision of foreign aid to Cuba and authorized the
President “to establish and maintain a total embargo upon all trade between the United States and
Cuba.” Pub. L. No. 87-195, § 620, 75 Stat. 424, 44445 (1961). Moreover, President Kennedy in fact
implemented such an embargo in February 1962.
Proclamation No. 3447, Embargo on All Trade with
Cuba, 27 Fed. Reg. 1085 (Feb. 7, 1962). Thus, while
Deutsch and Suchlicki are correct that President
Kennedy sanctioned Cuba during this period (and
he did so under a provision of the Foreign Assistance Act adjacent to that identified in the FSIA),
these sanctions did not lift Cuba’s immunity under
the FSIA.
Accordingly, as demonstrated by the previously
cited Congressional testimony of high-ranking
State Department officials, Cuba was not designated as a state sponsor of terror under the relevant
provisions until 1982. Because the decision to designate a state as a sponsor of terrorism is committed by statute to the discretion of the Secretary of
State, we often regard such official pronounce-

44a
ments as authoritative.29 See Vera III, 867 F.3d at
319 (relying on “legislative materials and statements by government officials submitted in this
case [that] make no mention of extrajudicial
killings or of the death of Vera’s father”); Roeder v.
Islamic Republic of Iran, 195 F. Supp. 2d 140, 160–
61 (D.D.C. 2002) (relying on State Department
reports and letters to conclude that Iran was not
designated as a state sponsor of terrorism as a
result of the 1979–81 hostage crisis and rejecting
contrary testimony given by an independent
expert), aff’d, 333 F.3d 228 (D.C. Cir. 2003).
In sum, although Hausler’s witnesses establish
that a succession of presidential administrations
29
As we observed supra note 19, section 1605A expressly
commits designation of a country as a “state sponsor of terrorism” to the discretion of the Secretary of State. See 28 U.S.C.
§ 1605A(h)(6). Section 1605(a)(7), the predecessor provision in
effect when Hausler secured her Florida state court judgment, operated to the same effect. It abrogated the sovereign
immunity of state sponsors of terrorism designated under
“section 6(j) of the Export Administration Act of 1979 (50
U.S.C. App. 2405 (j)) or section 620A of the Foreign Assistance Act of 1961 (22 U.S.C. 2371).” 28 U.S.C. § 1605(a)(7)(A)
(2007). Both provisions committed designation to the discretion of the Secretary of State. See 50 U.S.C. App. 2405(j)(1)(A)
(2007) (requiring license for the export of goods to a country
“if the Secretary of State has made the following determinations . . . [t]he government of such country has repeatedly
provided support for acts of international terrorism”); 22
U.S.C. § 2371(a) (2007) (“The United States shall not provide
any assistance under this chapter . . . to any country if the
Secretary of State determines that the government of that
country has repeatedly provided support for acts of international terrorism.”).

45a
has vigorously condemned human rights abuses in
Cuba, Hausler cannot seriously dispute that it was
not until 1982 that Cuba was designated a state
sponsor of terrorism, and that the record shows
that the basis for the formal designation was
Cuba’s active support for violent groups acting outside of its borders. See Vera III, 867 F.3d at 318.
Thus, Hausler, too, failed to adduce evidence
demonstrating a specific link between the death of
her brother in 1960 and Cuba’s designation as a
state sponsor of terrorism over two decades later.
Accordingly, she has failed to meet her burden to
establish that the District Court had jurisdiction
over her action under TRIA section 201(a) to
enforce her Florida state court judgment.
We conclude, therefore, that the terrorism exception—the sole potential basis for subject-matter
jurisdiction in this case—applied neither to
Hausler nor the Villoldos’ actions before the District Court. Hausler and the Villoldos thus did not
hold valid judgments against Cuba enforceable
under TRIA section 201(a); the District Court
lacked jurisdiction over the enforcement proceeding; and the District Court’s orders requiring
BBVA and other banks to turn over blocked Cuban
assets to all three groups of Appellees (Hausler, the
Villoldos, and Vera) were void for want of jurisdiction.

46a
II. Restitution
Appellees

of

funds

turned

over

to

Having determined that the District Court
lacked subject-matter jurisdiction over the Villoldo
and Hausler enforcement actions—and having earlier decided the same with respect to Vera in Vera
III—we now confront the consequences of these rulings.
The District Court declined to stay execution of
its turnover orders pending BBVA’s appeal from
the court’s final judgment. For the reasons set
forth above, we conclude that these turnover orders
were void ab initio. BBVA has requested that, if
such a result is reached, this Court order all three
Appellees to make restitution to BBVA of the funds
that they received under the invalid turnover
orders. Appellees counter that restitution to BBVA
is inappropriate because BBVA lacks its own possessory interest in the funds. After all, Appellees
argue, the funds at issue are the property of the
Cuban Import-Export Corporation, a Cuban instrumentality that never appeared in this case; BBVA
was merely an intermediary bank that blocked the
assets under the Cuban Assets Control Regulations, 31 C.F.R. Part 515. Accordingly, Appellees
urge, once BBVA delivered the funds to the Registry of the U.S. Courts, it was dispossessed of any
interest of its own, and only the Cuban ImportExport Corporation or the Cuban government itself
would have standing to seek their return. To this,
BBVA replies that it retains a possessory interest
in the funds because (1) it is subject to potential

47a
liability for the funds to the Cuban corporation;
and (2) it is entitled to an equitable lien on the
monies for its expenses in diligently protecting the
Cuban corporation’s property from execution.
In considering what equity demands in this situation, we first summarize the traditional standards
applicable to requests for restitution and then consider their application here.
The Supreme Court has long ago observed that
“[t]he right to recover what one has lost by the
enforcement of a judgment subsequently reversed
is well established.” Baltimore & O.R. Co. v. United
States, 279 U.S. 781, 786 (1929). This well-established right may be tempered, however, by application of equitable principles. Thus, the most recent
Restatement of the law of restitution offers this
qualified statement: “A transfer or taking of property, in compliance with or otherwise in consequence of a judgment that is subsequently reversed
or avoided, gives the disadvantaged party a claim
in restitution as necessary to avoid unjust enrichment.” Restatement (Third) of Restitution and
Unjust Enrichment § 18 (Am. Law Inst. 2011)
(emphasis added). Because an order of restitution
is generally seen as discretionary, we consider
whether “the money was received in such circumstances that the possessor will give offense to equity and good conscience if permitted to retain it.”
Atl. Coast Line R. Co. v. Florida, 295 U.S. 301, 309
(1935).
In conducting this inquiry, we are mindful of the
Restatement’s comment that a judgment debtor’s
“entitlement to restitution may not be resisted

48a
merely on the ground that an invalid judgment
gave effect to what was, in any event, a moral obligation owed to the judgment creditor.” Restatement (Third) of Restitution and Unjust Enrichment
§ 18 cmt.e (Am. Law Inst. 2011) (emphasis added).
Instead, the Restatement ties an entitlement to
restitution to the legal validity of the underlying
debt or liability, explaining that, while “[a]n
invalid or erroneous judgment that gives effect to a
valid liability does not create unjust enrichment,” a
“restitution claim based on legal compulsion stands
on a different footing” when it is based on “money
. . . paid to satisfy a claim that is valid in equity
and good conscience yet legally unenforceable.” Id.
(emphases added). Thus, when a debtor has been
“compelled by law to pay a claim that is not legally
enforceable . . . [t]he need to remedy this misapplication of legal process . . . constitutes an important reason for restitution that is independent of
the individualized equities of the parties.” Id.
Appellees’ immense default judgments against
Cuba reflect the horror of those acts that Cuba is
alleged to have committed against their family
members between 1959 and 1976. In determining
whether Appellees were “unjustly enriched” for
equitable purposes by receiving the funds they
have collected, however, we must weigh the legal
validity of their underlying claims, not the relative
moral standing of the parties. Here, as set forth in
Section I.C, supra, Appellees articulate no sound or
even plausible jurisdictional basis under section
1605A for their claims or for the judgments
entered. This void suggests that the consequent

49a
turnover orders are not expressions of an underlying “valid liability” that some merely ancillary technical ground has made unrecoverable.30 Rather,
Appellees have collected substantial funds pursuant to void turnover orders in a case where the
District Court had no basis in law for exercising
jurisdiction. We are compelled in these circumstances to rule that restitution is warranted.
The unavoidability of this conclusion is underscored by our prior rulings. In Vera II, in which we
dismissed BBVA’s attempt to directly appeal the
District Court’s turnover orders, we held that we
lacked appellate jurisdiction because the orders did
not effect injunctive relief of the type that is immediately appealable, and because BBVA could not
show that the orders “ ‘(1) might have a serious,
perhaps irreparable consequence; and (2) can be
effectually challenged only by immediate appeal.’ ”
Vera II, 651 Fed. App’x at 26 (quoting Bridgeport
Guardians, Inc. v. Delmonte, 537 F.3d 214, 220 (2d
Cir. 2008)). The turnover orders did not work an
irreparable harm on BBVA’s interests, we reasoned, because “the mere loss of funds pending
30
Vera argues that his receipt of an amended state court
judgment in 2018, specifically finding that the terrorism
exception to sovereign immunity is established in his case,
creates a valid liability such that he has not been unjustly
enriched. However, it does not appear that Vera has taken
any steps to register that judgment in federal district court as
would be necessary to create an enforceable debt. Relatedly,
the Florida state court judgments entered for Hausler and
the Villoldos do not create a liability independent of the FSIA
claims registered in federal district court, which we void with
this opinion.

50a
final judgment can be remedied on appeal through
recovery of the funds with interest.” Id. And, in
May 2017, when the District Court denied BBVA a
further stay and ordered that the funds deposited
in the Court Registry be disbursed to Appellees, it
expressly relied on this statement. See Vera v.
Republic of Cuba, No. 12-CV-1596 (AKH), 2017 WL
4350568, at *2 (S.D.N.Y. May 25, 2017) (“As the
Second Circuit held when denying BBVA’s appeal
for lack of jurisdiction, BBVA has failed to show
that the Turnover Order would ‘have a serious,
irreparable consequence’ because ‘the mere loss of
funds pending final judgment can be remedied on
appeal through recovery of the funds with interest.’ ”). Indeed, with subject-matter jurisdiction at
the very least an open question throughout this
proceeding, the Villoldos, Hausler, and Vera all can
fairly be said to have assumed the risk of sustaining an adverse ruling on appeal when they opposed
BBVA’s stay motion and sought execution of the
turnover orders before appellate review was complete. See PSM Holding Corp. v. Nat’l Farm Fin.
Corp., 884 F.3d 812, 823 (9th Cir. 2018) (judgment
creditor “assumed some amount of risk when it
opted to execute on the judgment while an appeal
was pending”); Strong v. Laubach, 443 F.3d 1297,
1300 (10th Cir. 2006) (same).
In reaching our decision, we acknowledge the
complexities surrounding BBVA’s possessory interest in the funds. On the one hand, we agree with
Appellees that BBVA’s concern about confronting
double liability is speculative at best. And, even if
BBVA might be entitled to an equitable lien on the

51a
funds to the extent it has sustained costs related to
its vigorous defense of the Cuban corporation’s
assets, it has not yet presented any documentation
of the attorney’s fees that it has incurred in this
action, and its entitlement to recover them may, in
any event, be subject to legitimate dispute. On the
other hand, we note that, even if BBVA does not
have a possessory interest in the funds, it may well
have an interest in completing the transfer of the
funds to the Cuban Import Export Corporation,
now that the funds transfer is no longer blocked by
the United States.31
We ultimately conclude, however, that the
strength (or weakness) of BBVA’s interest in the
funds does not provide an adequate basis for denying restitution to BBVA. When a party seeks restitution of funds collected from it pursuant to an
invalid judgment, it is not ordinarily required to
establish the nature of its possessory interest in
the lost funds. Rather, the baseline rule in this Circuit is that “a party against whom an erroneous
judgment or decree has been carried into effect is
entitled, in the event of a reversal, to be restored by
his adversary to that which he has lost thereby.”
LiButti v. United States, 178 F.3d 114, 120 (2d Cir.
1999); see also In re Craig’s Stores of Texas, Inc.,
402 F.3d 522, 525 (5th Cir. 2005) (“[W]hen the
underlying litigation was dismissed for lack of
jurisdiction, the disputed registry funds should
have been disbursed back to the party that deposit31

The U.S. government unblocked the funds in 2015. See
31 C.F.R. § 515.584(e).

52a
ed them in the registry.”). Of course, we may
decline to apply this rule if equitable considerations counsel otherwise. See LiButti, 178 F.3d at
120 (“[T]his rule is not without exceptions.”). But
as discussed above, the equitable considerations at
play in such a restitution analysis principally concern whether restitution is necessary to avoid
unjustly enriching the party that benefited from
the enforcement of an invalid judgment. For the
reasons already stated, we conclude here that
Appellees were unjustly enriched by enforcement of
the void turnover orders, and that equity and good
conscience require restoration of the status quo
ante, particularly given (1) the absence of an
underlying valid liability, and (2) Appellees’ decision to seek execution of the turnover orders,
notwithstanding the substantial and apparent
risks that the orders were vulnerable to reversal on
appeal. Accordingly, we direct the District Court on
remand to enter an order requiring restitution by
Appellees of the funds that BBVA paid them under
the void turnover orders. We have reviewed the
parties’ additional arguments and conclude that
they are unavailing.
CONCLUSION
The District Court lacked subject-matter jurisdiction over this enforcement proceeding under
TRIA. The turnover orders that it issued in the
enforcement proceeding were void ab initio.
Accordingly, we REVERSE the judgment of the District Court, V ACATE the turnover orders, and

53a
R EMAND the cause to the District Court with
instructions to (1) dismiss the amended Omnibus
Petition and (2) issue an order directing Appellees
to return to BBVA the funds that BBVA paid them
under the void turnover orders.
JOSÉ A. CABRANES, Circuit Judge:
I join the judgment of the Court.

54a
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 20th day of
February, two thousand twenty.
Docket No: 18-2345
Aldo Vera, Jr., as Personal Representative
of the Estate of Aldo Vera, Sr.,
Plaintiff-Appellee,
William O. Fuller, as Successor Personal Representative of the Estate of Robert Otis Fuller; Gustavo
E. Villoldo, individually and as Administrator,
Executor, and Personal Representative of the
Estate of Gustavo Villoldo; Alfredo Villoldo,
Petitioners-Appellees,
v.
Banco Bilbao Vizcaya Argentaria, S.A.,
Respondent-Appellant.

55a
ORDER
Appellee, William Fuller, filed a petition for
panel rehearing, or, in the alternative, for rehearing en banc. The panel that determined the appeal
has considered the request for panel rehearing, and
the active members of the Court have considered
the request for rehearing en banc.
IT

IS

HEREBY ORDERED that the petition is denied.
FOR

THE

COURT:

Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ CATHERINE O’HAGAN WOLFE

56a
U.S.C. Const. art. III
ARTICLE III. THE JUDICIARY
Section 1. The judicial Power of the United States,
shall be vested in one supreme Court, and in such
inferior Courts as the Congress may from time to
time ordain and establish. The Judges, both of the
supreme and inferior Courts, shall hold their
Offices during good Behaviour, and shall, at stated
Times, receive for their Services, a Compensation,
which shall not be diminished during their Continuance in Office.
Section 2. The judicial Power shall extend to all
Cases, in Law and Equity, arising under this Constitution, the Laws of the United States, and
Treaties made, or which shall be made, under their
Authority;—to all Cases affecting Ambassadors,
other public Ministers and Consuls;—to all Cases
of admiralty and maritime Jurisdiction;—to Controversies to which the United States shall be a
Party;—to Controversies between two or more
States;—between a State and Citizens of another
State;—between Citizens of different States,—
between Citizens of the same State claiming Lands
under Grants of different States, and between a
State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
In all Cases affecting Ambassadors, other public
Ministers and Consuls, and those in which a State
shall be Party, the supreme Court shall have original Jurisdiction. In all the other Cases before men-

57a
tioned, the supreme Court shall have appellate
Jurisdiction, both as to Law and Fact, with such
Exceptions, and under such Regulations as the
Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment, shall be by Jury; and such Trial shall be held
in the State where the said Crimes shall have been
committed; but when not committed within any
State, the Trial shall be at such Place or Places as
the Congress may by Law have directed.
Section 3. Treason against the United States,
shall consist only in levying War against them, or
in adhering to their Enemies, giving them Aid and
Comfort. No Person shall be convicted of Treason
unless on the Testimony of two Witnesses to the
same overt Act, or on Confession in open Court.
The Congress shall have Power to declare the Punishment of Treason, but no Attainder of Treason
shall work Corruption of Blood, or Forfeiture
except during the Life of the Person attainted.

58a
28 U.S.C. § 1605
§ 1605. General exceptions to the
jurisdictional immunity of a foreign state
Effective: October 6, 2006 to January 27, 2008
(a) A foreign state shall not be immune from the
jurisdiction of courts of the United States or of the
States in any case—
(1) in which the foreign state has waived its
immunity either explicitly or by implication,
notwithstanding any withdrawal of the waiver
which the foreign state may purport to effect
except in accordance with the terms of the
waiver;
(2) in which the action is based upon a commercial activity carried on in the United States
by the foreign state; or upon an act performed
in the United States in connection with a commercial activity of the foreign state elsewhere;
or upon an act outside the territory of the United States in connection with a commercial
activity of the foreign state elsewhere and that
act causes a direct effect in the United States;
(3) in which rights in property taken in violation of international law are in issue and that
property or any property exchanged for such
property is present in the United States in connection with a commercial activity carried on
in the United States by the foreign state; or
that property or any property exchanged for

59a
such property is owned or operated by an
agency or instrumentality of the foreign state
and that agency or instrumentality is engaged
in a commercial activity in the United States;
(4) in which rights in property in the United
States acquired by succession or gift or rights
in immovable property situated in the United
States are in issue;
(5) not otherwise encompassed in paragraph
(2) above, in which money damages are sought
against a foreign state for personal injury or
death, or damage to or loss of property, occurring in the United States and caused by the
tortious act or omission of that foreign state or
of any official or employee of that foreign state
while acting within the scope of his office or
employment; except this paragraph shall not
apply to—
(A) any claim based upon the exercise or
performance or the failure to exercise or
perform a discretionary function regardless of whether the discretion be abused, or
(B) any claim arising out of malicious
prosecution, abuse of process, libel, slander, misrepresentation, deceit, or interference with contract rights;
(6) in which the action is brought, either to
enforce an agreement made by the foreign
state with or for the benefit of a private party
to submit to arbitration all or any differences
which have arisen or which may arise between

60a
the parties with respect to a defined legal relationship, whether contractual or not, concerning a subject matter capable of settlement by
arbitration under the laws of the United
States, or to confirm an award made pursuant
to such an agreement to arbitrate, if (A) the
arbitration takes place or is intended to take
place in the United States, (B) the agreement
or award is or may be governed by a treaty or
other international agreement in force for the
United States calling for the recognition and
enforcement of arbitral awards, (C) the underlying claim, save for the agreement to arbitrate, could have been brought in a United
States court under this section or section 1607,
or (D) paragraph (1) of this subsection is otherwise applicable; or
(7) not otherwise covered by paragraph (2), in
which money damages are sought against a foreign state for personal injury or death that was
caused by an act of torture, extrajudicial
killing, aircraft sabotage, hostage taking, or
the provision of material support or resources
(as defined in section 2339A of title 18) for such
an act if such act or provision of material support is engaged in by an official, employee, or
agent of such foreign state while acting within
the scope of his or her office, employment, or
agency, except that the court shall decline to
hear a claim under this paragraph—
(A) if the foreign state was not designated
as a state sponsor of terrorism under sec-

61a
tion 6(j) of the Export Administration Act
of 1979 (50 U.S.C. App. 2405(j)) or section
620A of the Foreign Assistance Act of 1961
(22 U.S.C. 2371) at the time the act
occurred, unless later so designated as a
result of such act or the act is related to
Case Number 1:00CV03110(EGS) in the
United States District Court for the District of Columbia; and
(B) even if the foreign state is or was so
designated, if—
(i) the act occurred in the foreign
state against which the claim has been
brought and the claimant has not
afforded the foreign state a reasonable
opportunity to arbitrate the claim in
accordance with accepted international rules of arbitration; or
(ii) neither the claimant nor the victim was a national of the United
States (as that term is defined in section 101(a)(22) of the Immigration and
Nationality Act) when the act upon
which the claim is based occurred.
(b) A foreign state shall not be immune from the
jurisdiction of the courts of the United States in
any case in which a suit in admiralty is brought to
enforce a maritime lien against a vessel or cargo of
the foreign state, which maritime lien is based
upon a commercial activity of the foreign state:
Provided, That—

62a
(1) notice of the suit is given by delivery of a
copy of the summons and of the complaint to
the person, or his agent, having possession of
the vessel or cargo against which the maritime
lien is asserted; and if the vessel or cargo is
arrested pursuant to process obtained on
behalf of the party bringing the suit, the service of process of arrest shall be deemed to constitute valid delivery of such notice, but the
party bringing the suit shall be liable for any
damages sustained by the foreign state as a
result of the arrest if the party bringing the
suit had actual or constructive knowledge that
the vessel or cargo of a foreign state was
involved; and
(2) notice to the foreign state of the commencement of suit as provided in section 1608 of this
title is initiated within ten days either of the
delivery of notice as provided in paragraph (1)
of this subsection or, in the case of a party who
was unaware that the vessel or cargo of a foreign state was involved, of the date such party
determined the existence of the foreign state’s
interest.
(c) Whenever notice is delivered under subsection
(b)(1), the suit to enforce a maritime lien shall
thereafter proceed and shall be heard and determined according to the principles of law and rules
of practice of suits in rem whenever it appears that,
had the vessel been privately owned and possessed,
a suit in rem might have been maintained. A
decree against the foreign state may include costs

63a
of the suit and, if the decree is for a money judgment, interest as ordered by the court, except that
the court may not award judgment against the foreign state in an amount greater than the value of
the vessel or cargo upon which the maritime lien
arose. Such value shall be determined as of the
time notice is served under subsection (b)(1).
Decrees shall be subject to appeal and revision as
provided in other cases of admiralty and maritime
jurisdiction. Nothing shall preclude the plaintiff in
any proper case from seeking relief in personam in
the same action brought to enforce a maritime lien
as provided in this section.
(d) A foreign state shall not be immune from the
jurisdiction of the courts of the United States in
any action brought to foreclose a preferred mortgage, as defined in section 31301 of title 46. Such
action shall be brought, heard, and determined in
accordance with the provisions of chapter 313 of
title 46 and in accordance with the principles of law
and rules of practice of suits in rem, whenever it
appears that had the vessel been privately owned
and possessed a suit in rem might have been maintained.
(e) For purposes of paragraph (7) of subsection
(a)—
(1) the terms “torture” and “extrajudicial
killing” have the meaning given those terms in
section 3 of the Torture Victim Protection Act
of 1991;

64a
(2) the term “hostage taking” has the meaning
given that term in Article 1 of the International Convention Against the Taking of Hostages;
and
(3) the term “aircraft sabotage” has the meaning given that term in Article 1 of the Convention for the Suppression of Unlawful Acts
Against the Safety of Civil Aviation.
(f) No action shall be maintained under subsection
(a)(7) unless the action is commenced not later
than 10 years after the date on which the cause of
action arose. All principles of equitable tolling,
including the period during which the foreign state
was immune from suit, shall apply in calculating
this limitation period.
(g) Limitation on discovery.—
(1) In general.—(A) Subject to paragraph (2),
if an action is filed that would otherwise be
barred by section 1604, but for subsection
(a)(7), the court, upon request of the Attorney
General, shall stay any request, demand, or
order for discovery on the United States that
the Attorney General certifies would significantly interfere with a criminal investigation
or prosecution, or a national security operation, related to the incident that gave rise to
the cause of action, until such time as the
Attorney General advises the court that such
request, demand, or order will no longer so
interfere.

65a
(B) A stay under this paragraph shall be in
effect during the 12-month period beginning on
the date on which the court issues the order to
stay discovery. The court shall renew the order
to stay discovery for additional 12-month periods upon motion by the United States if the
Attorney General certifies that discovery
would significantly interfere with a criminal
investigation or prosecution, or a national
security operation, related to the incident that
gave rise to the cause of action.
(2) Sunset.—(A) Subject to subparagraph (B),
no stay shall be granted or continued in effect
under paragraph (1) after the date that is 10
years after the date on which the incident that
gave rise to the cause of action occurred.
(B) After the period referred to in subparagraph (A), the court, upon request of the Attorney General, may stay any request, demand, or
order for discovery on the United States that
the court finds a substantial likelihood
would—
(i) create a serious threat of death or serious bodily injury to any person;
(ii) adversely affect the ability of the United
States to work in cooperation with foreign
and international law enforcement agencies in investigating violations of United
States law; or
(iii) obstruct the criminal case related to
the incident that gave rise to the cause of

66a
action or undermine the potential for
conviction in such case.

a

(3) Evaluation of evidence.—The court’s
evaluation of any request for a stay under this
subsection filed by the Attorney General shall
be conducted ex parte and in camera.
(4) Bar on motions to dismiss.—A stay of
discovery under this subsection shall constitute a bar to the granting of a motion to dismiss under rules 12(b)(6) and 56 of the Federal
Rules of Civil Procedure.
(5) Construction.—Nothing in this subsection shall prevent the United States from seeking protective orders or asserting privileges
ordinarily available to the United States.

67a
28 U.S.C. § 1738
§ 1738. State and Territorial statutes and
judicial proceedings; full faith and credit
The Acts of the legislature of any State, Territory,
or Possession of the United States, or copies thereof, shall be authenticated by affixing the seal of
such State, Territory or Possession thereto.
The records and judicial proceedings of any court of
any such State, Territory or Possession, or copies
thereof, shall be proved or admitted in other courts
within the United States and its Territories and
Possessions by the attestation of the clerk and seal
of the court annexed, if a seal exists, together with
a certificate of a judge of the court that the said
attestation is in proper form.
Such Acts, records and judicial proceedings or
copies thereof, so authenticated, shall have the
same full faith and credit in every court within the
United States and its Territories and Possessions
as they have by law or usage in the courts of such
State, Territory or Possession from which they are
taken.

68a
Exhibit A
IN THE CIRCUIT OF THE 11TH
JUDICIAL CIRCUIT IN AND FOR
MIAMI-DADE COUNTY, FLORIDA
GENERAL JURISIDICTION DIVISION
CASE NO. 02-12475 DIV. 04
JEANNETTE HAUSLER as Successor Personal Representative of the Estate of ROBERT OTIS FULLER,
(“BOBBY FULLER”), Deceased, on behalf of THOMAS
CASKEY as Personal Representative of the Estate
of LYNITA FULLER CASKEY, surviving daughter of
ROBERT OTIS FULLER, The ESTATE OF ROBERT OTIS
F ULLER , F REDERICK F ULLER , F RANCES F ULLER ,
GRACE LUTES, JEANNETTE HAUSLER, AND IRENE MOSS,
Plaintiffs,
vs.
THE REPUBLIC OF CUBA, FIDEL CASTRO RUZ, individually and as President of the State and Council Of
Ministers, Head of the Communist Party and Commander-in Chief of the Military, RAUL CASTRO RUZ,
individually and as First Vice President Of the
Council of State and Council of Ministers and Head
of the Cuban Revolutionary Armed Forces, The
CUBAN REVOLUTIONARY ARMED FORCES, and EL MINISTERIO D EL I NTERIOR ,
Defendants.

69a
AMENDED FINAL JUDGMENT
THIS CAUSE came before the Court for Non Jury
trial on Wednesday, December 13, 2006, and after
receiving extensive evidence, this Court hereby
rules as follows:
I. CAUSE OF ACTION
This is an action brought by Jeannette Hausler,
as Personal Representative of the Estate of Robert
Otis Fuller (“Bobby Fuller”), Deceased, pursuant to
the Foreign Sovereign Immunities Act (FSIA) of
1976, 28 U.S.C. §§ 1602-1611, the Anti-Terrorism
and Effective Death Penalty Act of 1966 (“AEDPA”)
28 U.S.C. § 1605 (a)(7), and the Torture Victim Protection Act of 1991, 28 U.S.C.A. § 1350, arising out
of the Defendants’ extra-judicial torture and killing
of Bobby Fuller on October 15th and 16th, respectively, 1960.
The FSIA establishes State and Federal Court
jurisdiction over foreign states and their officials,
agents, and employees in certain enumerated
instances. Specifically, the FSIA eliminates the
sovereign immunity of foreign states over any
claim that may be brought against a designated
state sponsor of terrorism (and/or its agents and
instrumentalities) under federal law, under governing state law, under governing foreign law, or
under international law establishing a cause of
action for acts of state-sponsored terrorism “in
which money damages are sought against a foreign
state for personal injury or death that was caused

70a
by an act of torture, extra-judicial killing, aircraft
sabotage, hostage taking, or the provision of material support or resources. . .for such an act if such
act or provision of material support is engaged in by
an official, employee or agent of such foreign state
while acting within the scope of his or her office,
employment or agency. . .” 28 USC § 1605 (a)(7).
FSIA further provides that “an official, employee or
agent of a foreign state designated as state sponsor
of terrorism. . . shall be liable to a United States
national or the national’s legal representatives for
personal injury or death caused by acts. . .for
which the Courts of the United States may maintain jurisdiction. . .” 28 USC § 1605, Civil Liability
for Acts of State Sponsored Terrorism. The Defendants, despite being properly being served with
process pursuant to 28 USC § 1608, have failed to
answer or enter an appearance in this matter, and
Defaults were entered against the Defendants, The
Cuban Revolutionary Armed Forces, Fidel Castro
Ruz and Raul Castro Ruz on June 28, 2006; against
The Republic of Cuba on September 2, 2006 and the
Defendant, The Ministry of the Interior on October
3, 2006, pursuant to 28 USC § 1608(e) and the
applicable Florida Rule of Civil Procedure. This
matter was set for non-jury trial as the FSIA
requires that a Default Judgment against a foreign
state be entered only after a Plaintiff “establishes
his claim or right to relief by evidence that is satisfactory to the Court.” 28 USC § 1608(e). See also
Flatow v. The Islamic Republic of Iran, et al., 999
F. Supp. 1, at 6 (1998).

71a
Defendants have failed to contravene the evidence presented by Plaintifs demonstrating that
the conduct set forth herein is actionable under
standards set by federal, state and international
law. In particular, Plaintiffs have demonstrated to
the Court’s satisfaction that extra-judicial torture
and killing, for purposes of the FSIA and the
AEDPA are defined in Section 3 of the Torture Victim Act of 1991, 28 USC § 1350. Section 3 (a)
Defines Extra-Judicial Killing as;
“. . .a deliberated killing not authorized by a
previous judgment pronounced by a regularly
constituted court affording all of the judicial
guarantees which are recognized as indispensable by civilized peoples. . .”
The definition of Extra-Judicial Killing used in
the Torture Victim’s Protection Act of 1991, mirrors word for word the language of Part I, Article III,
Section 1(d) of the Geneva Convention adopted on
August 12, 1949, to which The Republic of Cuba
was a signatory, which states in part;
“. . .the following acts are and shall remain
prohibited at any time and at any place whatsoever. . .
(d) The passing of sentences and the carrying
out of executions without previous judgment
pronounced by a regularly constituted Court
affording all the judicial Guarantees which are
recognized as Indispensable by civilized peoples.”

72a
In defining what constitutes a “previous Judgment pronounced by a regularly constituted court
affording all the Judicial guarantees that are recognized as indispensable by civilized peoples, “ Section 3 of the Geneva Convention, “Judicial
Proceedings,” offers relevant guidance:
III. Judicial Proceedings
Article 99
No moral or physical coercion may be exerted
on a prisoner of war in order to induce him to
admit himself guilty of the act of which he is
accused.
No prisoner of war may be convicted without
having had an opportunity to present his
defense and the assistance of a qualified advocate or counsel.
Article 101
If the death penalty is pronounced on a prisoner of war, the sentence shall not be executed
before the expiration of a period of at least six
months from the date when the Protecting
Power receives, at an indicated address, the
detailed communication provided for in Article
107
Section 3(b) of the Torture Victim Protection
Act of 1991, defines torture as:
“. . .any act, directed against an individual in
the offender’s custody or physical control by
which severe pain or suffering. . . whether

73a
physical or mental, is intentionally inflicted on
that individual for such purposes as obtaining
from that individual or a third person information or a confession, punishing that individual
for an act that individual or a third person has
committed or is suspected of having committed, intimidating or coercing that individual or
third person, or for any reason based on discrimination of any kind.”
The facts as more specifically set forth below
clearly demonstrate that Bobby Fuller was not
afforded “the judicial guarantees which are recognized as indispensable by civilized peoples,” as
those guarantees are defined under the Geneva
Convention and the AEDPA, and that he was the
victim of both Torture and Extra-Judicial Killing
perpetrated by the Defendants, both individually
and collectively, actionable under federal, state
and international law.
II. JURISDICTION
This Court has jurisdiction over the subject matter of this cause pursuant to the express terms of
28 USC § 1605(a) which provides in part:
A foreign state shall not be immune from the
jurisdiction of courts of the United States or of
the States in any case(7) not otherwise covered by Paragraph (2),
in which money damages are sought against a
foreign state for personal injury or death that

74a
was caused by an act of torture, extra-judicial
killing,. . ., or the provision of material support or resources. . .for such an act if such act
or provision of material support is engaged in
by any official, employee or agent of such foreign state while acting in the scope of his or
her office, employment or agency, except that
the Court shall decline to hear a claim under
this paragraph–
(A) If the foreign state was not designated
as a state sponsor of terrorism under 6(j) of
the Export Administration Act of 1979
. . .at the time the act occurred, unless
later so designated as a result of such act;
(emphasis added).
This Court expressly finds that all statutory criteria for the exercise of jurisdiction under this
statute over a claim against Defendant Cuba and
the remaining Defendants (who are agents or
instrumentalities of Defendant Cuba) have been
established by evidence satisfactory to the Court.
In particular, the Court finds that Defendant,
Cuba, which was designated to be a state sponsor
of terrorism in 1982, under the terms of 56(j) of the
Export Administration Act of 1979, at least in part
by reason of the acts of terrorism described herein
including the torture and extra-judicial killing of
Bobby Fuller, is subject to suit in any State Court
of the United States, pursuant to the provisions
28 USC § 1605. See also Ring v. Socialist Peoples
Libyan Arab, 995 F.Supp.325 (ED NY 1998); and

75a
Weininger v. Fidel Castro, et al (SD NY 2006) 05
CIV 7214 (VM).
III. REMEDY APPLIED RETROACTIVELY
Pursuant to 28 USCA § 1605, the remedies sought
in this action apply retroactively for the purposes
of establishing subject matter and personal jurisdiction. As congress expressly directed the retroactive application of 28 USC § 1605(a)(7) in order to
further a comprehensive counter-terrorism initiative by the legislate branch of government, the
event complained of herein, although occurring
prior to the enactment of the Anti-Terrorism Effective Death Penalty Act of 1996 does provide a basis
for subject matter jurisdiction. See also Flatow v.
The Islamic Republic of Iran, et al., 999 F. Supp 1
(USDC DC 1998).
IV. STATUTE OF LIMITATIONS
This cause of action brought pursuant to 28 USC
§ 1605 (a) (7) has been brought within the applicable statute of limitations. 28 USC § 1605 (f) states:
No action shall be maintained under Section
(a) (7) unless the action is commenced not later
than 10 years after the date on which the cause
of action arose. “All principles of equitable
tolling, including the period during which the
foreign state was immune from suit, shall
apply in calculating this limitation.”

76a
Given the equitable tolling mandated by the subject legislation, this cause of action has been brought
within the applicable time frame. In fact, the Court
in Flatow, supra, at 23, extinguished any doubt as
to this conclusion when it stated, “This Court
therefore concludes as a matter of law that the earliest possible date for the statute of limitations to
expire for any action brought pursuant to 28 USC
1605(a)(7) and 28 USC 1605 will be April 24, 2006.”
Given the foregoing, and the fact that this cause of
action was filed prior to May 15, 2002, the claims
herein are not barred by the statute of limitations.
V. FINDINGS OF THE FACTS
This Court having heard clear and convincing
evidence hereby makes the following findings of
fact:
A. FULLER FAMILY HISTORY:
At the turn of the century, 1903, Bobby’s grandfather, Albin Jewett and his mother, Jennie (then 3
years old) moved from Massachusetts to Holguin,
Cuba. Their family lineage could be traced back to
the Mayflower and in fact, Jennie, was a proud
member of the Daughters of the American Revolution until her death at age 99. The Jewett family
purchased approximately 10,000 acres of prime
real estate and established a plantation and thriving businesses, including lumber enterprises, saw
mill, live stock and dairy cattle and sugarcane
operations. Their property was named “Lewiston”
due to other family connections to New England. In

77a
1925, William Otis Fuller married Jennie Jewett
after which he took over the operations of Lewiston. William and Jennie Fuller had eight children,
four boys and four girls. in addition to their thriving plantation and business operations in Cuba,
the Fullers also possessed and maintained a home
in Miami, Florida where the boys attended High
School. The girls all attended a boarding school in
Massachusetts. However, Lewiston was “home” to
Jennie, and William Fuller and all of the children,
especially Bobby, the eldest male, who in fact
shortly prior to his death had inherited the task of
running the Lewiston Plantation and associated
business enterprises. Bobby’s father, William
Fuller possessed a Harvard education and a University of Miami law degree. In short, the Fullers
were recognized as a highly successful and civic
minded family in both Cuba and the United States.
B. BOBBY FULLER:
Bobby Fuller was born on the Plantation in
Lewiston, Cuba on May 11, 1934. From birth he
possessed dual citizenship in both Cuba and the
United States and remained an American citizen
through the date of his death, Bobby attended and
graduated from Miami Senior High School in 1952.
Shortly thereafter, he fell in love with and was
married to Maretta June Wixsom. After the commencement of the Korean conflict, Bobby enlisted
in the United States Marine Corps and served honorably in Korea from March 23, 1954 through
March 22, 1957. Lynita Fuller, Bobby’s beautiful

78a
baby girl, was born while he was serving on foreign
soil on October 29, 1954. Unfortunately, after Lynita’s birth, while Bobby was still serving his country
in Korea, he learned of his wife’s infidelity which
lead to the couple’s divorce in 1956. In his absence,
and in light of his wife’s difficulties, it was agreed
that Lynita’s maternal grandparents would maintain custody over her until such time as Bobby had
obtained his discharge and put certain family matters in order, including the family’s possessions,
home and business operations in Cuba, which was
feeling the effects of political turmoil which ultimately lead to the Fidel Castro lead revolution. In
fact, after his discharge, Bobby spent most of his
time in Cuba having inherited the reigns of control
of their various businesses from his father. Due to
the existing turmoil, Bobby allowed his daughter to
remain in the custody of his grandparents as he did
not think it was safe for her in his beloved, Lewiston.
C. BOBBY FULLER’S “TRIAL, TORTURE
AND EXECUTION”:
By December of 1959, the communist revolution
was in full force on the island of Cuba. The sanctity
of personal holdings and the survival of existing
business enterprises such as the Fullers’ were
threatened. Bobby’s father, William, was repeatedly
harassed and threatened by members of the Castro
led revolutionary movement. On one such occasion,
armed revolutionaries came to the Lewiston plantation, placed a noose around William Fuller’s neck

79a
and threatened to hang him due to his ties to
America and their concerns over his loyalty to the
“Revolution.” After going to his father’s side and
protesting such treatment, a gun was put to
Bobby’s head and his life was threatened as well.
Thereafter, William Fuller returned to Miami,
However, Bobby stayed In Lewiston to look over
and protect his mother and the Fuller family properties and operations. After a short visit to Miami,
Bobby returned in early October of 1960 to the family Lewiston plantation. Shortly after his arrival,
he was arrested by Castro agents and charged with
counterrevolutionary activities against the Castro
regime. Like most other prisoners of the regime,
Mr. Fuller was kept in solitary confinement except
for those periods of time that he was interrogated
and/or tortured, until such time as he capitulated
by signing a prepared confession.
By 4:00 P.M. on the day of his arrest, October 15,
1960, Bobby was escorted to a military run tribunal
where he was charged, tried and sentenced to
death within a period of only a few minutes. Those
present described a “Roman circus atmosphere.”
Bleachers were set up to allow for hundreds of proCastro supporters to participate by yelling and
screaming, “PAREDON, PAREDON” (TO THE WALL, TO
THE W ALL !! referencing a location for firing squad
executions). Other exclamations of, “DEATH TO THE
AMERICANS, DEATH TO THE YANKEES!!” were also
rampant. It was in this bloodthirsty atmosphere
that Bobby, with several others, was escorted in
chains down an aisle and ordered to stand before
the tribunal encompassed purely of Castro regime

80a
members. Mr. Fuller was not allowed to sit. Mr.
Fuller was not allowed to call any witnesses. Mr.
Fuller was not provided with effective defense
counsel as evidenced by the Affidavit of Richard
Jewett, an eyewitness to the proceedings. It was in
a period of approximately 15 minutes that Bobby’s
trial was completed, he was sentenced to death by
a firing squad and his appeal was denied. After
these inhuman, sham proceedings, Bobby was
immediately removed to a jail cell where he sat in
solitary confinement awaiting his execution by firing squad. After persistent protests, his mother
Jennie Fuller was allowed a very short visit with
him, at which time he professed his love and affection for her, his father, his siblings and his daughter, Lynita. As the five minute period evaporated,
Bobby Fuller handed over his only keepsake, a
ring, with a request that it be given to his brother
Freddy who would know what to do with it.
In the early morning hours of October 16th,
Bobby Fuller was removed from his cell and taken
to a location where his blood was drained. Thereafter, he was driven to Santiago de Cuba, where he
was executed by firing squad. Notwithstanding his
mother’s pleas to have his body returned to her for
burial at the family cemetery in Lewiston, Bobby
Fuller’s remains were thrown in an unmarked
ditch at an unknown location shared by countless
other victims of the firing squads. To date, the
whereabouts of Bobby’s remains have never been
disclosed. Bobby Fuller was 25 years old and his
execution took less than 24 hours after his arrest

81a
and within two weeks of his loving daughter’s sixth
birthday.
After the proceedings, The United States State
Department filed a formal protest, that was personally delivered to the Cuban Foreign Ministry
by the United States Charge d’Affaires, Daniel
Braddock, which denounced the proceedings and
charged that the Cuban authorities had “failed to
observe basic civilized standards.” The United
States protest described the events as having been
carried out in a “Roman Circus atmosphere,” and
personalty charged Premier Fidel Castro’s regime
as being guilty of “inhuman behavior,” in refusing
to release Bobby Fuller’s body to his relatives for
humane burial.
“The aforementioned facts clearly demonstrate
that Bobby Fuller was not afforded the “judicial
guarantees which are recognized as indispensable
by civilized peoples,” and that he was the subject of
the acts of terrorism as described herein of both
torture and extra-judicial killing as defined under
28 USC § 1605(a)(7). The violations of these guarantees include, but are not limited to the following:”
a)

Mr. Fuller and his family received inadequate notice of the trial as is well established by fact that no more than 24 hours
elapsed between his arrest and summary
execution.

b)

Prior to this sham of a court proceeding,
Mr. Fuller was questioned extensively
without the presence of an attorney.

82a
c)

Mr. Fuller was held in solitary confinement prior to his “trial” during which time
he was extensively interrogated and tortured to the point where he capitulated by
signing a prepared confession.

d)

Mr. Fuller was not afforded the opportunity of effective legal counsel of his own
choosing.

e)

Mr. Fuller was not afforded adequate time
to prepare a defense, particularly in light
of the severity of the charges and potential
penalties

f)

In fact, Mr. Fuller was denied the opportunity to provide a defense.

g)

The tribunal did not disclose its intent to
seek the death penalty prior to trial, and if
fact, assured him that it would not be
imposed in order to obtain his confession.

h)

Mr. Fuller was taunted and humiliated for
being an American by the prosecutor, the
tribunal and the frenzied mob present to
witness the spectacle.

i)

Mr. Fuller was denied access to family
members prior to his death and his remains
were disposed of in a manner reflecting the
complete absence of any humanity.

This Court further finds that Defendants, Fidel
Castro Ruz, Raul Castro Ruz, the Cuban Revolutionary Armed Forces and El Ministerio Del Interi-

83a
or were at all times material hereto, inclusive of
the torture and extra-judiclal killing of Bobby
Fuller, acting as agents and instrumentalities of
the Republic of Cuba in the implementation of policy at the operational level in such a manner as to
mandate the award of both compensatory and punitive damages. The Court further finds that the
Defendant Republic of Cuba supervised, directed
benefited from and is legally responsible for the
actions of its agents and instrumentalities as set
forth in this Judgment.
D. COMPENSATORY DAMAGES:
The amendments to the FSIA, 28 USC
§ 1605(a)(7) and 28 USCA § 1605, as well as governing federal, state and international standards, permit the recovery of compensatory damages. As
enumerated in those amendments, these damages
may include economic losses resulting from the
death of Mr. Fuller, survival damages, including
the pain and suffering of the decedent between the
time of his arrest and his illegal execution, and
solatium, which is inclusive of mental anguish, loss
of the decedent’s love, affection, care, attention,
companionship, comfort and protection, bereavement, grief and hurt feelings sustained by any family member with a “close emotional relationship
with the decedent,” including siblings. See Flatow,
supra, at 30-32. Relevant decisions agree that the
trial Court is provided broad discretion and may
take into consideration a wide variety of factors,
including the decedent’s achievements and plans

84a
for the future which would have affected the
claimants. Flatow, supra, at 32. Furthermore, it has
been recognized that “the malice associated with
terrorist attacks transcends even that of pre-meditated murder. The intended audience of a terrorist
attack is not limited to the families of those killed
and wounded. . .but in this case, the American
public. . .the terrorist intent is to strike fear not
only for one’s own safety, but also that of friends
and family and to manipulate that fear in order to
manipulate political objectives. Thus, the character
of the wrongful act itself increases the magnitude
of the injury. It does demand a corresponding increase
in compensation for increased injury.”
In this matter, this Court has heard compelling
evidence concerning the significant losses sustained
by the Plaintiffs herein, including the following:
a)

The economic losses sustained by the Estate
of Robert Otis Fuller.

b)

The pain and suffering sustained by Robert
Otis Fuller between the time of his arrest
and his illegal and summary execution.

c)

The solatium sustained by his siblings,
Frederick Fuller, Frances Fuller, Grace
Lutes, Jeannette Hausier and Irene Moss.

d)

The solatium of Robert Otis Fuller’s daughter, Lynita Fuller, of incomprehensible
proportions.

85a
1. Economic Loss:
In support of the claim for economic loss, the
Plaintiffs presented the expert testimony of Dr.
Octavio Verdeja, Jr., a Certified Public Accountant,
an expert in business valuation, who has over the
years provided calculations for businesses transported from Cuba to the United States. Mr. Verdeja
calculated the economic losses suffered by the
Plaintiffs as a result of Bobby Fuller’s death by
using two alternative means. Under Method I, Mr.
Verdeja calculated the probable current value of
Mr. Fuller’s Estate had Bobby Fuller lived to pursue the types of business interests he had successfully maintained through his death. Specifically,
Mr. Verdeja calculated the present money value of
Mr. Fuller’s business enterprises including dairy
milk production, beef, piso (the leasing of land for
cattle grazing), lumber and sugar cane production.
Under method I, the present money value of the
economic loss sustained by the Plaintiffs in this
case amounts to $88,549,377.00. Under Method II,
Mr. Verdeja calculated the probable present money
value of Mr. Fuller’s Estate, had he lived without
regard to the types of business interests he had
successfully pursued prior to his death. Specifically,
Mr. Verdeja calculated the present money value of
the income and savings that Mr. Fuller would have
generated, given the resources available to him at
the time of his death. Under this methodology, the
present money value of the loss sustained by the
Estate was $50,995,962.00.

86a
This Court finds that even the most conservative
view of the evidence presented justifies a substantial economic award. Accordingly, compensatory
damages for economic losses resulting from the
death of Bobby Fuller are hereby awarded in the
amount
of
Sixty
Five
Million
Dollars
($65,000,000.00).
2.

The Pain and Suffering sustained by
Bobby Fuller prior to execution

With regard to this item of damage, the Court
had the benefit of both lay and the expert testimony of Claudia Edwards, Ph.D., which depicted
severe mental pain and anguish experienced by
Bobby Fuller between the time of his arrest and
ultimate execution, including but not limited to the
horror of standing before a biased tribunal in a setting described by diplomatic onlookers as a “Roman
Circus,” undergoing a sham of a trial and being
sentenced to death, all in the presence of his mother, being placed in solitary confinement without
any opportunity to speak to family with the limited
exception of a heart rendering 5 to 10 minutes with
his mother, being removed to an infirmary where
his blood was drained and then ultimately walked
before a firing squad for his execution.
Based upon the lay and expert testimony
received, and after contemplation of the circumstances surrounding the last tragic moments of Mr.
Fuller’s life, damages are hereby awarded by this
Court to Mr. Fuller’s Estate for this element of
damage in the amount of Five Million Dollars
($5,000,000.00).

87a
3.

Solatium of Siblings, Frederick Fuller,
Frances Fuller, Grace Lutes, Jeannette
Hausler and Irene Moss

This Court received compelling evidence concerning the close emotional relationship between Bobby
Fuller and his beloved brothers and sisters, Frederick Fuller, Frances Fuller, Grace Lutes, Jeannette
Hausler and Irene Moss. It is clear from the evidence presented that each of the siblings suffered a
devastating and permanent injury as a result of the
torture and extra-judicial killing of their brother,
Bobby Fuller. This Court also finds that their loss
arising from their brother’s torture and extra-judicial killing was heightened by the inhumane denial
of the Defendants to return Mr. Fuller’s remains to
his family for proper burial and the establishment
of a proper and permanent memorial. Although
this Court heard evidence in profound detail concerning each siblings painful reaction to the events
and the irreparable harm to them as a result of
their brother’s death, this Court finds it impossible
to say that one sibling suffered anymore than another, and accordingly, compensatory damages for the
pain and suffering of Bobby Fuller’s siblings are
hereby awarded as follows:
Frederick
Fuller
Four
Million
Dollars
($4,000,000.00)
Frances
Fuller
Four
Million
Dollars
($4,000,000.00).

88a
Grace
Lutes
Four
Million
Dollars
($4,000,000.00).
Jeannette Hausler Four Million Dollars
($4,000,000.00)
Irene Moss Four Million Dollars ($4,000,000.00)
4.

Solatium of Robert Otis
Daughter, Lynita Fuller:

Fuller’s

With regard to Lynita Fuller, this Court heard
extraordinary lay and expert testimony reflecting
the devastating impact of the absence of Bobby
Fuller on Lynita’s life. The evidence detailed not
only the decedent’s achievements, but the plans for
his future with Lynita. This Court has also been
impressed by the testimony reflecting that as a
result of Bobby Fuller’s death, Lynita was isolated
from the entire Fuller family and as a result lost
the extensive benefits that would have been hers,
in the form of love, companionship and nurturing.
In the absence of Bobby Fuller’s presence, the evidence was that Lynita was turned over to her
maternal grandparents, both of whom were alcoholics and ignored the duties entrusted to them as
her custodians, and in fact, subjected her to abusive treatment and circumstances. In addition, this
Court also was struck by evidence to the effect that
Lynita’s mother was also an alcoholic who subjected her daughter to physical and sexual abusive perpetrated by her boyfriend, and then, Lynita’s
stepfather. As described by Dr. Claudia Edwards,
an expert in psychological trauma, Lynita sustained serious and irreparable psychological harm

89a
manifesting itself in severe loss of self-esteem and
self-worth, as well as isolation and significant
depression, which drastically impaired her ability
to enjoy or even pursue the happiness to which she
was entitled. In short, this Court finds from the
evidence presented that Bobby Fuller’s torture and
summary execution had an devastating impact
upon his daughter Lynita and compensatory damages are hereby awarded as follows:
Solatium of LYNITA CASKEY FULLER: Ten Million
Dollars ($10,000,000.00).
E. PUNITIVE DAMAGES
“The purpose of Punitive Damages, as the name
implies is to punish wrongful conduct—to prevent
its repetition by the offender and to deter others
who might choose to emulate it. . .The victim to
whom the award is made thus stands as a surrogate for civilized society in general; the victim is
made more than whole in order that others may be
spared a similar injury. . . .Yet another reason to
award punitive damages in this particular case is
to vindicate the interest of society at large in the
collection and dissemination of complete and accurate information about world conflicts.” Anderson
v. The Islamic Republic of Iran, 90 F. Supp 2d 107
(USDC DC 2000). Therefore, in order to arrive at
the proper punitive award and to serve the aforementioned purposes of the subject legislative
enactments, it was important to gain an understanding of the Defendants’ terrorist behavior, and

90a
support thereof, over time, in order to gage its
repetitive nature and assess the proper deterrent.
In the present matter, the evidence presented to
this Court, in credible detail, demonstrated the
Defendants’ persistent, undeterred commitment to
international terrorist activity and the sponsorship
thereof.
The facts supporting the punitive claim are set
forth in the Plaintiffs’ Second Amended Complaint
34 through 56, (Pages 9 through 15), all of which
are deemed admitted or otherwise established as a
matter of law pursuant to the Defendants’ default
in this case. The punitive claim in this case was
also supported by the testimony of lay and expert
testimony, particularly Dr. Jaime Suchlicki which
corroborated those facts set forth in the Second
Amended Complaint and further expanded upon
the Defendants’ role in the arena of international
terrorism, Unbeknownst to most Americans, the
Defendants in this cause, have engaged in and provided uninterrupted support of international terrorism for more than four decades, dating at least
to the time of the death of Bobby Fuller. It is by no
coincidence that the Republic of Cuba was one of
the original designated state sponsors of terrorism
and has remained on that list ever since. As early
as the 1960’s the Defendants established training
camps in and around Havana, Cuba, utilized by
members of various international terrorist organizations, including the PLO, Hamas and Hezbolah.
In January of 1966, Fidel Castro and the other
Defendants sponsored and hosted the “Tri-Continental Conference,” in Havana, Cuba, which had

91a
the stated purpose of devising a global strategy
against “American and Western Imperialism.”
This meeting was attended by a plethora of
terrorist groups including those from Africa, the
Middle East, Central and South America. In so
doing, the Defendants were credited with establishing the “first” international terrorist network
and support structure. In conjunction with that
conference, the Defendants facilitated the publication of the “Minimanual of the Urban Guerrilla,”
which encouraged international terrorist acts and
provided step-by-step instructions as to how to
carry out such activities as bomb building, kidnapping, sabotage and hostage taking. This guideline
has no doubt been used by many, if not all, of the
terrorists groups posing a threat to the United
States and civilized society, including the PLO,
Hamas, Hezbolah, ETA and Los Macheteros. September 11, 2001 was not the first terrorist attack
on American soil bringing death to American citizens. We need to look only at the actions of the
Macheteros, a terrorist group recognized by the
F.B.I. and the US Department of State, to have
been trained and financed by the Defendants in
this cause, as an example of this unfortunate, but
little known fact. Amongst their “credits” of attacks
upon the United States, we can include the following:
a)

The 1979 Ambush of a United States Navy
bus killing two U.S. sailors and wounding
nine.

92a
b)

The 1983 armed robbery of a Wells Fargo
depot in West Hartford, Connecticut in
which they absconded with 7.1 million
dollars. The second largest cash robbery in
American history. 14 of the 19 members of
that group were arrested and convicted.
Unfortunately, the leader of the group,
Victor Gerena escaped and is known by the
F.B.I. to be living in Cuba, harbored by the
Defendants. The F.B.I. specifically uncovered that this operation was financed by
the Defendants, and in fact, traced at least
2 million dollars of the proceeds to
Havana. Mr. Gerena is still on the F.B.I.’s
Most Wanted Listed.

The aforementioned matters are but a small example of the Defendants’ willful, wanton and intentional crimes against civilized society. As reflected
in the Second Amended Complaint, and corroborated and expanded upon by the trial testimony in this
case, the Defendants have provided training, intelligence, financial support and otherwise sponsored
international terrorist groups, including but not
limited to the E.L.N., E.T.A. F.A.R.C., HAMAS,
HEZBOLAH, I.R.A., LOS MACHETEROS, M19, P.L.O.,
TUPAMAROS, and TUPAC AMARU. In fact, the PLO
and several other of these organizations have long
maintained headquarters in Havana. The F.B.I.
have identified no less than 77 known fugitives
believed to be harbored by the Defendants in Cuba
including, Joan Shesimard a/k/a Asatah Shakur,
one of the United States’ most wanted fugitives for

93a
killing a New Jersey State Trooper in 1973, Charlie
Hill, a member of the Republic of the New Africa
Movement wanted for the hijacking of TWA 727
and the murder of a New Mexico State Trooper,
amongst many, many others.
As reflected by the State Department’s annual
review of states sponsoring terrorism, the Defendants engagement and support of international terrorism has continued through the present date
unabated. We need only turn to Castro’s statements at Tehran University in 2001, where he
proudly proclaimed, “Iran and Cuba, in cooperation
with each other, can bring America to its’ knees,”
and the US Department of State’s acknowledgments of Havana’s close ties and support of Hamas
and Hezbolah in locations as proximal as the
tri-border area to understand the unrelenting
motive of the Defendants to bring terrorism to the
United States and to strike fear in the hearts of its
citizenry.
In summation, the testimony and documentary
evidence presented in this case conclusively establish that Fidel Castro, Raul Castro, The Cuban
Revolutionary Armed Forces and the Ministry of
the Interior acting in the scope of their capacity as
agents and/or instrumentalities of the Republic of
Cuba have engaged in repetitive and undeterred
use and support of international terrorism, inclusive of torture and extrajudicial killings (dating
at least to, and including, the extrajudicial killing
of Bobby Fuller), which mandates a powerful
response in the form of punitive damages. In accor-

94a
dance therewith, punitive damages are hereby
awarded against FIDEL CASTRO RUZ, individually,
and as President of the State and Counsel of
Ministers, Head of the Communist party and
Commander in Chief of the Military, RAUL CASTRO
RUZ, individually, and as First Vice President of
the Counsel of State and Counsel of Ministers and
head of the Cuban Revolutionary Armed Forces,
T HE C UBAN R EVOLUTIONARY A RMED F ORCES , E L
MINISTERIO DEL INTERIOR and THE REPUBLIC OF
CUBA to which the actions of its agents and instrumentalities are imputed, punitive damages in the
amount of: Three Hundred Million Dollars
($300,000,000.00).
IT IS HEREBY ORDERED AND ADJUDGED that a
Final Judgment is hereby GRANTED on behalf of
JEANNETTE HAUSLER, as Personal Representative of
the Estate of Robert Otis Fuller (BOBBY FULLER),
Deceased, and against the Defendants, THE REPUBLIC
OF C UBA , F IDEL C ASTRO R UZ , R AUL C ASTRO R UZ ,
THE CUBAN REVOLUTIONARY ARMED FORCES AND EL
MINISTERIO DEL INTERIOR, jointly and severally as
follows:
1. For Economic losses due the Estate in
the amount of: Sixty Five Million Dollars
($ 65,000,000.00).
2. For non-economic compensatory damages, the
amount of: Thirty Five Million Dollars
($35,000,000.00).
3. Punitive damages in the amount of: Three
Hundred Million Dollars ($300,000,000.00).

95a
The sum execution may issue forthwith against
the said Defendants and any of their assets wherever situated. This Court will retain jurisdiction to
enforce this judgment or any matters pertaining
thereto. This Judgment shall bear interest at a rate
of 9% percent per year from date of entry until satisfied.
DONE AND ORDERED in Miami-Dade County, Florida
this 19 day January of 2007.
/s/ Thomas S. Wilson, Jr.
Thomas S. Wilson, Jr.
Circuit Court Judge
Copies furnished for:
JOHN S. GAEBE, ESQ.
ALFONSO PEREZ, ESQ.
ROBERTO MARTINEZ, ESQ.
RON KLEINMAN, ESQ.

96a
IN THE CIRCUIT OF THE 11TH
JUDICIAL CIRCUIT IN AND FOR
MIAMI-DADE COUNTY, FLORIDA
GENERAL JURISDICTION DIVISION
CASE NO. 02-12475
JEANNETTE HAUSLER as Successor Personal Representative of the Estate of ROBERT OTIS FULLER,
(“BOBBY FULLER”), Deceased, on behalf of THOMAS
CASKEY as Personal Representative of the Estate of
L YNITA F ULLER C ASKEY , surviving daughter of
ROBERT OTIS FULLER, and The ESTATE OF ROBERT
OTIS FULLER,
Plaintiff,
vs.
THE REPUBLIC OF CUBA, and
EL MINISTERIO DEL INTERIOR
Defendants.
PLAINTIFFS’ WITNESS
AND EXHIBIT LIST
Plaintiff, through undersigned counsel, in compliance with this Court’s Pre-Trial Instructions,
files this list of witnesses and exhibits:

97a
WITNESSES
1.

The parties

2.

impeachment and rebuttal witnesses

3.

Ms. Jeannette Hausler
c/o University of Miami School of Law
P.O. Box 248087
Miami, FL 33176

4.

Tom Caskey
695 East 8th Avenue
Hialeah, FL 33010

5.

Bill Fuller
637-12th Street, Apt. 6
Miami Beach, FL

6.

Freddy Fuller
637-12th Street, Apt. 6
Miami Beach, FL

7.

Mr. Richard Jewett
6376 S.W. 11th Street
Miami, FL 33144

8.

Ms. Francis Fuller
9460 S.W. 106th Court
Miami, FL 33176

9.

Laura Patella-Sanchez, Esq.
University of Miami
Institute for Cuban and
Cuban American Studies
1531 Brescia Avenue
Coral Gables, FL 33124

98a
10. Claudia Edwards, Ph.D.
6301 S.W. 98th Street
Miami, FL 33156
11. Oscar Padron, CPA
Turner & Associates
19 West Flagler Street, Suite 600
Miami, FL 33130
12. Jaime Suschlicki, Director
University of Miami
Institute for Cuban and
Cuban American Studies
1531 Brescia Avenue
Coral Gables, FL 33124
13. U.S. Congressman, Peter Deutsch
1001 Pines Blvd.
Pembroke Pines, FL 33026
14. Esperanza DeVarona
University of Miami,
Cuban Heritage Collection
1300 Memorial Drive
Coral Gables, FL 33124
EXHIBITS
1.

Bobby Fuller’s Birth Certificate

2.

Bobby Fuller’s Citizenship Certificate

3.

Bobby Fuller’s US Marines Certificate

4.

Lynita Fuller Caskey’s Birth Certificate
and Death Certificate

99a
5.

Bobby Fuller’s Report of Death

6.

Photographs of Bobby Fuller and
the Fuller Family,

7.

Photographs of Bobby Fuller &
Lynita Fuller

8.

Photographs of family in Cuba and
ranch in Holguin, Cuba

9.

Books, Newspaper articles, magazine
articles and other publishings

10. Copy of the Geneva Convention
11. Blow-UP “Time Line of events leading
to execution”
12. Videocassette of the deposition of
Peter Deutsch (re: Anderson v. Cuba)
13. Expert reports on Cuba, tables, graphs
14. Depo transcripts utilized in case of
Anderson v. The Republic of Cuba
15. Exhibits utilized in case of
Anderson v. The Republic of Cuba
16. Videotape of the Fuller family and
Lynita Caskey Fuller.
17. Order Appointing Jeannette Hausler
as Personal Representative of
Estate of Robert Fuller
18. Order Appointing Robert Caskey
as Personal Representative of the
Estate of Lynita Caskey Fuller.

100a
I HEREBY CERTIFY that a true and correct copy of
the foregoing was mailed to ALFONSO PEREZ, ESQ.,
and IAN MARTINEZ, ESQ. of RASCO, EININGER, PEREZ
& ESQUENAZI, P.I., Co-Counsel for Plaintiff at 283
Catalonia Avenue, 2nd Floor, Coral Gables, Florida
33134, this 9th day of September, 2004.
GAEBE & MCCULLOUGH, P.A.
Attorneys for Plaintiffs
3211 Ponce DeLeon Blvd., Suite 201
Coral Gables, FL 33134
Telephone No. 305-443-1922
Fax No.
305-443-1917
By: /S/

JOHN S. GAEBE
John S. Gaebe

101a
UNITED STATES DISTRICT COURT
Southern District of Florida
Case Number: 08-20197-CIV-JORDAN-McALILEY
Doc #143
Filed September 24th, 2008
Jeannette Hausler a Personal Representative
of the Estate of ROBERT OTIS FULLER et al
Plaintiff
v.
Republic of Cuba, et al
Defendant
CERTIFICATION OF JUDGMENT FOR
REGISTRATION IN ANOTHER DISTRICT
I, STEVEN M. LARIMORE, Clerk of the United States
district court certify that the attached judgment is
a true and correct copy of the original judgment
entered in this action on 8/20/2008, as it appears in
the records of this court, and that
* No Notice Appeal from this Judgment has been
filed, and no motion of any kind listed in Rule 4(a)
* Insert the appropriate language: . . . “no notice of
appeal from this judgment has been filed, and no motion of
any kind listed in Rule 4(a) of the Federal Rules of Appellate

102a
of the Federal Rules of Appellate Procedure has
been filed.
IN TESTIMONY WHEREOF, I sign my name and affix
the seal of this Court.
September 22, 2008
Date

/s/ STEVEN M. LARIMORE
Clerk
[ILLEGIBLE]
(By) Deputy Clerk
A Certified Copy
J. MICHAEL MCMAHON CLERK
BY /s/ LATECIA CURTIS
DEPUTY CLERK

Procedure has been filed.” . . . “no notice of appeal from this
judgment has been filed, and any motions of the kinds listed
in Rule 4(a) of the Federal Rules of Appellate Procedure (†)
have been disposed of, the latest order disposing of such a
motion having been entered on [date]”. . . “an appeal was
taken from this judgment and the judgment was affirmed by
mandate of the Court of Appeals issued on [date].”. . . “an
appeal was taken form this judgment and the appeal was dismissed by order entered on [date].”
(†Note: The motions listed in Rule 4(a), Fed. R. App, P., are
motions: for judgment notwithstanding the verdict; to amend
or make additional findings of fact; to alter or amend the
judgment; for a new trial; and for an exension of time for filing a notice of appeal.)

103a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 08-20197-CIV-JORDAN
CLOSED CIVIL CASE
JEANNETTE HAUSLER as Successor Personal Representative of the Estate of ROBERT OTIS FULLER,
(“BOBBY FULLER”), Deceased, on behalf of THOMAS
CASKEY as Personal Representative of the Estate
of LYNITA FULLER CASKEY, surviving daughter of
ROBERT OTIS FULLER, The ESTATE OF ROBERT OTIS
F ULLER , F REDERICK F ULLER , F RANCES F ULLER ,
GRACE LUTES, JEANNETTE HAUSLER, AND IRENE MOSS
Plaintiffs,
vs.
THE REPUBLIC OF CUBA, FIDEL CASTRO RUz, individually and as President of the State and Council Of
Ministers, Head of the Communist Party and Commander-in Chief of the Military, RAUL CASTRO RUZ,
individually and as First Vice President Of the
Council of State and Council of Ministers and Head
of the Cuban Revolutionary Armed Forces, The
C UBAN R EVOLUTIONARY A RMED F ORCES , and E L
MINISTERIO DEL INTERIOR,
Defendants

104a
AMENDED FINAL DEFAULT JUDGMENT
GRANTING FULL FAITH &
CREDIT TO STATE JUDGMENT1
The plaintiffs’ motion for final default judgment
[D.E. 36] against defendants The Republic of Cuba,
Fidel Castro Ruz, Raul Castro Ruz, and The Cuban
Revolutionary Armed Forces is GRANTED.
Pursuant to 28 U.S.C. § 1738, full faith and credit, and federal recognition, is given to the Amended
Final Judgment Dated January 19, 2007, in Hausler
et al. v. Republic of Cuba et al., No, 02-12475 (Div.
04), Eleventh Judicial Circuit, in and for MiamiDade County, Florida (“Amended Judgment”),
which awarded the plaintiffs 400 million dollars in
damages against the defendants jointly and severally, and bore interest at the rate of 9% per annum
under Florida law until satisfied.
Given that the Amended Judgment has not been
satisfied, interest on the judgment (at the rate of
9%) stands at 54 million dollars as of July 19, 2008.
The Amended Judgment is therefore now 400 million dollars in damages, plus 54 million dollars in
interest, in favor of the plaintiffs and against the
defendants against whom final default judgment is
hereby entered.
The Amended Judgment will bear post-judgment
interest from July 28, 2008, the date of this Court’s
prior Order, at the rate set by 28 U.S.C. § 1951.
1

Amended solely to exclude Defendant El Ministerio Del
interior.

105a
The Clerk is hereby ordered to administratively
re-open this matter.
DONE AND ORDERED in chambers in Miami-Dade
County, Florida, this 20th day of August, 2008.
/s/
ADALBERTO JORDAN
Adalberto Jordan
United States District Judge
cc: All counsel of record
[SEAL]
Certified to be a true and correct
copy of the document on file
Steven M. Larimore, Clerk,
U.S. District Court
Southern District of Florida
By /s/

[ILLEGIBLE]
Deputy Clerk

Date September 22, 2008

106a
Argument Schedule for consolidated
Appeals in 12-1264-cv(L)
ISSUES TO BE ARGUED:
TRIA Interpretation, Preemption,
5th Amendment and U.C.C. Article 4-A
Arguing in opposition to
District Court decision(s)
Bank of America, N.A.,
Citibank, N.A.
JP Morgan Chase Bank, N.A.
Royal Bank Of Scotland N.V.,
fka Abn Amro Bank N.V.
UBS AG
************
Banco Bilbao Vizcaya
Argentina, S.A.
Banco Bilbao Vizcaya
Argentina Panama, S.A
Caja de Ahorros y Monte
de Piedad de Madrid
Estudios Mercados
y Suministros, S.L.
LTU LuftransportUnternehmen
Novafin Financiere, S.A.
Phillips Mexicana S.A.De C.V.
Premuda S.p.A.
Shanghai Pudong
Development Bank Co. Ltd.
United States as
Amicus Curiae

(
(
(

)
)
)

}
}
}

(
(

)
)

}
}

(

)

}

(

)

}

(

)

}

(

)

}

(
(
(
(

)
)
)
)

}
}
}
}

(

)

}

(8 )

11 total

11 total

107a
Arguing in support of
District Court decision(s)
Jeannette Fuller Hausler

(30)

ISSUES TO BE ARGUED:
Appellate Jurisdiction, Article III Standing,
Prudential Standing and
Improper Intervenor and Interpleader
Arguing that these issues
should be decided against
Appellants
Jeannette Fuller Hausler

(10)

Arguing that these issues
should be decided in favor
of Appellants
Banco Bilbao Vizcaya
Argentina, S.A.
Banco Bilbao Vizcaya
Argentina Panama, S.A
Caja de Ahorros y Monte
de Piedad de Madrid
Estudios Mercados
y Suministros, S.L.
LTU LuftransportUnternehmen
Novafin Financiere, S.A.
Phillips Mexicana S.A.De C.V.
Premuda S.p.A.
Shanghai Pudong
Development Bank Co. Ltd.

(

)

}

(

)

}

(

)

}

(

)

}

(
(
(
(

)
)
)
)

}
}
}
}

(

)

}

10 total

108a
ISSUES TO BE ARGUED:
Status, Effect and Enforceability
of Florida State and
Florida Federal Judgments
Arguing in opposition to
District Court decision(s)
Banco Bilbao Vizcaya
Argentina, S.A.
Banco Bilbao Vizcaya
Argentina Panama, S.A
Caja de Ahorros y Monte
de Piedad de Madrid
Estudios Mercados
y Suministros, S.L.
LTU LuftransportUnternehmen
Novafin Financiere, S.A.
Phillips Mexicana S.A.De C.V.
Premuda S.p.A.
Shanghai Pudong
Development Bank Co. Ltd.

(

)

}

(

)

}

(

)

}

(

)

}

(
(
(
(

)
)
)
)

}
}
}
}

(

)

}

Arguing in support of
District Court decision(s)
Jeannette Fuller Hausler

(8 )

8 total

